<html>
<title> - EXAMINING THE CYBER THREAT TO CRITICAL INFRASTRUCTURE AND THE AMERICAN ECONOMY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
EXAMINING THE CYBER THREAT TO CRITICAL INFRASTRUCTURE AND THE AMERICAN 
                                ECONOMY

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON CYBERSECURITY,

                       INFRASTRUCTURE PROTECTION,

                       AND SECURITY TECHNOLOGIES

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 16, 2011

                               __________

                           Serial No. 112-11

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________





                  U.S. GOVERNMENT PRINTING OFFICE
72-221                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Vacancy
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

                                 ------                                

SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND SECURITY 
                              TECHNOLOGIES

                Daniel E. Lungren, California, Chairman
Michael T. McCaul, Texas             Yvette D. Clarke, New York
Tim Walberg, Michigan, Vice Chair    Laura Richardson, California
Patrick Meehan, Pennsylvania         Cedric L. Richmond, Louisiana
Billy Long, Missouri                 William R. Keating, Massachusetts
Tom Marino, Pennsylvania             Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                    Coley C. O'Brien, Staff Director
                    Alan Carroll, Subcommittee Clerk
             Dr. Chris Beck, Minority Subcommittee Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies...................................................     1
The Honorable Yvette D. Clark, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies...................................................     2

                                Witness

Mr. Philip Reitinger, Deputy Under Secretary, National Protection 
  and Programs Directorate, Department of Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6
Mr. Gregory Wilshusen, Director of Information Security Issues, 
  Government Accountability Office:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Dr. Phyllis Schneck, Vice President and Chief Technical Officer, 
  McAfee Inc.:
  Oral Statement.................................................    32
  Prepared Statement.............................................    34
Mr. James A. Lewis, Director and Senior Fellow, Technology and 
  Public Policy Program, Center for Strategic and International 
  Studies:
  Oral Statement.................................................    39
  Prepared Statement.............................................    40
Ms. Mischel Kwon, President, Mischel Kwon Associates:
  Oral Statement.................................................    46
  Prepared Statement.............................................    47

                                Appendix

Question From Chairman Daniel E. Lungren of California...........    63


                     EXAMINING THE CYBER THREAT TO 
            CRITICAL INFRASTRUCTURE AND THE AMERICAN ECONOMY

                              ----------                              


                       Wednesday, March 16, 2011

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Cybersecurity, Infrastructure Protection, 
                                 and Security Technologies,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 311, Cannon House Office Building, Hon. Daniel E. Lungren 
[Chairman of the subcommittee] presiding.
    Present: Representatives Lungren, McCaul, Walberg, Meehan, 
Long, Marino, Clarke, Richmond, and Keating.
    Mr. Lungren. The Committee on Homeland Security, 
Subcommittee on Cybersecurity, Infrastructure Protection, and 
Security Technologies will come to order.
    The subcommittee is meeting today to hear testimony from 
Phil Reitinger, the Deputy Under Secretary for National 
Protection and Programs Directorate of DHS; Gregory Wilshusen, 
the Director of Information Security Issues at GAO; Phyllis 
Schneck, Vice President and Chief Technology Officer at McAfee, 
Inc.; James Lewis, Director and Senior Policy Fellow at the 
Center for Strategic and International Studies; and Mischel 
Kwon, President of Mischel Kwon Associates, LLC.
    Today we will examine the cyber threat to U.S. critical 
infrastructure, how it affects the economy, and what Government 
is doing to address the threat.
    Twenty-five years ago, the concept of cyber threat, or a 
cyber attack, was an issue of interest to really only a few 
researchers in academics. In this post-9/11 terrorist era the 
cyber threat is serious, multifaceted, and boundless, posing a 
significant risk to U.S. economic and National security.
    The Director of National Intelligence stated in testimony 
before the Congress, ``The growing connectivity between 
information systems, the internet, and other infrastructures 
creates opportunities for attackers to disrupt 
telecommunications, electrical power, energy pipelines, 
financial networks, and other critical infrastructures.''
    The information revolution launched by the internet has 
reached into every corner of our lives. While it provides users 
many benefits, it also exposes them to new and dangerous risks. 
These new risks include cyber criminals, spies and terrorists, 
using the digital internet as a pathway to personal bank 
accounts as well as Government and industrial secrets. Cyber 
attacks are growing more frequent, targeted, sophisticated, and 
dangerous.
    Most of these attacks are motivated by financial or 
intellectual property theft, disruption of commerce, or 
intelligence collection. Cyber attacks have been launched 
against nations, Estonia in 2007, Georgia in 2009, and Iran in 
2010. They were all the subject of cyber attacks that either 
paralyzed Government operations or targeted critical 
infrastructure. Last year, Google and 20 other major companies 
were the targets of highly sophisticated attacks to steal their 
intellectual property and user accounts. This attack allegedly 
emanated from China.
    If terror groups are watching this cyber activity and 
targeting our critical infrastructure--and we believe they 
are--this raises the stakes in our war on terror. U.S. critical 
infrastructure--by that I mean roads, bridges, dams, electrical 
system, power systems--overall, that critical infrastructure is 
the backbone of our dynamic and productive economy. Attacks on 
this critical infrastructure will impact our National and 
economic security as well as the health and safety of our 
fellow citizens.
    Today, our critical infrastructure relies extensively on 
computerized information systems and the internet which cannot 
be protected as in the traditional way with guns, gates, and 
guards. This reliance on computers and the internet makes our 
critical infrastructure operations vulnerable to cyber attack. 
This vulnerability was demonstrated a few years ago in a 
simulated attack on our electric power grid, which also was 
code-named Aurora.
    The computer security company, McAfee, reports that 54 
percent of executives of critical infrastructure companies 
surveyed said their companies had been the victims of denial of 
service attacks and network infiltration from organized crime, 
terrorists, or other nation states.
    Recent media reports have described a new cyber threat 
called Stuxnet, which can target critical infrastructure, 
including nuclear facilities. According to these published 
reports, Stuxnet is a complex piece of malware designed to 
interfere with the seamen's industrial control systems 
operating the Iranian nuclear facilities. This makes Stuxnet, 
at least according to published reports, it makes that malware 
a very dangerous offensive cyber weapon that overtakes critical 
control system operations.
    So if an anonymous enemy or terrorist ever seizes the 
control systems of, let's say, dams or chemical or power plants 
via the cyber world, that terrorist could cause death and 
destruction in the real world.
    So many questions remain about how to defend our 
cyberspace. What solutions, policies, or technology can we 
develop to improve our Nation's cybersecurity? We welcome our 
public and private witnesses today who will begin us on a 
journey to answer these questions.
    It is now my pleasure to recognize the Ranking Member of 
our subcommittee, Ms. Clarke, for her opening statement.
    Ms. Clarke. Good morning, and thank you to all of our 
witnesses for appearing before us today.
    I would like to thank Chairman Lungren for holding this 
hearing on cybersecurity and for your intention to move 
expeditiously on what I know we both recognize as a critical 
issue.
    While there are a number of new faces up here on the dais, 
I believe this subcommittee will continue to place significant 
focus on the issue of cybersecurity just as we did during the 
110th Congress. I know Mr. Lungren takes this responsibility as 
seriously as I do, and I look forward to partnering with him 
again over the next 2 years to ensure the safety and security 
of the American people, American businesses, American 
infrastructure, and the American way of life.
    Today's hearing will likely be the first of several 
cybersecurity hearings that the subcommittee will hold, and it 
is easy to understand why this issue dominates our agenda. We 
rely on information technology in every aspect of our lives, 
from our electric grid, banking systems, military and 
government functions, to our e-mail and web browsers. 
Interconnected computers and networks have led to amazing 
developments in our society. Increased productivity, knowledge, 
services, and revenues are all benefits generated by our modern 
networked world. But in our rush to network everything, few 
stopped to consider the security ramifications of this new 
world we were creating, and so we find ourselves in an 
extremely dangerous situation today.
    Too many vulnerabilities exist on too many critical 
networks which are exposed to too many skilled attackers who 
can inflict too many intrusions into our systems. 
Unfortunately, to this day, too few people are even aware of 
these dangers and fewer still are doing anything about it. This 
committee will continue to sound the alarm, raise awareness of 
the problems we face, and move forward with practical, 
effective solutions.
    This hearing comes at a critical moment in our Nation's 
approach to the cyber threat. There is a very real and 
significant threat to our National and economic security that 
we now face in cyberspace, and we must do something equally 
real and significant to meet this challenge.
    We are expecting, and this committee is eager to see, a 
National cybersecurity strategy from the White House to be 
released very soon. The Department is finalizing its National 
cyber incident response plan and will also include a 
cybersecurity strategy as called for in the 2010 Quadrennial 
Homeland Security Review.
    The Congress is interested in legislation to afford DHS 
authority it needs to protect the dot-gov domain and critical 
infrastructures in the private sector. The previous two decades 
have seen countless reports from America's thought leaders in 
cybersecurity containing hundreds of recommendations about how 
to improve America's posture in cyberspace. What has been 
lacking is the courage and leadership to actually implement 
these recommendations. To ensure our National and economic 
security, now is the time we must act.
    The U.S. Government must chart a new course to cyberspace. 
The private sector must also be a full partner and accept its 
share of responsibility for our combined security. Now is the 
time to stop planning and start acting.
    The Chairman's intention with this hearing is to give this 
subcommittee some background on the issues facing us. 
Cybercrime costs this country billions of dollars a year. We 
know that our Government networks are attacked tens of 
thousands of times per day and private sector networks are 
attacked even more often. We know that our critical 
infrastructures are already compromised and penetrated. The 
enemy has already successfully attacked and continues to do so. 
We need to absorb this information, get up to speed quickly, 
and move forward to address this issue. We have already lost 
many small battles. We have to start protecting ourselves 
before an attack big enough to cause irreparable damage is 
carried out.
    To the witnesses appearing before us today, I thank you for 
being here, and I welcome your thoughts on the issues before 
us, including what you think an effective National 
cybersecurity policy should look like. Chairman Lungren and I 
intend for this subcommittee, as well as the full committee, to 
play a leading role in shaping our National cyber posture in 
the years to come.
    Thank you, Chairman, and I yield back.
    Mr. Lungren. Thank you very much, Madam Ranking Member, and 
I appreciate your spirit of cooperation with which you led this 
subcommittee and continuing now.
    Other Members are reminded that they may give us their 
statements that will be entered into the record.
    We are pleased to have a very distinguished panel of 
witnesses before us today on this important topic. Deputy Under 
Secretary Phil Reitinger was named Deputy Under Secretary for 
NPPD in 2009. He also serves as the Director of the National 
Cybersecurity Center. In this role, he provides strategic 
direction to the Department's cybersecurity efforts. Prior to 
joining the Department, he was the senior security strategist 
for Microsoft's trustworthy computing program, so he is well 
versed in the challenges facing both Government and the private 
sector in dealing with the important issue of cybersecurity.
    Prior to serving with Microsoft, Deputy Under Secretary 
Reitinger was the Executive Director for the Department of 
Defense's Cybercrime Center. Before that, he was the Deputy 
Chief of the Department of Justice's Computer Crime and 
Intellectual Property Section, proving that he just can't keep 
a job. No. He has had tremendous experience and has a unique 
perspective from multiple positions within the administration 
and therefore has much wisdom with which to guide us.
    Greg Wilshusen has been with the GAO for over 13 years and 
has been over 29 years in auditing financial management 
information systems. He is a certified public accountant, 
certified internal auditor, certified information systems 
auditor. He holds a B.S. degree in business administration from 
the University of Missouri. Are they in the----
    Mr. Wilshusen. Yes, they are. In fact, they are playing 
tomorrow evening at 9:50 against----
    Mr. Lungren. I see. Notre Dame doesn't play until Friday at 
1:40 eastern time, but I hope to be in California so I will be 
watching them from the Pacific coast.
    An MS in information management from George Washington 
University School of Engineering and Applied Sciences. At GAO, 
he has overseen multiple reports on information security, both 
at DHS and Government-wide.
    The Chair recognizes Mr. Reitinger, who will testify on 
behalf of the Department of Homeland Security.

STATEMENT OF PHILIP REITINGER, DEPUTY UNDER SECRETARY, NATIONAL 
  PROTECTION AND PROGRAMS DIRECTORATE, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Reitinger. Thank you very much, Chairman Lungren and 
Ranking Member Clarke. It is indeed an honor to be here today 
to talk before the committee.
    As you pointed out, sir, my name is Phillip Reitinger, and 
I am the Deputy Under Secretary at the Department of Homeland 
Security.
    Appropos of your comment about my inability to keep a job, 
I would say I am not sure I need to be here today based on the 
opening comments that you and the Ranking Member made. Let me 
give you an Amen from the congregation; you understand the 
issue, you get it. So I am going to speak very briefly about 
three quick points, and then I would be happy, after Greg 
talks, to answer any questions that you have.
    The three points I wanted to quickly raise are that 
cybersecurity is a critical issue; second, there is no simple 
solution, neither entity or technology, that is going to solve 
the problem; and three, that although we have made significant 
progress over the course of my 15 to 20 years involved in this 
space and the more significant efforts of many more people over 
a longer period of time, we are not yet where we need to be. We 
need to actually--not to be jargonistic, but we need to take 
this to a new level.
    So let me start with the first point, that cybersecurity is 
a critical issue. This goes back to the comments that you made, 
Chairman. The threat is significant, and the threat is getting 
more significant. Perhaps more important, we are depending more 
on information networks every day--not just for looking at a 
cute video on-line or our ability to send an e-mail, but for 
the basic functioning of our economy.
    It is not just a security issue, it is an economic issue. 
We don't have power, we don't have phone service, we don't have 
9-1-1 service, we don't get water, we don't have banking 
without the proper functioning of the internet and the systems 
that are connected to it. So we must treat this as a critical 
issue, and, in fact, we have, over the course of the last two 
administrations. Cybersecurity has been a bipartisan issue, 
going from the launch of the Comprehensive National 
Cybersecurity Initiative in the prior administration through 
the current Presidents's Cyberspace Policy Review and the on-
going work to cross both administrations and across both 
parties in both Houses of Congress to move the issue forward.
    But it is a complex problem. There is no simple solution. 
There is no single entity, no private sector player or even the 
private sector together. DHS, DOD, the Department of Commerce, 
all of them need to be involved, and none of them standing 
alone--and none of them even standing in the forefront with a 
little bit of help from others is going to solve the problem. 
We actually do have to work this broadly in partnership. By 
partnership, I don't mean saying partnership we all sing 
Kumbaya and we go home. I mean, we actually work together to 
drive outcomes, that we have known roles and responsibilities 
and we execute on those things.
    In that space, DHS plays a critical role. We are 
responsible for leading the protection of the civilian 
government systems and private sector, so-called dot-com 
systems, even though it is broader than that. I say ``lead'' 
advisedly because this is not about DHS will come in and solve 
all your problems for you. We are not going to do that. But 
what we can do is we can help. Everybody has got to build 
security into their own operations--private sector companies, 
civilian government agencies and DHS; we have got to build it 
into our DNA. DHS has got to do the job of helping people to 
execute much more effectively. We have had signal successes in 
that role. The Chairman mentioned the creation of the first 
real National incident response plan to bring all of Government 
and private sector together so we can respond as one Nation to 
a significant cyber event.
    A plan that we tested in a major exercise last year that 
involved several thousand people--literally, several thousand 
people around the globe, tens of private sector companies, over 
10 nations around the world and over 10 States and localities. 
I will talk more after my opening statement in response to your 
questions.
    The last thing I would say in closing is that much more 
remains to be done. As the Ranking Member indicated, we are 
systemically vulnerable. We have made significant progress, but 
we are not yet where we need to be. So as the Ranking Member 
indicated, what we have to do is focus on implementation. What 
makes a difference day to day, week to week, month to month? 
How can we do that? That is one of the reasons why partnership 
from the Government Accountability Office is so important to 
us. It can help us prioritize, indicate areas for further 
progress, and help us find the best way forward.
    Together, we need to have that broad public dialogue which 
I am sure will take place this year across the public and 
private sectors about how we close the gap between where we are 
now and where we need to be. With that, I will look forward 
very much to the questions of the subcommittee. Thank you.
    [The statement of Mr. Reitinger follows:]
                 Prepared Statement of Philip Reitinger
                             March 16, 2011
                              introduction
    Chairman Lungren, Vice Chairman Walberg, Ranking Member Clarke, and 
distinguished Members of the subcommittee, it is a pleasure to appear 
before you today to discuss the Department of Homeland Security's (DHS) 
cybersecurity mission. I will provide an overview of the current 
cybersecurity environment, the Department's cybersecurity mission as it 
relates to critical infrastructure, and the coordination of this 
mission with our public and private sector partners.
    We would like to work more with you to convey the relevance of 
cybersecurity to average Americans. Increasingly, the services we rely 
on for daily life, such as water distribution and treatment, 
electricity generation and transmission, health care, transportation, 
and financial transactions depend on an underlying information 
technology and communications infrastructure. Cyber threats put the 
availability and security of these and other services at risk.
                 the current cybersecurity environment
    The United States confronts a combination of known and unknown 
vulnerabilities, strong and rapidly expanding adversary capabilities, 
and a lack of comprehensive threat and vulnerability awareness. Within 
this dynamic environment, we are confronted with threats that are more 
targeted, more sophisticated, and more serious.
    Sensitive information is routinely stolen from both Government and 
private sector networks, undermining confidence in our information 
systems and the information collection and sharing process, and as bad 
as the loss of precious National intellectual capital is, we 
increasingly face threats that are even greater. We currently cannot be 
certain that our information infrastructure will remain accessible and 
reliable during a time of crisis.
    We face persistent, unauthorized, and often unattributed intrusions 
into Federal Executive Branch civilian networks. These intruders span a 
spectrum of malicious actors, including nation states, terrorist 
networks, organized criminal groups, or individuals located here in the 
United States. They have varying levels of access and technical 
sophistication, but all have nefarious intent. Several are capable of 
targeting elements of the U.S. information infrastructure to disrupt, 
dismantle, or destroy systems upon which we depend. Motives include 
intelligence collection, intellectual property or monetary theft, or 
disruption of commercial activities, among others. Criminal elements 
continue to show increasing levels of sophistication in their technical 
and targeting capabilities and have shown a willingness to sell these 
capabilities on the underground market. In addition, terrorist groups 
and their sympathizers have expressed interest in using cyberspace to 
target and harm the United States and its citizens. While some have 
commented on terrorists' own lack of technical abilities, the 
availability of technical tools for purchase and use remains a 
potential threat.
    Malicious cyber activity can instantaneously result in virtual or 
physical consequences that threaten National and economic security, 
critical infrastructure, public health and welfare, and confidence in 
Government. Similarly, stealthy intruders can lay a hidden foundation 
for future exploitation or attack, which they can then execute at their 
leisure--and at their time of greatest advantage. Securing cyberspace 
requires a layered security approach. Moreover, securing cyberspace is 
also critical to accomplishing nearly all of DHS's other missions 
successfully.
    We need to support the efforts of our State and local government 
and private sector partners to secure themselves against malicious 
activity in cyberspace. Similarly, we need to ensure that the Federal 
civilian environment is secure and that legitimate traffic is allowed 
to flow freely while malicious traffic is prevented from penetrating 
our defenses. Collaboratively, public and private sector partners must 
use our knowledge of these systems and their interdependencies to 
prepare to respond should defensive efforts fail. This is a serious 
challenge, and DHS is continually making strides to improve the 
Nation's overall operational posture and policy efforts. In addition, 
other departments, such as the Department of Education, are working to 
educate parents and students on internet safety and privacy protection.
                         cybersecurity mission
    Let me be clear that no single technology--or single Government 
entity--alone can overcome the cybersecurity challenges our Nation 
faces. Cybersecurity must start with informed users taking necessary 
precautions and extend through a coordinated effort between the private 
sector, critical infrastructure owners and operators, and the extensive 
expertise that lies across coordinated Government entities. The 
National Protection and Programs Directorate (NPPD) within DHS is 
responsible for the following key cybersecurity missions:
  <bullet> Leading the effort to secure Federal Executive Branch 
        civilian departments and agencies' unclassified networks;
  <bullet> Providing technical expertise to the private sector and 
        critical infrastructure and key resources (CIKR) owners and 
        operators--whether private sector, State, or municipality 
        owned--to bolster their cybersecurity preparedness, risk 
        assessment, mitigation and incident response capabilities;
  <bullet> Raising cybersecurity awareness among the general public; 
        and
  <bullet> Coordinating the National response to domestic cyber 
        emergencies.
  <bullet> Leveraging cyber defense capability across all departments 
        and agencies to detect, respond, isolate, and remediate cyber 
        attacks or practices dangerous to security and privacy.
    In a reflection of the bipartisan nature with which the Federal 
Government continues to approach cybersecurity, President Obama 
determined that the Comprehensive National Cybersecurity Initiative 
(CNCI) and its associated activities should evolve to become key 
elements of the broader National cybersecurity efforts. These CNCI 
initiatives play a central role in achieving many of the key 
recommendations of the President's Cyberspace Policy Review: Assuring a 
Trusted and Resilient Information and Communications Infrastructure. 
Following the publication of those recommendations in May 2009, DHS and 
its components developed a long-range vision of cybersecurity for the 
Department and the Nation's homeland security enterprise, which is 
encapsulated in the Quadrennial Homeland Security Review (QHSR). The 
QHSR provides an overarching framework for the Department and defines 
our key priorities and goals. One of the five priority areas detailed 
in the QHSR is safeguarding and securing cyberspace. Within the 
cybersecurity mission area, the QHSR identifies two overarching goals: 
To help create a safe, secure, and resilient cyber environment; and to 
promote cybersecurity knowledge and innovation.
    In alignment with the QHSR, Secretary Napolitano consolidated many 
of the Department's cybersecurity efforts under NPPD. The Office of 
Cybersecurity and Communications (CS&C), a component of NPPD, focuses 
on reducing risk to the Nation's communications and information 
technology infrastructures and the sectors that depend upon them, as 
well as enabling timely response and recovery of these infrastructures 
under all circumstances. The functions and mission of the National 
Cybersecurity Center (NCSC) are now supported by CS&C. These functions 
include coordinating operations among the six largest Federal cyber 
centers. CS&C also coordinates National security and emergency 
preparedness communications planning and provisioning for the Federal 
Government and other stakeholders. CS&C comprises three divisions: the 
National Cyber Security Division (NCSD), the Office of Emergency 
Communications, and the National Communications System. Within NCSD, 
the United States Computer Emergency Readiness Team (US-CERT) is 
working more closely than ever with our public and private sector 
partners to share what we learn from EINSTEIN 2, a Federal executive 
agency computer network intrusion detection system, to deepen our 
collective understanding, identify threats collaboratively, and develop 
effective security responses. EINSTEIN enables us to respond 
proactively to warnings and other indicators of operational cyber 
attacks, and we have many examples showing that this program investment 
has paid for itself several times over.
    Teamwork--ranging from intra-agency to international 
collaboration--is essential to securing cyberspace. Simply put, the 
cybersecurity mission cannot be accomplished by any one agency; it 
requires teamwork and coordination. Together, we can leverage 
resources, personnel, and skill sets that are needed to achieve a more 
secure and reliable cyberspace.
    NCSD collaborates with Federal Government stakeholders, including 
civilian agencies, law enforcement, the military, the intelligence 
community, State and local partners, and private sector stakeholders, 
to conduct risk assessments and mitigate vulnerabilities and threats to 
information technology assets and activities affecting the operation of 
civilian government and private sector critical infrastructures. NCSD 
also provides cyber threat and vulnerability analysis, early warning, 
and incident response assistance for public and private sector 
constituents. To that end, NCSD carries out the majority of DHS' non-
law enforcement cybersecurity responsibilities.
                    national cyber incident response
    The President's Cyberspace Policy Review called for ``a 
comprehensive framework to facilitate coordinated responses by 
government, the private sector, and allies to a significant cyber 
incident.'' DHS coordinated the interagency, State and local 
government, and private sector working group that developed the 
National Cyber Incident Response Plan. The plan provides a framework 
for effective incident response capabilities and coordination among 
Federal agencies, State and local governments, the private sector, and 
international partners during significant cyber incidents. It is 
designed to be flexible and adaptable to allow synchronization of 
response activities across jurisdictional lines. In September 2010, DHS 
hosted Cyber Storm III, a response exercise in which members of the 
domestic and international cyber incident response community addressed 
the scenario of a coordinated cyber event. During the event, the 
National Cyber Incident Response Plan was activated and its incident 
response framework was tested. Based on observations from the exercise, 
the plan is in its final stages of revision prior to publication.
    Cyber Storm III also tested the National Cybersecurity and 
Communications Integration Center (NCCIC)--DHS' 24-hour cyber watch and 
warning center--and the Federal Government's full suite of 
cybersecurity response capabilities. The NCCIC works closely with 
Government at all levels and with the private sector to coordinate the 
integrated and unified response to cyber and communications incidents 
impacting homeland security.
    Numerous DHS components, including US-CERT, the Industrial Control 
Systems Cyber Emergency Response Team (ICS-CERT), and the National 
Coordinating Center for Telecommunications (NCC), are collocated into 
the NCCIC. Also present in the NCCIC are other Federal partners, such 
as the Department of Defense (DoD) and members of the law enforcement 
and intelligence communities. The NCCIC also physically collocates 
Federal staff with private sector and non-Governmental partners. 
Currently, representatives from the Information Technology and 
Communications sectors are located at the NCCIC. We are also finalizing 
steps to add representatives from the Banking and Finance sector, as 
well as the Multi-State Information Sharing and Analysis Center (MS-
ISAC).
    By leveraging the integrated operational capabilities of its member 
organizations, the NCCIC serves as an ``always on'' cyber incident 
response and management center, providing indications and warning of 
imminent incidents, and maintaining a National cyber ``common operating 
picture.'' This facilitates situational awareness among all partner 
organizations, and also creates a repository of all vulnerability, 
intrusion, incident, and mitigation activities. The NCCIC also serves 
as a National point of integration for cyber expertise and 
collaboration, particularly when developing guidance to mitigate risks 
and resolve incidents. Finally, the unique and integrated nature of the 
NCCIC allows for a scalable and flexible coordination with all 
interagency and private sector staff during steady-state operations, in 
order to strengthen relationships and solidify procedures as well as 
effectively incorporate partners as needed during incidents.
   providing technical expertise to the private sector and critical 
                             infrastructure
    DHS has significant cybersecurity capabilities, and we are using 
those capabilities to great effect as we work collaboratively with the 
private sector to protect the Nation's CIKR. We engage with the private 
sector on a voluntary basis to provide on-site analysis, mitigation 
support, and assessment assistance. Over the past year, we have 
repeatedly shown our ability to materially and expeditiously assist 
companies with cyber intrusion mitigation and incident response. We are 
able to do so through our trusted and close relationships with private 
sector companies as well as Federal departments and agencies. Finally, 
our success in assisting the private sector is due in no small part to 
our dedication to properly and fully addressing privacy, civil rights, 
and civil liberties in all that we do. Initiating technical assistance 
with a private company to provide them analysis and mitigation advice 
is a sensitive endeavor--one that requires trust and strict 
confidentiality. Within our analysis and warning mission space, DHS has 
a proven ability to provide that level of trust and confidence in the 
engagement. Our efforts are unique among Federal agencies' capabilities 
in that DHS focuses on computer network defense and protection rather 
than law enforcement or intelligence functions. DHS engages precisely 
to mitigate the threat to the network to reduce future risks.
    Our approach requires vigilance and a voluntary public-private 
partnership. Indeed, we are continuing to build our capabilities and 
our relationships; we must because the cyber threat trends only more 
sophisticated and more frequent.
    Over the past year, we stood up the NCCIC and are adding staff to 
that center, both from existing DHS personnel and from partner 
organizations in the public and private sectors. More broadly, we are 
continuing to hire more cybersecurity professionals and are increasing 
training available to our employees. We have an operational National 
Cyber Incident Response Plan (NCIRP), and we continue to update and 
improve it with input from senior cybersecurity leaders. We will be 
releasing the NCIRP publicly in the coming weeks. We are executing 
within our current mission and authorities now: Receiving and 
responding to substantial netflow data from our intrusion detection 
technologies deployed to our Federal partners, and leveraging that data 
to provide early warnings and indicators across Government and 
industry. With our people, processes, and technology, we stand ready to 
execute the responsibilities of the future.
    US-CERT provides remote and on-site response support and defense 
against malicious cyber activity for the Federal Executive Branch 
civilian networks. US-CERT also collaborates, provides remote and on-
site response support and shares information with State and local 
government, critical infrastructure owners and operators, and 
international partners to address cyber threats and develop effective 
security responses.
    In addition to specific mitigation work we conduct with individual 
companies and sectors, DHS looks at the interdependencies across 
critical infrastructure sectors for a holistic approach to providing 
our cyber expertise. For example, the electric, nuclear, water, 
transportation, and communications sectors support functions across all 
levels of government including Federal, State, local, and Tribal 
governments, and the private sector. Government bodies and 
organizations do not inherently produce these services and must rely on 
private sector organizations, just as other businesses and private 
citizens do. Therefore, an event impacting control systems has 
potential implications at all these levels, and could also have 
cascading effects upon all 18 sectors. For example, water and 
wastewater treatment, chemical, and transportation depend on the energy 
sector, and failure in one of these sectors could subsequently affect 
Government and private sector operations.
    NCCIC's operations are complemented in the arena of industrial 
control systems by ICS-CERT. The term ``control system'' encompasses 
several types of systems, including Supervisory Control and Data 
Acquisition (SCADA), process control, and other automated systems that 
are found in the industrial sectors and critical infrastructure. These 
systems are used to operate physical processes that produce the goods 
and services that we rely upon, such as energy, drinking water, 
emergency services, transportation, postal and shipping, and public 
health. Control systems security is particularly important because of 
the inherent interconnectedness of the CIKR sectors and their 
dependence on one another.
    As such, assessing risk and effectively securing industrial control 
systems are vital to maintaining our Nation's strategic interests, 
public safety, and economic well-being. A successful cyber attack on a 
control system could result in physical damage, loss of life, and 
cascading effects that could disrupt services. DHS recognizes that the 
protection and security of control systems is essential to the Nation's 
overarching security and economy. In this context, as an example of 
many related initiatives and activities, DHS--in coordination with the 
Department of Commerce's National Institute of Standards and Technology 
(NIST), the Department of Energy, and DoD--has provided a forum for 
researchers, subject matter experts and practitioners dealing with 
cyber-physical systems security to assess the current state of the art, 
identify challenges, and provide input to developing strategies for 
addressing these challenges. Specific infrastructure sectors considered 
include energy, chemical, transportation, water and wastewater 
treatment, health care and public health, and commercial facilities. A 
2010 published report of findings and recommendations is available upon 
request.
    ICS-CERT provides on-site support to owners and operators of 
critical infrastructure for protection against and response to cyber 
threats, including incident response, forensic analysis, and site 
assessments. ICS-CERT also provides tools and training to increase 
stakeholder awareness of evolving threats to industrial control 
systems.
    A real-world threat emerged last year that significantly changed 
the landscape of targeted cyber attacks on industrial control systems. 
Malicious code, dubbed Stuxnet, was detected in July 2010. DHS analysis 
concluded that this highly complex computer worm was the first of its 
kind, written to specifically target mission-critical control systems 
running a specific combination of software and hardware.
    ICS-CERT analyzed the code and coordinated actions with critical 
infrastructure asset owners and operators, Federal partners, and 
Information Sharing and Analysis Centers. Our analysis quickly 
uncovered that sophisticated malware of this type potentially has the 
ability to gain access to, steal detailed proprietary information from, 
and manipulate the systems that operate mission-critical processes 
within the Nation's infrastructure. In other words, this code can 
automatically enter a system, steal the formula for the product being 
manufactured, alter the ingredients being mixed in the product, and 
indicate to the operator and the operator's anti-virus software that 
everything is functioning normally.
    To combat this threat, ICS-CERT has been actively analyzing and 
reporting on Stuxnet since it was first detected in July 2010. To date, 
ICS-CERT has briefed dozens of Government and industry organizations 
and released multiple advisories and updates to the industrial control 
systems community describing steps for detecting an infection and 
mitigating the threat. As always, we attempt to balance the need for 
public information sharing while limiting the information that 
malicious actors may exploit. DHS provided the alerts in accordance 
with its responsible disclosure processes.
    The purpose and function for responsible disclosure is to ensure 
that DHS executes its mission of mitigating risk to critical 
infrastructure, not necessarily to be the first to publish on a given 
threat. For example, ICS-CERT's purpose in conducting the Stuxnet 
analysis was to ensure that DHS understood the extent of the risks so 
that they could be mitigated. After conducting in-depth malware 
analysis and developing mitigation steps, we were able to release 
actionable information that benefited our private sector partners.
    Looking ahead, the Department is concerned that attackers could use 
the increasingly public information about the code to develop variants 
targeted at broader installations of programmable equipment in control 
systems. Copies of the Stuxnet code, in various different iterations, 
have been publicly available for some time now. ICS-CERT and the NCCIC 
remain vigilant and continue analysis and mitigation efforts of any 
derivative malware.
    ICS-CERT will continue to work with the industrial control systems 
community to investigate these and other threats through malicious code 
and digital media analysis, on-site incident response activities, and 
information sharing and partnerships.
            protecting federal civilian government networks
    In addition to its support of private sector owners and operators 
of infrastructure, DHS also collaborates with its partners to increase 
the security of Federal Executive Branch civilian agency networks. The 
fundamental ways that DHS works to secure Federal networks are by 
improving the ability of departments and agencies to defend their 
systems and by directly providing expertise and specific technology 
that detects, mitigates, and prevents malicious activity on these 
networks.
    As part of the CNCI, DHS works with the Office of Management and 
Budget (OMB) to reduce and consolidate the number of external 
connections that Federal agencies have to the internet through the 
Trusted Internet Connection (TIC) initiative. This initiative reduces 
the number of entry points for potential vulnerabilities into 
Government networks and allows DHS to focus monitoring efforts on 
limited and known avenues through which internet traffic must travel. 
DHS conducts on-site evaluations of agencies' progress toward 
implementing TIC goals.
    In conjunction with the TIC initiative, the EINSTEIN system is 
designed to provide the U.S. Government with an early warning system 
for intrusions to Federal Executive Branch civilian networks, near 
real-time identification of malicious activity, and automated 
disruption of that malicious activity. The second phase of EINSTEIN, 
known as EINSTEIN 2 and developed in 2008 as part of the CNCI, 
incorporates intrusion detection capabilities into the original 
EINSTEIN system. DHS is currently deploying EINSTEIN 2 to Federal 
Executive Branch civilian agency TIC locations and Networx Managed 
Trusted Internet Protocol Services (MTIPS) providers, which are private 
internet service providers that serve Federal agencies, to assist them 
with protecting their computers, networks, and information. EINSTEIN 2 
has now been deployed at 15 of the 19 large departments and agencies 
who maintain their own TIC locations. Also, the four MTIPS providers 
currently provide service to seven additional Federal agencies. In 
2010, EINSTEIN 2 sensors registered 5.4 million ``hits,'' an average of 
more than 450,000 hits per month or nearly 15,000 hits per day. A hit 
is an alert triggered by a predetermined intrusion detection signature 
that corresponds to a known threat. Each hit represents potential 
malicious activity for further assessment by US-CERT.
    DHS is currently developing the third phase of the EINSTEIN 
system--an intrusion prevention capability which will provide DHS with 
the ability to automatically detect and disrupt malicious activity 
before harm is done to critical networks and systems. In advance of 
this development, DHS, in coordination with the National Security 
Agency (NSA), conducted the CNCI Initiative 3 Exercise, which advanced 
the potential capabilities of the EINSTEIN system by demonstrating 
defensive technology, sharing near real-time threat information with 
DoD for enhanced situational awareness, and providing a platform upon 
which an oversight and compliance process can be implemented for the 
evolving set of EINSTEIN capabilities. The Department's Privacy Office 
and its Office for Civil Rights and Civil Liberties carefully reviewed 
the exercise concept of operations, and the Privacy Office worked with 
US-CERT to publicly release a detailed Privacy Impact Assessment 
evaluating the exercise. US-CERT also briefed the exercise to the cyber 
subcommittee of the independent DHS Data Privacy and Integrity 
Committee.
    Beyond the TIC initiative and the EINSTEIN system, DHS, OMB, and 
the National Institute for Standards and Technology work cooperatively 
with agencies across the Federal Government to coordinate the 
protection of the Nation's Federal information systems through 
compliance with the Federal Information Security Management Act of 2002 
(FISMA). US-CERT monitors EINSTEIN 2 sensors for intrusion activity and 
receives self-reported incident information from Federal agencies. This 
information is reported to OMB for use in its FISMA oversight capacity. 
In 2010, DHS also began to administer oversight of the CyberScope 
system, which was developed by the Department of Justice. This system 
collects agency information regarding FISMA compliance and, as DHS, 
OMB, and their agency partners move toward automated reporting, the 
system will enable real-time assessments of baseline security postures 
across individual agencies and the Federal enterprise as a whole. This 
activity complements the development of reference architectures that 
DHS designs for Federal agency stakeholders that are interested in 
implementing security solutions based on standards and best practices. 
DHS also works with the General Services Administration to create 
Blanket Purchase Agreements that address various security solutions for 
Federal agencies.
                    the dhs cybersecurity workforce
    As DHS continues to make progress on initiatives such as TIC and 
EINSTEIN, the Department is also mindful that the Nation's 
cybersecurity challenge will not be solved by a single technology 
solution. Multiple innovative technical tools are necessary and indeed, 
technology alone is insufficient. The mission requires a larger 
cybersecurity professional workforce, governance structures for 
enhanced partnerships, more robust information sharing and identity 
protection, and increased cybersecurity awareness among the general 
public. Responsibility for these solutions is, and will remain, 
distributed across public and private sector partners.
    DHS is focused on building a world-class cybersecurity team by 
hiring a diverse group of cybersecurity professionals--computer 
engineers, scientists, and analysts--to secure the Nation's digital 
assets and protect against cyber threats to our critical infrastructure 
and key resources. NCSD continues to hire cybersecurity and information 
technology professionals, nearly tripling its cybersecurity workforce 
in fiscal year 2009 and nearly doubling that number again in fiscal 
year 2010. NCSD currently has more than 230 cybersecurity professionals 
on board, with dozens more in the hiring pipeline.
    Several initiatives are designed to increase the Nation's number of 
highly qualified cybersecurity professionals. DHS and NSA co-sponsor 
the Centers of Academic Excellence in Information Assurance Education 
and Research programs, the goal of which is to produce a growing number 
of professionals with information assurance expertise in various 
disciplines. DHS and the Department of State co-hosted Operation Cyber 
Threat (OCT1.0), the first in a series of Government-wide experiential 
and interactive cybersecurity training pilots designed to apply 
learning concepts and share best practices in a secure, simulated 
environment to build capacity within the Federal workforce. In December 
2010, the Institute of Electrical and Electronics Engineers Computer 
Society, the world's leading organization of computing professionals, 
formally recognized the Master of Software Assurance (MSwA) Reference 
Curriculum, which DHS sponsored through its Software Assurance (SwA) 
Curriculum Project. The MSwA program is the first curriculum of its 
kind to focus on assuring the functionality, dependability, and 
security of software and systems. Finally, DHS co-sponsored the annual 
Colloquium for Information Systems Security Education and the 
Scholarship for Services (SFS) Job Fair/Symposium, which brought 
together 55 Federal agencies and more than 200 SFS students.
    The National Initiative for Cybersecurity Education (NICE) has the 
dual goals of a cyber-savvy citizenry and a cyber-capable workforce. 
Working with NIST, which is the overall interagency lead, DHS heads the 
NICE awareness elements and co-leads the training and professional 
development components with DoD and the Office of the Director of 
National Intelligence.
              interagency and public-private coordination
    Overcoming new cybersecurity challenges requires a coordinated and 
focused approach to better secure the Nation's information and 
communications infrastructures. President Obama's Cyberspace Policy 
Review reaffirms cybersecurity's significance to the Nation's economy 
and security. Establishment of a White House Cybersecurity Coordinator 
position solidified the priority the administration places on improving 
cybersecurity.
    No single agency controls cyberspace and the success of our 
cybersecurity mission relies on effective communication and critical 
partnerships. Many Government players have complementary roles--
including DHS, the intelligence community, DoD, the Department of 
Justice, the Department of State, and other Federal agencies--and they 
require coordination and leadership to ensure effective and efficient 
execution of our collective cyber missions. The creation of a senior-
level cyber position within the White House ensures coordination and 
collaboration across Government agencies.
    DHS works closely with its Federal, State, and local partners to 
protect Government cyber networks. In September 2010, DHS and DoD 
signed a memorandum of agreement that aligns and enhances America's 
capabilities to protect against threats to our critical civilian and 
military computer systems and networks, including deploying a National 
Security Agency support team to the NCCIC to enhance the National Cyber 
Incident Response Plan and sending a full-time senior DHS leader and 
support team to the National Security Agency.
    In November 2010, the MS-ISAC opened its Cyber Security Operations 
Center, a 24-hour watch and warning facility, which will both enhance 
situational awareness at the State and local level for the NCCIC and 
allow the Federal Government to quickly and efficiently provide 
critical cyber risk, vulnerability, and mitigation data to State and 
local governments. An MS-ISAC analyst/liaison is collocated in the 
NCCIC.
    Private industry owns and operates the vast majority of the 
Nation's critical infrastructure and cyber networks. Consequently, the 
private sector plays an important role in cybersecurity, and DHS has 
initiated several pilot programs to promote public-private sector 
collaboration. In its engagement with the private sector, DHS 
recognizes the need to avoid technology prescription and to support 
innovation that enhances critical infrastructure cybersecurity. DHS, 
through the National Infrastructure Protection Plan partnership 
framework, has many years of experience in private sector 
collaboration, leveraging our relationships in both the physical and 
cybersecurity protection areas. Within current legal authorities, DHS 
engages with the private sector on a voluntary basis. We stand by to 
assist our private sector partners upon their request, and thus far 
have been able to do so successfully due to our technical capabilities, 
existing private sector relationships, and expertise in matters 
relating to privacy and civil rights and civil liberties.
    In February 2010, DHS, DoD, and the Financial Services Information 
Sharing and Analysis Center (FS-ISAC) launched a pilot designed to help 
protect key critical networks and infrastructure within the financial 
services sector by sharing actionable, sensitive information. Based on 
lessons learned from the pilot, DHS is developing comprehensive 
information-sharing and incident response coordination processes with 
CIKR sectors, leveraging capabilities from within DHS and across the 
response community, through the NCCIC.
    In June 2010, DHS implemented the Cybersecurity Partner Local 
Access Plan, which allows security-cleared owners and operators of 
CIKR, as well as State technology officials and law enforcement 
officials, to access secret-level cybersecurity information and video 
teleconference calls via State and local fusion centers. In November 
2010, DHS signed an agreement with the Information Technology 
Information Sharing and Analysis Center (IT-ISAC) to embed a full-time 
IT-ISAC analyst and liaison to DHS at the NCCIC, part of the on-going 
effort to collocate private sector representatives alongside Federal 
and State government counterparts. The IT-ISAC consists of information 
technology stakeholders from the private sector and facilitates 
cooperation among members to identify sector-specific vulnerabilities 
and risk mitigation strategies.
    In July 2010, DHS worked extensively with the White House on the 
publication of a draft National Strategy for Trusted Identities in 
Cyberspace, which seeks to secure the digital identities of 
individuals, organizations, services, and devices during on-line 
transactions, as well as the infrastructure supporting the transaction. 
This fulfills one of the near-term action items of the President's 
Cyberspace Policy Review. The strategy is based on public-private 
partnerships and supports the protection of privacy, and civil rights 
and civil liberties by enabling only the minimum necessary amount of 
personal information to be transferred in any particular transaction. 
Its implementation will be led by the Department of Commerce.
    In December 2010, DHS and NIST signed a Memorandum of Understanding 
with the Financial Services Sector Coordinating Council. The goal of 
the agreement is to speed the commercialization of cybersecurity 
research innovations that support our Nation's critical 
infrastructures. This agreement will accelerate the deployment of 
network test beds for specific use cases that strengthen the 
resiliency, security, integrity, and usability of financial services 
and other critical infrastructures.
    While considerable activity is focused on public and private sector 
critical infrastructure protection, DHS is committed to developing 
innovative ways to enhance the general public's awareness about the 
importance of safeguarding America's computer systems and networks from 
attacks. Every October, DHS and its public and private sector partners 
promote efforts to educate citizens about guarding against cyber 
threats as part of National Cybersecurity Awareness Month. In March 
2010, Secretary Napolitano launched the National Cybersecurity 
Awareness Challenge, which called on the general public and private 
sector companies to develop creative and innovative ways to enhance 
cybersecurity awareness. In July 2010, seven of the more than 80 
proposals were selected and recognized at a White House ceremony. The 
winning proposals helped inform the development of the National 
Cybersecurity Awareness Campaign, Stop. Think. Connect., which DHS 
launched in conjunction with private sector partners during the October 
2010 National Cybersecurity Awareness Month. Stop. Think. Connect., a 
message developed with the private sector, has evolved into an on-going 
National public education campaign designed to increase public 
understanding of cyber threats and how individual citizens can develop 
safer cyber habits that will help make networks more secure. The 
campaign fulfills a key element of President Obama's Cyberspace Policy 
Review, which tasked DHS with developing a public awareness campaign to 
inform Americans about ways to use technology safely. The program is 
part of the NIST National Initiative for Cyber Education (NICE).
    Throughout its public and private sector activities, DHS is 
committed to supporting the public's privacy, civil rights, and civil 
liberties. Accordingly, the Department has implemented strong privacy 
and civil rights and civil liberties standards into all of its 
cybersecurity programs and initiatives from the outset. To support 
this, DHS established an Oversight and Compliance Officer within NPPD, 
and key cybersecurity personnel receive specific training on the 
protection of privacy and other civil liberties as they relate to 
computer network security activities. In an effort to increase 
transparency, DHS also publishes privacy impact assessments on its 
website, www.dhs.gov, for all of its cybersecurity systems.
                               conclusion
    Set within an environment characterized by a dangerous combination 
of known and unknown vulnerabilities, strong and rapidly expanding 
adversary capabilities, and a lack of comprehensive threat and 
vulnerability awareness, the cybersecurity mission is truly a National 
one requiring collaboration across the homeland security enterprise. 
The Department of Homeland Security is committed to creating a safe, 
secure, and resilient cyber environment while promoting cybersecurity 
knowledge and innovation. We must continue to secure today's 
infrastructure as we prepare for tomorrow's challenges and 
opportunities. It is important to recognize that we do not undertake 
cybersecurity for the sake of security itself, but rather to ensure 
that Government, business, and critical societal functions can continue 
to use the information technology and communications infrastructure on 
which they depend.
    Within our current legal authorities, DHS continues to engage and 
collaborate with partners in the private and public sectors. We are 
deploying intrusion detection and prevention technologies across the 
Federal enterprise, aiding departments and agencies in securing their 
networks, and providing analysis, vulnerability, and mitigation 
assistance to private sector CIKR partners. Our continued dedication to 
privacy, civil rights, and civil liberties ensures a positive, 
sustainable model for cybersecurity engagement in the future. Finally, 
we work closely with our interagency partners in law enforcement and 
intelligence, providing the full complement of Federal capabilities in 
preparation for, and in response to, significant cyber incidents.
    Chairman Lungren, Vice Chairman Walberg, Ranking Member Clarke, and 
distinguished Members of the subcommittee, let me end by reiterating 
that I look forward to exploring opportunities to advance this mission 
in collaboration with the subcommittee and my colleagues in the public 
and private sectors. Thank you again for this opportunity to testify. I 
would be happy to answer your questions.

    Mr. Lungren. Thank you very much, Mr. Reitinger.
    Now Mr. Wilshusen, who is looking forward to tomorrow's 
basketball game, if you could give us about 5 minutes of your 
best pitch right now and then we can ask questions.

    STATEMENT OF GREGORY WILSHUSEN, DIRECTOR OF INFORMATION 
       SECURITY ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Wilshusen. Chairman Lungren, Ranking Member Clarke, and 
Members of the subcommittee, thank you for the opportunity to 
testify at today's hearing on cyber threats to critical 
infrastructure and the American economy.
    As you mentioned in your opening statements, pervasive and 
sustained cyber attacks against the United States continue to 
threaten Federal and non-Federal systems and operations. The 
every-increasing interdependence on these systems to carry out 
essential everyday operations and activities makes us 
vulnerable to a wide array of cyber-based threats. Thus, it is 
increasingly important that Federal and non-Federal entities 
carry out concerted efforts to safeguard their systems and the 
information they contain.
    Mr. Chairman, today we will discuss the threats to cyber-
reliant critical infrastructures and with Federal information 
systems and the challenges agencies face in protecting them.
    Cyber threats to critical infrastructure and Federal 
services are evolving and growing and can come from a variety 
of sources, including criminals and foreign nations, as well as 
hackers and disgruntled employees. It is important not to 
forget about the insider threat. Potential hackers have a 
variety of techniques at their disposal that can vastly expand 
the risk, the reach, and impact of their operations, including 
use of social engineering and malicious software. The 
interconnectivity between information systems, the internet, 
and other infrastructure also presents increasing opportunities 
for such attacks. Not surprisingly, security incidents reported 
by Federal agencies are on the rise, increasing over 650 
percent during the past 5 years to nearly 42,000 in fiscal year 
2010.
    Cyber attack incidents can seriously impact our National 
and economic security and have resulted in the loss of 
classified information and intellectual property, and financial 
crimes reportedly totaling billions of dollars. Although the 
administration and Federal agencies continue to act to 
strengthen the Nation's cybersecurity posture, challenges 
remain. Key actions to improve our National approach to 
cybersecurity have not been fully implemented, Federal capacity 
to protect against cyber threats needs to improve, and Federal 
agencies have not fully addressed persistent control weaknesses 
or consistently implemented effective information security 
programs. For these reasons, GAO once again identified 
protecting the Federal Government's information systems and the 
Nation's critical infrastructure as a Government-wide high-risk 
area in its biennial report to the Congress on high-risk 
Government programs.
    Mr. Chairman, much work remains to be done. Additional 
Federal efforts are needed to implement actions recommended by 
the President's Cybersecurity Policy Review, update the 
National strategy for securing the information and 
communications infrastructure, develop a National strategy for 
addressing the global aspects of cybersecurity, and create a 
prioritized National and Federal cybersecurity research and 
development agenda.
    Federal agencies, and in particular DHS, need to enhance 
their cyber analysis and warning capabilities and help 
strengthen the effectiveness of public-private sector 
partnerships in securing cyber critical infrastructure. Federal 
agencies also need to mitigate known vulnerabilities, fully 
implement comprehensive information security programs, and 
facilitate Government-wide efforts to secure their systems.
    GAO has made numerous recommendations to assist agencies in 
these areas, and agencies have implemented or are in the 
process of implementing many of them.
    In summary, Mr. Chairman, the threats to information 
systems are evolving and growing, and systems supporting 
Federal operations and the Nation's critical infrastructures 
are not sufficiently protected to consistently thwart those 
threats. Until the administration and Federal agencies working 
with the private sector fully address the challenges before 
them, our Nation's cybersecurity critical infrastructure will 
remain vulnerable.
    Mr. Chairman, this concludes my statement. I would be happy 
to answer any questions.
    [The statement of Mr. Wilshusen follows:]
                Prepared Statement of Gregory Wilshusen
                             March 16, 2011
   cybersecurity: continued attention needed to protect our nation's 
        critical infrastructure and federal information systems
    Chairman Lungren, Ranking Member Clarke, and Members of the 
subcommittee: Thank you for the opportunity to testify at today's 
hearing on the cyber threats to critical infrastructure and the 
American economy.
    Pervasive and sustained cyber attacks against the United States 
continue to pose a potentially devastating impact on Federal and non-
Federal systems and operations. In February 2011, the Director of 
National Intelligence testified that, in the past year, there had been 
a dramatic increase in malicious cyber activity targeting U.S. 
computers and networks, including a more than tripling of the volume of 
malicious software since 2009.\1\ Recent press reports that computer 
hackers broke into and stole proprietary information worth millions of 
dollars from the networks of six U.S. and European energy companies 
also demonstrate the risk that our Nation faces. Such attacks highlight 
the importance of developing a concerted response to safeguard Federal 
and non-Federal information systems.
---------------------------------------------------------------------------
    \1\ Director of National Intelligence, Statement for the Record on 
the Worldwide Threat Assessment of the U.S. Intelligence Community, 
statement before the Senate Select Committee on Intelligence (Feb. 16, 
2011).
---------------------------------------------------------------------------
    Mr. Chairman, GAO recently issued its high-risk list of Government 
programs that have greater vulnerability to fraud, waste, abuse, and 
mismanagement or need transformation to address economy, efficiency, or 
effectiveness challenges.\2\  Once again, we identified protecting the 
Federal Government's information systems and the Nation's cyber 
critical infrastructure as a Government-wide high-risk area. We have 
designated Federal information security as a high-risk area since 1997; 
in 2003, we expanded this high-risk area to include protecting systems 
supporting our Nation's critical infrastructure, referred to as cyber 
critical infrastructure protection or cyber CIP.
---------------------------------------------------------------------------
    \2\ GAO, High-Risk Series: An Update, (Washington, DC: February 
2011).
---------------------------------------------------------------------------
    In my testimony today I will describe: (1) Cyber threats to cyber-
reliant critical infrastructures and Federal information systems and 
(2) the continuing challenges Federal agencies face in protecting the 
Nation's cyber-reliant critical infrastructures and Federal systems. In 
preparing this statement in March 2011, we relied on our previous work 
in these areas (please see the related GAO products page at the end of 
this statement). These products contain detailed overviews of the scope 
and methodology we used. The work on which this statement is based was 
performed in accordance with generally accepted Government auditing 
standards. Those standards require that we plan and perform audits to 
obtain sufficient, appropriate evidence to provide a reasonable basis 
for our findings and conclusions based on our audit objectives. We 
believe that the evidence obtained provided a reasonable basis for our 
findings and conclusions based on our audit objectives.
                               background
    As computer technology has advanced, Federal agencies and our 
Nation's critical infrastructures \3\--such as power distribution, 
water supply, telecommunications, and emergency services--have become 
increasingly dependent on computerized information systems to carry out 
their operations and to process, maintain, and report essential 
information. Public and private organizations rely on computer systems 
to transfer increasing amounts of money and sensitive and proprietary 
information, conduct operations, and deliver services to constituents.
---------------------------------------------------------------------------
    \3\ Critical infrastructures are systems and assets, whether 
physical or virtual, so vital to the Nation that their incapacity or 
destruction would have a debilitating impact on National security, 
National economic security, National public health or safety, or any 
combination of those matters.
---------------------------------------------------------------------------
    The security of these systems and data is essential to protecting 
National and economic security, and public health and safety. 
Conversely, ineffective information security controls can result in 
significant risks, including the loss of resources, such as Federal 
payments and collections; inappropriate access to sensitive 
information, such as National security information, personal 
information on taxpayers, or proprietary business information; 
disruption of critical operations supporting critical infrastructure, 
National defense, or emergency services; and undermining of agency 
missions due to embarrassing incidents that diminish public confidence 
in Government.
    cyber-reliant critical infrastructure and federal systems face 
                        increasing cyber threats
    Threats to systems supporting critical infrastructure and Federal 
information systems are evolving and growing. Government officials are 
concerned about attacks from individuals and groups with malicious 
intent, such as criminals, terrorists, and foreign nations. Federal law 
enforcement and intelligence agencies have identified multiple sources 
of threats to our Nation's critical information systems, including 
foreign nations engaged in espionage and information warfare, 
criminals, hackers, virus writers, and disgruntled employees and 
contractors. These groups and individuals have a variety of attack 
techniques at their disposal that can be used to determine 
vulnerabilities and gain entry into targeted systems. For example, 
phishing involves the creation and use of fake e-mails and websites to 
deceive internet users into disclosing their personal data and other 
sensitive information.
    The connectivity between information systems, the internet, and 
other infrastructures also creates opportunities for attackers to 
disrupt telecommunications, electrical power, and other critical 
services. For example, in May 2008, we reported that the Tennessee 
Valley Authority's (TVA) corporate network contained security 
weaknesses that could lead to the disruption of control systems 
networks and devices connected to that network.\4\ We made 19 
recommendations to improve the implementation of information security 
program activities for the control systems governing TVA's critical 
infrastructures and 73 recommendations to address weaknesses in 
information security controls. TVA concurred with the recommendations 
and has taken steps to implement them. As Government, private sector, 
and personal activities continue to move to networked operations, the 
threat will continue to grow.
---------------------------------------------------------------------------
    \4\ GAO, Information Security: TVA Needs to Address Weaknesses in 
Control Systems and Networks, (Washington, DC: May 21, 2008).
---------------------------------------------------------------------------
Reported Security Incidents Are on the Rise
    Consistent with the evolving and growing nature of the threats to 
Federal systems, agencies are reporting an increasing number of 
security incidents. These incidents put sensitive information at risk. 
Personally identifiable information about U.S. citizens has been lost, 
stolen, or improperly disclosed, thereby potentially exposing those 
individuals to loss of privacy, identity theft, and financial crimes. 
Agencies have experienced a wide range of incidents involving data loss 
or theft, computer intrusions, and privacy breaches, underscoring the 
need for improved security practices. Further, reported attacks and 
unintentional incidents involving critical infrastructure systems 
demonstrate that a serious attack could be devastating.
    When incidents occur, agencies are to notify the Federal 
information security incident center--the United States Computer 
Emergency Readiness Team (US-CERT). Over the past 5 years, the number 
of incidents reported by Federal agencies to US-CERT has increased 
dramatically, from 5,503 incidents reported in fiscal year 2006 to 
about 41,776 incidents in fiscal year 2010 (a more than 650 percent 
increase). The three most prevalent types of incidents and events 
reported to US-CERT during fiscal year 2010 were: (1) Malicious code 
(software that infects an operating system or application), (2) 
improper usage (a violation of acceptable computing use policies), and 
(3) unauthorized access (where an individual gains logical or physical 
access to a system without permission). Additionally, according to 
Department of Homeland Security (DHS) officials, US-CERT detects 
incidents and events through its intrusion detection system, 
supplemented by agency reports, for investigation (unconfirmed 
incidents that are potentially malicious or anomalous activity deemed 
by the reporting entity to warrant further review).
    Reports of cyber attacks and information security incidents against 
Federal systems and systems supporting critical infrastructure 
illustrate the effect that such incidents could have on National and 
economic security.
  <bullet> In July 2010, the Department of Defense (DOD) launched an 
        investigation to identify how thousands of classified military 
        documents (including Afghanistan and Iraq war operations, as 
        well as field reports on Pakistan) were obtained by the group 
        WikiLeaks.org. According to DOD, this investigation was related 
        to an on-going investigation of an Army private charged with, 
        among other things, transmitting National defense information 
        to an unauthorized source.
  <bullet> In 2010, the Deputy Secretary of Defense stated that DOD 
        suffered a significant compromise of its classified military 
        computer networks in 2008. It began when a flash drive's 
        malicious computer code, placed there by a foreign intelligence 
        agency, uploaded itself onto a network and spread on both 
        classified and unclassified systems.\5\
---------------------------------------------------------------------------
    \5\ Foreign Affairs, Defending a New Domain: The Pentagon's 
Cyberstrategy, William J. Lynn III, U.S. Deputy Secretary of Defense 
(New York, NY: September/October 2010).
---------------------------------------------------------------------------
  <bullet> In February 2011, media reports stated that computer hackers 
        broke into and stole proprietary information worth millions of 
        dollars from the networks of six U.S. and European energy 
        companies.
the federal government has taken actions to address cyber threats, but 
            challenges remain in protecting critical systems
    The Federal Government has a variety of roles and responsibilities 
in protecting the Nation's cyber-reliant critical infrastructure, 
enhancing the Nation's overall cybersecurity posture, and ensuring the 
security of Federal systems and the information they contain. In light 
of the pervasive and increasing threats to critical systems, the 
Executive branch is taking a number of steps to strengthen the Nation's 
approach to cybersecurity. For example, in its role as the focal point 
for Federal efforts to protect the Nation's cyber critical 
infrastructures,\6\ DHS issued a revised National infrastructure 
protection plan in 2009 and an interim National cyber incident response 
plan in 2010. Executive branch agencies have also made progress 
instituting several Government-wide initiatives that are aimed at 
bolstering aspects of Federal cybersecurity, such as reducing the 
number of Federal access points to the internet, establishing security 
configurations for desktop computers, and enhancing situational 
awareness of cyber events. Despite these efforts, the Federal 
Government continues to face significant challenges in protecting the 
Nation's cyber-reliant critical infrastructure and Federal information 
systems.
---------------------------------------------------------------------------
    \6\ As established by Federal law and policy, including the 
Homeland Security Act of 2002, Homeland Security Presidential 
Directive--7, and the National Strategy to Secure Cyberspace.
---------------------------------------------------------------------------
Key Actions to Improve Our Current National Approach to Cybersecurity 
        Have Not Yet Been Fully Implemented
    The administration and Executive branch agencies have not yet fully 
implemented key actions that are intended to address threats and 
improve the current U.S. approach to cybersecurity.
  <bullet> Implementing actions recommended by the President's 
        Cybersecurity Policy Review. In February 2009, the President 
        initiated a review of the Government's cybersecurity policies 
        and structures, which resulted in 24 near- and mid-term 
        recommendations to address organizational and policy changes to 
        improve the current U.S. approach to cybersecurity.\7\ In 
        October 2010, we reported that 2 recommendations had been 
        implemented and 22 were partially implemented.\8\ Officials 
        from key agencies involved in these efforts (e.g., DHS, DOD, 
        and the Office of Management and Budget (OMB)) stated that 
        progress had been slower than expected because agencies lacked 
        assigned roles and responsibilities and because several of the 
        mid-term recommendations would require action over multiple 
        years. We recommended that the National Cybersecurity 
        Coordinator (whose role was established as a result of the 
        policy review) designate roles and responsibilities for each 
        recommendation and develop milestones and plans, including 
        measures to show agencies' progress and performance.
---------------------------------------------------------------------------
    \7\ The White House, Cyberspace Policy Review: Assuring a Trusted 
and Resilient Information and Communications Infrastructure 
(Washington, DC: May 29, 2009).
    \8\ GAO, Cyberspace Policy: Executive Branch Is Making Progress 
Implementing 2009 Policy Review Recommendations, but Sustained 
Leadership Is Needed, GAO-11-24 (Washington, DC: Oct. 6, 2010).
---------------------------------------------------------------------------
  <bullet> Updating the National strategy for securing the information 
        and communications infrastructure. In March 2009, we testified 
        on the needed improvements to the Nation's cybersecurity 
        strategy.\9\ In preparation for that testimony, we convened a 
        panel of experts that included former Federal officials, 
        academics, and private sector executives. The panel highlighted 
        12 key improvements that are, in its view, essential to 
        improving the strategy and our National cybersecurity posture, 
        including the development of a National strategy that clearly 
        articulates strategic objectives, goals, and priorities.
---------------------------------------------------------------------------
    \9\ GAO, National Cybersecurity Strategy: Key Improvements Are 
Needed to Strengthen the Nation's Posture, GAO-09-432T (Washington, DC: 
Mar. 10, 2009).
---------------------------------------------------------------------------
  <bullet> Developing a comprehensive National strategy for addressing 
        global cybersecurity and governance. In July 2010, we reported 
        that the U.S. Government faced a number of challenges in 
        formulating and implementing a coherent approach to global 
        aspects of cyberspace, including, among other things, providing 
        top-level leadership and developing a comprehensive 
        strategy.\10\ Specifically, we found that the National 
        Cybersecurity Coordinator's authority and capacity to 
        effectively coordinate and forge a coherent National approach 
        to cybersecurity were still under development. In addition, the 
        U.S. Government had not documented a clear vision of how the 
        international efforts of Federal entities, taken together, 
        support overarching National goals. We recommended that, among 
        other things, the National Cybersecurity Coordinator develop 
        with other relevant entities a comprehensive U.S. global 
        cyberspace strategy. The coordinator and his staff concurred 
        with our recommendations and stated that actions had already 
        been initiated to address them.
---------------------------------------------------------------------------
    \10\ GAO, Cyberspace: United States Faces Challenges in Addressing 
Global Cybersecurity and Governance, GAO-10-606 (Washington, DC: July 
2, 2010).
---------------------------------------------------------------------------
  <bullet> Finalizing cybersecurity guidelines and monitoring 
        compliance related to electricity grid modernization. In 
        January 2011, we reported on efforts by the National Institute 
        of Standards and Technology (NIST) to develop cybersecurity 
        guidelines and Federal Energy Regulatory Commission (FERC) 
        efforts to adopt and monitor cybersecurity standards related to 
        the electric industry's incorporation of IT systems to improve 
        reliability and efficiency--commonly referred to as the smart 
        grid.\11\ We determined that NIST had not addressed all key 
        elements of cybersecurity in its initial guidelines or 
        finalized plans for doing so. We also determined that FERC had 
        not developed an approach for monitoring industry compliance 
        with its initial set of voluntary standards. Further, we 
        identified six key challenges with respect to securing smart 
        grid systems, including a lack of security features being built 
        into certain smart grid systems and an ineffective mechanism 
        for sharing information on cybersecurity within the industry. 
        We recommended that NIST finalize its plans for updating its 
        cybersecurity guidelines to incorporate missing elements and 
        that FERC develop a coordinated approach to monitor voluntary 
        standards and address any gaps in compliance. Both agencies 
        agreed with these recommendations.
---------------------------------------------------------------------------
    \11\ GAO, Electricity Grid Modernization: Progress Being Made on 
Cybersecurity Guidelines, but Key Challenges Remain to be Addressed, 
GAO-11-117 (Washington, DC: Jan. 12, 2011).
---------------------------------------------------------------------------
  <bullet> Creating a prioritized National and Federal cybersecurity 
        research and development (R&D) agenda. In June 2010, we 
        reported that while efforts to improve cybersecurity R&D were 
        under way by the White House's Office Science and Technology 
        Policy (OSTP) and other Federal entities, six major challenges 
        impeded these efforts.\12\ Among the most critical was the lack 
        of a prioritized National cybersecurity research and 
        development agenda. We found that despite its legal 
        responsibility and our past recommendations, a key OSTP 
        subcommittee had not created a prioritized National R&D agenda, 
        increasing the risk that research pursued by individual 
        organizations will not reflect National priorities. We 
        recommended that OSTP direct the subcommittee to take several 
        actions, including developing a National cybersecurity R&D 
        agenda. OSTP agreed with our recommendation and provided 
        details on planned actions.
---------------------------------------------------------------------------
    \12\ GAO, Cybersecurity: Key Challenges Need to Be Addressed to 
Improve Research and Development, GAO-10-466 (Washington, DC: June 3, 
2010).
---------------------------------------------------------------------------
    We are in the process of verifying actions taken to implement our 
recommendations. In addition, we have on-going work related to cyber 
CIP efforts in several other areas including: (1) Cybersecurity-related 
standards used by critical infrastructure sectors, (2) Federal efforts 
to recruit, retain, train, and develop cybersecurity professionals, and 
(3) Federal efforts to address risks to the information technology 
supply chain.
Federal Capacity to Protect Against Cyber Threats Needs to Improve
    In addition to improving our National capability to address 
cybersecurity, Executive branch agencies, in particular DHS, also need 
to improve their capacity to protect against cyber threats by, among 
other things, advancing cyber analysis and warning capabilities and 
strengthening the effectiveness of the public-private sector 
partnerships in securing cyber critical infrastructure.
  <bullet> Enhancing cyber analysis and warning capabilities. In July 
        2008, we reported that DHS's US-CERT had not fully addressed 15 
        key attributes of cyber analysis and warning capabilities.\13\ 
        As a result, we recommended that the Department address 
        shortfalls associated with the 15 attributes in order to fully 
        establish a National cyber analysis and warning capability as 
        envisioned in the National strategy. DHS agreed in large part 
        with our recommendations and has reported that it is taking 
        steps to implement them. We are currently working with DHS 
        officials to determine the status of their efforts to address 
        these recommendations.
---------------------------------------------------------------------------
    \13\ GAO, Cyber Analysis and Warning: DHS Faces Challenges in 
Establishing a Comprehensive National Capability, GAO-08-588 
(Washington, DC: Jul. 31, 2008).
---------------------------------------------------------------------------
  <bullet> Strengthening the public-private partnerships for securing 
        cyber critical infrastructure. In July 2010, we reported that 
        the expectations of private sector stakeholders were not being 
        met by their Federal partners in areas related to sharing 
        information about cyber-based threats to critical 
        infrastructure.\14\ Federal partners, such as DHS, were taking 
        steps that may address the key expectations of the private 
        sector, including developing new information-sharing 
        arrangements. We also reported that public sector stakeholders 
        believed that improvements could be made to the partnership, 
        including improving private sector sharing of sensitive 
        information. We recommended that the National Cybersecurity 
        Coordinator and DHS work with their Federal and private sector 
        partners to enhance information-sharing efforts, including 
        leveraging a central focal point for sharing information among 
        the private sector, civilian government, law enforcement, the 
        military, and the intelligence community. DHS officials stated 
        that they have made progress in addressing these 
        recommendations, and we will be determining the extent of that 
        progress as part of our audit follow-up efforts.
---------------------------------------------------------------------------
    \14\ GAO, Critical Infrastructure Protection: Key Private and 
Public Cyber Expectations Need to Be Consistently Addressed, GAO-10-628 
(Washington, DC: July 15, 2010).
---------------------------------------------------------------------------
Federal Agencies Have Not Addressed Persistent Control Weaknesses or 
        Implemented Effective Information Security Programs
    Federal systems continue to be afflicted by persistent information 
security control weaknesses. Specifically, agencies did not 
consistently implement effective controls to prevent, limit, and detect 
unauthorized access or manage the configuration of network devices to 
prevent unauthorized access and ensure system integrity. Most of the 24 
major Federal agencies had information security weaknesses in five key 
internal control categories,\15\ as illustrated in Figure 1. In 
addition, GAO determined that serious and widespread information 
security control deficiencies were a Government-wide material weakness 
in internal control over financial reporting as part of its audit of 
the fiscal year 2010 financial statements for the United States 
Government.
---------------------------------------------------------------------------
    \15\ The five internal controls are access controls, which ensure 
that only authorized individuals can read, alter, or delete data; 
configuration management controls, which provide assurance that only 
authorized software programs are implemented; segregation of duties, 
which reduces the risk that one individual can independently perform 
inappropriate actions without detection; continuity of operations 
planning, which provides for the prevention of significant disruptions 
of computer-dependent operations; and an agency-wide information 
security program (security management), which provides the framework 
for ensuring that risks are understood and that effective controls are 
selected and properly implemented.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Over the past several years, we and inspectors general have made 
hundreds of recommendations to agencies for actions necessary to 
resolve prior significant control deficiencies and information security 
program shortfalls. For example, we recommended that agencies correct 
specific information security deficiencies related to user 
identification and authentication, authorization, boundary protections, 
cryptography, audit and monitoring, physical security, configuration 
management, segregation of duties, and contingency planning. We have 
also recommended that agencies fully implement comprehensive, agency-
wide information security programs by correcting weaknesses in risk 
assessments, information security policies and procedures, security 
planning, security training, system tests and evaluations, and remedial 
actions. The effective implementation of these recommendations will 
strengthen the security posture at these agencies. Agencies have 
implemented or are in the process of implementing many of our 
recommendations.
    In addition, the White House, OMB, and selected Federal agencies 
have undertaken Government-wide initiatives to enhance information 
security at Federal agencies. For example, the Comprehensive National 
Cybersecurity Initiative, a series of 12 projects, is aimed primarily 
at improving DHS's and other Federal agencies' efforts to reduce 
vulnerabilities, protect against intrusion attempts, and anticipate 
future threats against Federal Executive branch information systems. 
However, the projects face challenges in achieving their objectives 
related to securing Federal information, including better defining 
agency roles and responsibilities, establishing measures of 
effectiveness, and establishing an appropriate level of transparency. 
These challenges require sustained attention, which agencies have begun 
to provide.
    In summary, the threats to information systems are evolving and 
growing, and systems supporting our Nation's critical infrastructure 
and Federal systems are not sufficiently protected to consistently 
thwart the threats. Administration and Executive branch agencies need 
to take actions to improve our Nation's cybersecurity posture, 
including implementing the actions recommended by the President's 
cybersecurity policy review and enhancing cyber analysis and warning 
capabilities. In addition, actions are needed to enhance security over 
Federal systems and information, including fully developing and 
effectively implementing agency-wide information security programs and 
implementing open recommendations. Until these actions are taken, our 
Nation's Federal and non-Federal cyber critical infrastructure will 
remain vulnerable. Mr. Chairman, this completes my statement. I would 
be happy to answer any questions you or other Members of the 
subcommittee have at this time.

    Mr. Lungren. Thank you very much. We will now start a round 
of questioning, and I yield myself 5 minutes.
    Mr. Reitinger, it is so easy to be a Monday morning 
quarterback. As we look at what is happening in Japan, you see 
the effects of one of the largest recorded, most powerful 
earthquakes in history, a tsunami that, if you watch it via the 
internet, if you watch it via YouTube, you see something that 
is stronger than any words could present. Then you see the 
resulting failure at the nuclear power plants. I wonder if 
Japan, in analyzing threats, would ever have seen that triple 
whammy scenario.
    So I wonder what is it that you worry most about, Mr. 
Reitinger? The only reason I ask you that is, I think we need 
to do something to get a sense of urgency about this particular 
subject matter, not only in the Congress, but in the public at 
large. So what is the most serious threat that you see to our 
critical infrastructure as a result of something that may visit 
it by way of cybersecurity, or a lack of cybersecurity, an 
invasion of our cyber system, penetration of our cyber system.
    Mr. Reitinger. Thank you very much, Mr. Chairman.
    I would like to take that in a slightly different 
direction, if I might. The threats are very serious, but I 
think it is somewhat difficult to say that this particular 
vector of attack is greater than this particular vector. 
Certainly I do worry very much about things like attacks on 
control systems, where it is not just, well, we can't get 
access to our data, but we can't have the power on; or it is 
not just we can't get access to our data or somebody access to 
our data, somebody may have filled with our data, not just 
attacks on confidentiality, but integrity. So if someone got 
access to a major medical database and changed the contents of 
it, that could have significant consequences in terms of human 
life for a large number of people.
    But what concerns me the most is not any of those 
particular things, it is what you started out your question 
with. Was Japan fully prepared? As much as they prepared, were 
they prepared? Are we now prepared for that type of cyber 
attack and are we doing the things that we need to do now to be 
ready when and if that sort of event takes place? We have done 
considerable things to raise the priority of cybersecurity.
    Just last year, the Ranking Member mentioned the first-ever 
Quadrennial Homeland Security Review which identified 
cybersecurity as one of the top mission areas for the entire 
homeland security enterprise on a par with protecting our 
borders and having domestic security and providing resilience 
to disasters. On a par with those things, cybersecurity is just 
as important. But are we, as a Nation, going to do the things 
that we need to do to make sure that we have got the 
capabilities and ability to respond across the public and 
private sectors? Are we going to keep the focus and move 
forward rather than waiting to respond when it is too late?
    Mr. Lungren. Mr. Wilshusen, looking at your report and your 
comments, your suggestion is we are not doing all that we need 
to do. Can you outline, in your opinion, for instance, what is 
hindering DHS's cybersecurity mission right now?
    Mr. Wilshusen. Well, I think there are probably a couple of 
issues. Just to echo what Mr. Reitinger mentioned, too, is that 
preparation is key in order to address these threats because 
often you may not know exactly what will happen, but you will 
need to be able to respond to them and hopefully take 
corrective action before the need occurs.
    One of the things that DHS could do to help the private 
sector and others to better protect their systems is to provide 
clear, actionable, and alert threat information and share 
techniques with the private sector to improve their security.
    Mr. Lungren. Is that not being done, in your opinion, to 
the extent necessary?
    Mr. Wilshusen. Well, we recently completed a review in 
which we asked private sector organizations what its key 
expectations are of the private sector/public partnerships. 
Over 98 percent of the respondents indicated that having 
actionable and timely threat and alert information was 
essential to a great or moderate extent, but only 27 percent 
felt that they were actually receiving that type of information 
to a great or moderate extent.
    So clearly, one of the actions that DHS can do is to help 
provide value-added services to its constituents and to the 
private sector. It is attempting to and has taken actions to 
help improve its cyber analysis and warning capabilities, but 
as Mr. Reitinger mentioned in his opening remarks, more needs 
to be done.
    Mr. Lungren. My time is up.
    The Ranking Member is recognized for 5 minutes.
    Ms. Clarke. Mr. Reitinger and Mr. Wilshusen, DHS has many 
detractors on any number of issues, but we want to make sure 
that the right people are tasked with doing the job of 
addressing cybersecurity to our critical infrastructure. The 
other agencies in the Federal Government with considerable 
cybersecurity expertise are the NSA and the DOD. Is DHS the 
proper agency to lead Federal cybersecurity efforts? Is there 
another Federal agency that should do this?
    Mr. Reitinger. Thank you, ma'am. I think I will start, if 
that is all right.
    I think DHS absolutely is the right place to lead efforts 
with regard to Federal civilian systems and the private sector. 
I would like to respond in part of response to your question to 
what Greg had indicated. There is a long way to go in terms of 
being able to share the right information with the private 
sector. We have made significant strides. If you just take the 
last couple of years, at the start of fiscal year 2009, DHS and 
the entire National Cybersecurity Division had, I think, 38 
people at the start of the year. Over the last 2 years, we have 
roughly tripled that, and then roughly doubled it in 2009 and 
2010, so we are up to about 240 right now. In the President's 
request in the fiscal year 2012 budget, we grow that to a 
little more than 400 people.
    So we are significantly expanding our people, and expanding 
our people expands our capabilities. I think Greg would tell 
you that we have done a lot.
    We have had significant successes, for example, in terms of 
sharing actionable information. We are in the course of a pilot 
right now with the financial services sector where we share 
information--and we partnered with DOD and the financial 
services sector for this. We have shared literally hundreds of 
pieces of actionable information with the financial services 
sector, which has also shared hundreds of pieces of information 
back to us. We then take that information, it comes back to us 
in an itemized form, we can glean data from it and pass that 
out. So we are moving forward on actionable activities that 
actually add value.
    There are lots of roles to play here. DOD has an essential 
role to play protecting military systems and providing a core 
and deep technical expertise in the National Security Agency 
and Cyber Command on which all of us in appropriate cases rely. 
We at DHS have our own expertise. For example, we have 
deployed, in the much messier environment of the Federal 
civilian infrastructure, EINSTEIN 2, which is a system designed 
to detect attempts to break into Federal civilian systems. Just 
last year, it detected over 5.4 million events. We have not 
done that in a unitary network that is subject to command and 
control, but in, so far, 15 of 19 different major Federal 
agencies and at four internet service providers.
    So we have developed the expertise on how to act in that 
environment, move forward to protect security, and to protect 
privacy at the same time.
    Mr. Wilshusen. I would just like to add that DHS is 
building out its capabilities to provide services to its 
constituents. It has also received responsibility for providing 
increased oversight and assistance to other Federal agencies in 
implementing their information security programs and practices.
    One of the issues confronting DHS, at least as we see it, 
do they have the proper authorities to do that? There are 
challenges associated with one agency providing oversight over 
another agency. At present, under the Federal Information 
Security Management Act, many of the authorities are granted to 
the Office of Management and Budget. But last year, in July, 
OMB assigned some of those responsibilities over to DHS, and 
DHS is working to build out its capacity to perform those 
services.
    Certainly, as you mentioned before with DOD and NSA, they 
have a high level of skill and capabilities in this area. To my 
knowledge, they have been working with DHS to some extent in 
transferring some of those skills and abilities as DHS builds 
out its own capabilities.
    Ms. Clarke. Just following up, Mr. Reitinger, on the 
EINSTEIN issue, the National Cybersecurity Division is 
currently planning to deploy five EINSTEIN monitors or five key 
nodes in the dot-gov domain that will be used to prevent and 
detect intrusions on computer systems. If the continuing 
resolution is adopted by Congress and you don't receive your 
requested funds for 2011, how would it affect this much-needed 
project and the request for $226.6 million in the fiscal year 
2012 budget?
    Mr. Reitinger. Thank you, ma'am.
    I think the proposal under H.R. 1 would cut roughly $60 
million from the entire NPPD budget. It is actually a budget 
cut not specifically to cyber, but more broadly to NPPD, but 
there is no way in our budget to do that without a cut to 
cyber. So a big chunk of those resources would, in fact, be 
drawn from the resources we would use to deploy what you are 
referring to, the EINSTEIN 3 system, and it would adversely 
affect the time line for deployment of those sensors, yes, 
ma'am, and our ability to provide advice and assistance to 
agencies on the data that we receive.
    Ms. Clarke. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Lungren. Mr. Reitinger, you are not here to testify as 
to whether or not we should have another month in which we have 
a $228 billion addition to the debt, are you? I didn't think 
so.
    Mr. Walberg is recognized for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman. Thanks to the panel 
for being here talking about an area that is expanding my mind 
daily, as I think about it--so far not causing me a lot of loss 
of sleep because I know that there are people who are thinking 
about it regularly, but I appreciate your testimony this 
morning.
    The question I would just begin with to each of you is a 
short question with an answer that probably I would ask you to 
consider answering in relationship to what you know today and 
what you perceive today.
    In which sector could a cyber attack do the most damage?
    Mr. Reitinger. So, sir, I am somewhat hesitant simply 
because it is hard to say that one sector grown large is 
critical from top to bottom whereas another sector is not 
critical from top to bottom. There are, however, critical 
entities in many sectors, and some of the sectors we worry most 
about are, for example, financial services and electric power, 
primarily because those are sectors, along with information and 
communications, where you notice adverse effects in 
milliseconds--and I mean that, milliseconds--as opposed to 
seconds, minutes, hours, or days.
    Mr. Walberg. Thank you.
    Mr. Wilshusen.
    Mr. Wilshusen. I would agree with Mr. Reitinger's remarks, 
particularly as it relates to the financial services and 
electrical power sectors.
    There was an incident a couple years ago at a power plant, 
nuclear power plant in Alabama. Now this was an unintended 
incident, it was not due to a cyber attack, but it does 
represent and illustrate the impact that could occur from such 
an attack. It was due to an equipment failure on a network that 
was connected to one of the control systems. Through a series 
of events that occurred as a result of that equipment failure, 
the plant had to bring down its nuclear reactor for a time. Its 
due to, in part, because of the interconnectivity of these 
systems to control systems. So it can have a potentially 
devastating effect.
    Certainly on the financial services side, there have been 
numerous reports where literally millions of dollars have been 
lost and absconded with through cyber attacks.
    Mr. Walberg. Thank you.
    Mr. Reitinger, moving on from that--and I would suggest 
that your answers coincided with my thoughts, as elementary as 
they may be, in talking with energy providers and financial 
institutions in the past several weeks, that just the effect of 
a keystroke is amazing.
    But let me ask you, Mr. Reitinger, are private sector 
entities responsive to the efforts the Government makes with 
them to warn of threats and mitigate the consequence of 
attacks? What is the experience there?
    Mr. Reitinger. I think, sir, you would find that the 
experience in the private sector is similar to that in 
Government agencies. There are a lot of entities who get it and 
some who don't. The private sector has created wholly new 
technical capabilities over the last 10 years and has itself 
built new ways of working together and sharing information, not 
only expanding their information sharing and analysis centers, 
but creating other mechanisms to work together.
    All that said, we are not yet where we need to be in terms 
of broad awareness, but within the business community and among 
individuals, in terms of what the threat is and what actions 
they need to take. One of the things that we are trying very 
much to do in the Department of Homeland Security is do less of 
the talking to ourselves, and as we raise awareness, making 
sure we are talking to the right people, talking not just to 
CISs, chief information security officers or chief risk 
management officers, but talking to chief financial officers 
and chief operating officers, the people who cut the checks and 
say this will affect your bottom line.
    There is broad willingness and interest across the public 
and private sectors to work together. There is still a long way 
to go to have uniform action.
    Mr. Walberg. Mr. Wilshusen, you mentioned that the 
Government must improve the public-private partnership by 
improving information sharing. What are some specific 
recommendations you would have?
    Mr. Wilshusen. Well, one is, as I mentioned before, for 
DHS, in its role as a key focal point with dealing with the 
private sector, is to provide actionable, timely notices of 
either warnings, threat warnings, as well as alerts of specific 
actions currently underway. That has been one of the key 
services that the private sector organizations have indicated 
that they expect to receive but have not yet fully received to 
the levels of expectations. So that would be one area that DHS 
could work on. Indeed, as Mr. Reitinger mentioned earlier, they 
are taking steps to address those areas.
    Mr. Walberg. I see my time is up. Thank you.
    Mr. Lungren. The gentleman from Louisiana, Mr. Richmond, is 
recognized for 5 minutes.
    Mr. Richmond. Thank you, Mr. Chairman.
    I guess my question is for whoever wants to answer. Part of 
what at least I saw in the BP Horizon oil spill in Louisiana 
was that as soon as it happened, there was a clear chain of 
command and there was a set up protocol and people who took 
over at certain points. Do we have, in the event of a cyber 
attack, a clear chain of command with defined roles and 
responsibilities within Government?
    Mr. Reitinger. Sir, to be frank, I think we could use 
further clarity. We have made significant strides in that 
regard. Overall, cyber incidents are going to be incredibly 
complex, and so it is hard to generalize. But it is clear that 
the President is in charge overall, that with regard to 
domestic response, the Secretary of Homeland Security, under 
her Homeland Security Act and authorities under the various 
Presidential directives, is responsible, and DOD is responsible 
for National defense. We built the mechanisms to work 
effectively together. We now have a National cyber incident 
response plan that defines roles and responsibilities, and we 
are going to continue to improve that as our experience 
develops.
    We have also established a mechanism so that two of the 
largest players--DOD and DHS--can work effectively together, 
notably signing a memorandum of agreement which was driven, I 
will tell you, at the Secretarial level; so directly between 
the Secretary of Homeland Security and the Secretary of Defense 
to enable effective synchronization between DOD. So we have a 
team of senior people, are deploying a team of senior people at 
NSA and Cyber Command, and they are deploying two groups--one 
from NSA and one from Cyber Command--to our cyber operation 
center so they can effectively support us.
    One of the things that we are doing in DHS is--and this is 
not just about cyber, it is also about infrastructure 
protection--is, as we develop capability, we are becoming an 
operational entity. We think it is very important that we be 
not about discussing, but about doing and enabling others to 
do. So that is where our focus is.
    Mr. Wilshusen. I would just add that one of the key aspects 
to this that would also be helpful to have a straight line of 
chain of command is for the administration and Federal agencies 
to establish and update the National Policy for Securing 
Cyberspace. This is a document that is many years old. It has 
had a number of issues with it that have impeded its progress 
in being able to be implemented. One thing that needs to be 
developed is just a clear articulation of the objectives, 
goals, and priorities for Federal agencies and the private 
sector to implement security over cyberspace and the systems 
that they operate.
    Mr. Richmond. Thank you.
    As I was talking to my community health centers yesterday, 
we started talking about electronic health records and they 
mentioned to me that there were 60 companies just in my area 
that provided those services. Then I started thinking about 
smart grids. Do we have an industry standard or is there a 
published standard that these companies have to have in 
relation to protecting their electronic health records? Or have 
we set a baseline that they have to at least adhere to to make 
sure that we protect people's privacy and we protect the risk 
of an attack in that area?
    Mr. Wilshusen. Well, the Department of Health and Human 
Services, under HIPAA, issues a security rule that health care 
providers are required to follow certain security and privacy 
guidelines. So that is probably as close as anything that 
exists to a standard, if you will, or guidelines and 
requirements for protecting the confidentiality and integrity 
of health information.
    Mr. Richmond. But under HIPAA, have they--I hate to put it 
this way, have they gotten to the level of sophistication to 
address cybersecurity in terms of protecting those health 
records? I know traditionally we just said don't leak people's 
medical condition, don't publish it, you have to protect it and 
put it in a safe place. But now when we start going to 
electronic health records, the question is whether somebody has 
put out the technical guidelines and the technical 
responsibilities to make sure that at least those companies are 
not easily hacked. That will be my question, and I yield back, 
Mr. Chairman.
    Mr. Wilshusen. Well, the security rule does provide some 
guidelines, but probably not to the level that you are 
referring to in terms of the very detailed technical standards 
that may be required.
    One of the issues that also comes up is in terms of data 
interoperability between various different health organizations 
and States to make sure that this health information is 
actually interoperable among different States as they develop 
their own individual standards. So that is another issue that 
is attendant to the one you are asking about.
    Mr. Lungren. The gentleman's time has expired.
    Mr. Meehan is recognized for 5 minutes.
    Mr. Meehan. Thank you, Mr. Chairman. Thank you to each of 
our panelists for their very revealing testimony today.
    Let me ask both of you, 15 million reports in the course of 
a year, and yet we are trying to communicate with the private 
sector simultaneously, particularly those with these control 
systems. How do you triage to know what to communicate down the 
line and say this is something we ought to be reaching out to 
without becoming a point in time where you are--what is the old 
adage--crying wolf and they don't know when to really be 
alerted?
    Mr. Reitinger. Sir, I would say you have to do a couple of 
things. One, you broadly have to find the broader points of 
influence. In a time that we all have those scarce resources, 
what is the most effective way to institute protections to get 
the private sector not only to understand the threat, but 
implement the threat? So we focus very much on that.
    You try to have broad campaigns. So one of the things that 
we did this year for the first time as a response to the 
President's Cyberspace Policy Review, instead of just having an 
annual Cybersecurity Security Awareness Month, we have now got 
an annual campaign, the ``Stop. Think. Connect.'' Campaign, 
which we are advocating for. It was developed--not by DHS, but 
actually by a partnership. That is something a partnership can 
do; it is people in the private sector and the public sector 
working together to come up with a message that we can all work 
together to implement, something fairly actionable.
    The last thing is that you do have to make choices, you do 
have to triage. That is something we do generally in the space. 
We have 5.4 million events. You can't look in detail at every 
one of them. You have to figure out fairly rapidly, look for 
indicators for what are the most severe? You try to expand our 
capabilities.
    One of the things we have done in DHS is established fly-
away teams. So we have a team of people that we can deploy if 
there is a significant incident in at a private sector company 
and they need our assistance.
    In some sense it is because of the act, in some sense it is 
because of a prioritization, that team is typically deployed 
for control systems-type incidents because that is one of the 
things that we worry about significantly. So there are a lot of 
processes that one has to go through to try to figure out where 
you are most effectively applying resources to the effect you 
need.
    Mr. Meehan. Do you agree with that sort of assessment?
    Mr. Wilshusen. Yes, I would.
    Mr. Meehan. The thing that really strikes me again is the 
interoperability. We keep talking about these control systems 
and the capacity to be able to impact entire areas which are 
interdependent. How can we create the kind of requirement, so 
to speak, from the private sector to collaborate with you to be 
able to, as we say, meet some kind of National policy standards 
or objectives so that we are working together? We have 
effectively independent agencies that have oversight over 
critical pieces of this infrastructure which are at risk.
    Mr. Reitinger. So, sir--I feel like I keep jumping ahead of 
Greg. Do you want to go first or I will?
    I would say there are a number of things we need to do. We 
at DHS are focused on executing within our existing authorities 
to accomplish that mission. There are a number of things we can 
do. We talked a lot about awareness, so raising awareness among 
the companies is a key part of this. As Greg has indicated, 
sharing classified and unclassified threat information so that 
they are really sensitized to what the issues are.
    Second, we can work on things like helping develop 
standards and working with the private sector to make sure that 
they have available solutions so that there is a known path to 
better security.
    Mr. Meehan. My time will run out, but are there minimal 
standards right now that we have in the industry that we can 
expect people to abide by so that at least there is some kind 
of a baseline that we can expect collaboration that they will 
address within their own institution so that they are capable 
of communicating with you about these issues?
    Mr. Reitinger. So there are many standards, sir, of 
differing degrees or prescriptiveness, if you will, and 
effectiveness. One of the things that I don't think we have 
right now is what one might think of as a baseline ability to 
say across all of the critical infrastructures we are meeting 
the standard that we need. So one of the things that we are 
doing is working with not only other agencies within the 
Federal Government so that they are aware of what the 
requirements are, but we have, in one case, DHS has specific 
authority, and that is for the chemical facilities sector, or 
the chemical sector where we have put in a risk-based 
performance standard into the existing CFATS regime related to 
cybersecurity. We will be continuing to look at that going 
forward to make sure that it meets National requirements.
    Mr. Wilshusen. If I may add, we have an on-going engagement 
right now looking at what standards are in effect at various 
different critical infrastructure sectors and to assess, to the 
extent that those standards exist, whether they are voluntary; 
and how those sectors either enforce or assure that their 
members actually implement those standards. We expect to be 
reporting out on that later this year.
    Mr. Meehan. Thank you, Mr. Chairman.
    Mr. Lungren. I will just tell the gentleman that we will 
shortly schedule a markup on the CFATS bill so that we will 
have that issue going forward.
    I understand Mr. Keating has no questions at this time, so 
Mr. McCaul is recognized for 5 minutes.
    Mr. McCaul. Thank you, Mr. Chairman. Phil, it is good to 
see you again. Thank you for your hard work on the CSIS 
Commission. It is a great report, outstanding.
    I mean, the threats are real, we all know what they are--
the power grids, financial sectors. You know, when I was 
Ranking Member of this subcommittee two Congresses ago, we held 
hearings and talked about what is the coordination between DHS? 
DHS has a primary mission to defend. Are they talking to DOD or 
NSA that has the offensive capability, not that one is charged 
with defensive, are those coordinating as well?
    I will say, I think, DHS has come a long way since those 
hearings, and that is very good news. I noticed, Phil, in your 
testimony you talked about an MOU that has been signed between 
DHS and the DOD, and I was very glad to see that. Can you 
explain how that is working? Also, do you anticipate doing 
something similar with NSA?
    Mr. Reitinger. Absolutely, sir. So I talked a little bit 
about that before. We signed, at the Secretarial level, an MOA, 
a memorandum of agreement--sorry, I fall back into acronyms too 
much--between the Department of Defense and the Department 
Homeland Security. There are two points of contact on that; one 
is me, and the other is Dr. Jim Miller, who is the Principal 
Under Secretary of Defense for Policy at DOD. Under that 
agreement, DHS, so that we can stay fully synched with our 
partners in the Department of Defense, has and is deploying a 
team of people to Fort Meade that will be led by a DHS senior, 
who is currently Rear Admiral Mike Brown, who has been in the 
Department of Homeland Security on detail from DOD for a number 
of years.
    He will have a team of people that will comprise first a 
joint coordination element to do joint planning at DOD, make 
sure we can stay operationally synched, a group of people who 
are going to work with NSA on its technology, and another group 
of people who will be embedded in the NTOC at NSA so that we 
have full assay of the NSA's knowledge of the threat.
    NSA and Cyber Command are both deploying teams of people to 
our Cyber Operation Center to support our domestic cyber 
operations. So there will be a cryptologic support group from 
NSA and a cyber support element--I am more comfortable with CSG 
and CSE, but those are what they are called--from Cyber Command 
that will directly support us. We are in the initial stages of 
developing these capabilities, but it is already working very 
well. I would also say that those are not the only means that 
we have to coordinate. So we literally hold a weekly SVTC, a 
secure video teleconference, with our partners in DOD to make 
sure we are staying coordinated. We work with them at deputies 
committee meetings and lots of other administrative policy and 
other processes. So we have come a long way between these two 
departments in our ability to support each other and our 
respective mission spaces.
    Mr. McCaul. That is certainly good news, and I do want to 
commend you for that. Again, from two Congresses ago, that is 
great progress, and I am very glad to hear that. They have the 
assets, the expertise, and the capabilities, so it makes no 
sense for them not to work with you and share that.
    Private sector sharing threat information, it is always 
difficult for the private sector to share that with the Federal 
Government. The incentives are still lacking, I think, to some 
extent. They have a duty to their shareholders, they don't want 
to report this kind of stuff. How do you incentivize them to do 
that? Would an exception to FOIA be helpful in terms of that 
threat information not being subjected to a FOIA request?
    Mr. Reitinger. With regard to at least some information 
submitted under the Protected Critical Information 
Infrastructure program, the PCII program, there is a FOIA 
exception. The issue I think is a little broader, and that is 
that there remains a lack of clarity about the costs and risks 
of sharing information from the private sector to the 
Government. So sometimes one has the problem that when the 
private sector and Government want to talk--I think generally 
if something is happening, the private sector will lean forward 
to figure out a way to share information, as will the 
Government. Because when you get operators talking with 
operators, they have a problem to solve. If it is more on-
going, the problem is, nowadays, if you get together and you 
want to work together, you want to share information, not just 
to share information to solve a particular problem, sometimes 
the first thing you have to do is call the lawyers into the 
room. You and I, sir, are both lawyers, we love lawyers, but--
--
    Mr. McCaul. I wouldn't necessarily say that.
    Mr. Reitinger. So we have some internal processes going now 
to try and generate some clarity with the private sector about 
what the rules are so that you can have a more rapid and 
effective conversation.
    Mr. McCaul. Last, if I could indulge the Chair, the 
National Policy for Cyberspace--it was mentioned earlier--sir, 
the last one was developed in 2003, I think one of the 
recommendations we had with the Commission was to develop a 
National policy. That is within the jurisdiction and authority 
of the White House. Can you demonstrate why that is so 
important and so critical?
    Mr. Reitinger. Well, I think having a National policy is 
critical. I would personally favor, while I think we knew new 
ways to do things, focusing very heavily on implementation. We 
at DHS are working right now on the strategy which will 
underlie the cybersecurity part of the Quadrennial Homeland 
Security Review that the Ranking Member brought up. So for us 
this is mission four or cybersecurity across the Homeland 
Security enterprise. We are working now across Government and 
with the private sector to develop that strategy that will roll 
out to the broader National strategy.
    Mr. McCaul. Thank you so much.
    Mr. Lungren. I want to thank our panelists for not only 
your oral testimony here today but your written testimony. You 
have helped us considerably.
    Mr. Reitinger, and also in classified briefings, I just 
want to tell you that members of this panel very much 
appreciated your participation and the participation of others, 
and that has helped us a great deal.
    I will be calling on both of you in the future to help us a 
little bit more as we go forward on an issue that will not go 
away and only needs greater clarity and greater visibility. So 
we thank both of you.
    Now, we would move to our second panel, and I know it will 
take a little while for the three of them to get there.
    We are very pleased to have our second panel. We have 
outstanding panelists in both panels, and we very much 
appreciate your time and your effort and the knowledge that you 
are relaying to us here today.
    Dr. Phyllis Schneck is the vice president and chief 
technical officer of Global Public Sector for McAfee. She also 
serves as a volunteer as chairman of the board of directors of 
the National Cyber-Forensics & Training Alliance, which is an 
important partnership between Government, law enforcement, and 
the private sector for information analytics and has been used 
to prosecute over 150 cyber criminals worldwide.
    Earlier Dr. Schneck worked as vice president of Threat 
Intelligence at McAfee and was responsible for the design and 
application of McAfee's internet reputation intelligence. She 
has Ph.D. in computer science from Georgia Tech where she 
pioneered the field of information security and security-based 
higher-performance computing.
    Thank you for being here.
    Dr. James Lewis is a senior fellow and program director at 
CSIS where he writes on technology, National security, and the 
international economy.
    Before joining CSIS, he worked in the Federal Government as 
a Foreign Service officer and as a member of the Senior 
Executive Service. Most recently he was the project director of 
CSIS's Commission on Cyber Security for the 44th Presidency. 
That report has been downloaded, I understand, more than 40,000 
times, so no secrets there. He received his Ph.D. from the 
University of Chicago in 1984.
    Mischel Kwon is an IT executive with more than 29 years of 
experience ranging from application, design, and development to 
building organizational and National level computer emergency 
instant response and readiness teams. She is most recently the 
vice president of Public Sector Security for RSA, the security 
division of the EMC Corporation, and prior to that, she was the 
director of the United States Computer Emergency Readiness 
Team, US-CERT, at DHS.
    We welcome all of our witnesses. We are pleased that you 
are able to share your perspective with us. As I said, your 
written testimony will be made part of the record. We would 
like to recognize each of you in order for 5 minutes, and I 
know that is a short period of time, but we will try and stay 
with that as much as possible and then ask you questions.
    So, first of all, Dr. Schneck.

    STATEMENTS OF PHYLLIS SCHNECK, VICE PRESIDENT AND CHIEF 
                TECHNICAL OFFICER, MC AFEE INC.

    Ms. Schneck. Good morning.
    Chairman Lungren, Ranking Member Clarke, and other 
distinguished Members of the subcommittee, thank you for 
requesting McAfee's views on cyber threat to critical 
infrastructure and the American economy. It is an honor and a 
pleasure to be part of the process and to be here today.
    Your committee is playing a vital role in helping to define 
the contours of cybersecurity debate, and your aim to write 
thoughtful and incentives-based legislation must be commended.
    As you mentioned, I focused my entire career on 
cybersecurity, looking at both the technology and the 
applications and certainly the trust engaged in public-private 
partnership and the need for more information sharing.
    McAfee is the largest dedicated cybersecurity company in 
the world, and we are also a wholly-owned subsidy of the Intel 
Corporation. We protect the cyber spectrum, from the biggest 
computers and the big cloud computing, as we all refer, to the 
smallest components, even down to our cell phones or airplane 
avionics systems and our cars and certainly now to the chip.
    My testimony will focus on the following key areas: The 
evolution of the cyber threat landscape; McAfee's Global Threat 
Intelligence Solution; and the paradigm change that we need to 
make in order to protect our cyber infrastructures and thus our 
global critical infrastructures; two major cyber security 
events, advanced persistent threats that we have seen, these 
are just two of many, many, just two that have been vocalized; 
and certainly some policy recommendations to improve public-
private sector information sharing.
    Our adversary is strong. Our adversary is smart. They act 
faster than we do. They have full funding, in many cases, from 
governments, from nation states. They have malicious intent, 
and they don't have the intellectual property barriers that we 
do. They don't have the legal barriers that we do to execute. 
They are criminals; there is nothing to lose.
    So when you look at the landscape from 20 years ago and you 
look at ``antivirus,'' all of the adversary's ability over the 
past 2 decades, all of the damage we have talked about this 
morning, has been enabled by malicious code, the ability of an 
adversary to execute their will somewhere else, and whether it 
causes, as in the old days, just something to prove that 
somebody can do something all the way to financial organized 
crime with a financial motivation, and now, as we are seeing, 
government-structured or nation-state attacks that look for 
destruction and/or the taking of intellectual property.
    As we look at how we fight that, a signature will not beat 
this adversary. Signature was a legacy model. We should know 
about the attack. We will protect everybody, and boom, they are 
fine when they get it, sort of like a vaccination.
    That doesn't work anymore. We need a full paradigm shift to 
retake the global cybersecurity picture that we have as a 
private industry and Government and infuse that into our 
network fabric, again from cloud to chip, where the enemy's 
will is blocked before it reaches a target.
    When you think about global threat intelligence and what we 
mean by that, McAfee and other companies in the IT 
infrastructure and other infrastructures have the ability and 
have developed very sophisticated information-gathering 
capabilities where we have a weather map, a cyber weather map 
of events that happen all over the world, an understanding of 
traffic volumes, an understanding of what machines are doing, 
what harm and to where, where they are targeting, where 
malicious code that looks just like other malicious code is 
being sent.
    We have to react in two ways: We have to react first and 
foremost to beat this adversary in milliseconds. The one thing 
this enemy can't do is understand how the entire system works 
and block it in real time, so the disease never reaches your 
body or your body can fight the disease in real time without 
understanding the name of the germ first.
    The second thing we have to do is better enable ourselves 
to share information at the human level. While that is not real 
time, it helps us understand the motivation, understand future 
targets and, first and foremost, protect ourselves.
    We looked at two major threats over the past couple of 
years and led the investigations at McAfee. There are many 
others like this, but first one was Operation Aurora, same name 
as the diesel generator explosion at INL; however, we kept the 
name for this one. That is the name the bad guys gave it. It is 
in the file path.
    This was the most sophisticated event we have ever seen 
targeted toward the private sector. They usually save this for 
our friends in Government. We estimate it took teams of people 
many weeks to target the 20 or so companies they looked for, 
the information they wanted to get, and, most powerfully, the 
people in those companies that had an access to code stores of 
that size, meaning the people that tested the code, the people 
that have to see all of it working together.
    They exfiltrated or took the copies of the code out to 
servers placed in different countries, and they are using that 
likely today. Many attacks exist that look just like this 
today. They lurk; they are often called advance persistent 
threat.
    The other one we recently discovered and investigated was 
called Night Dragon, similar set up but less sophisticated, 
again one of many. But they were looking specifically at 
architectural plans for pipelines in the oil and gas sector, 
and this one was around the world.
    Leading to the policy recommendations, the private sector 
needs some stronger protections to share information with 
Government and law enforcement. It was said in the earlier 
panel, in the middle of the crisis, the operators will talk, 
and they do. But we need to be better protected.
    We and other companies put little pieces of the puzzle 
together, and we get a very big picture, and we want to share 
that with our colleagues in Government and in law enforcement.
    We want to do that faster. We can't. It creates in many 
cases material information that affects shareholders, 
companies' bottom lines, and it can breach trust. We need much 
stronger protection, so that when someone in law enforcement, 
as they did, called me up and says, why didn't I have this 
yesterday when you knew it, my answer doesn't have to be, 
because I could get fired.
    We have to beat this adversary, and we have to--we all of 
the--we have a lot of the information we need among the private 
sector to use the great collaborative organizations that DHS 
and the FBI and others have created for us with the private 
sector. Great construct exists. If we can put more information 
into those, we can use those constructs to their fullest 
potential.
    So, in conclusion, I do want to thank you very much for 
having us today, for being a part of the process. McAfee is 
very committed to working with the U.S. Government to solve the 
cybersecurity challenges and to beat this adversary.
    [The statement of Ms. Schneck follows:]
                 Prepared Statement of Phyllis Schneck
                             March 16, 2011
    Chairman Lungren, Ranking Member Clarke, and other distinguished 
Members of the subcommittee, thank you for requesting McAfee's views on 
the cyber threat to critical infrastructure and the American economy. 
Your committee is playing a vital role in helping to define the 
contours of the cyber security debate, and your aim to write 
thoughtful, incentives-based legislation must be commended.
    My name is Phyllis Schneck and I have dedicated my entire 
professional career to the security and infrastructure protection 
community. My technical background is in high performance computing and 
cryptography. In addition to serving as Vice President and Chief 
Technology Officer, Global Public Sector, for McAfee, I serve as 
Chairman of the Board of Directors of the National Cyber Forensics and 
Training Alliance, a partnership between Government, law enforcement, 
and the private sector for information analytics that has been used to 
prosecute over 150 cyber criminals world-wide. Earlier, I worked as 
Vice President of Threat Intelligence at McAfee and was responsible for 
the design and application of McAfee's<SUP>TM</SUP> internet reputation 
intelligence. I have also served as a commissioner and working group 
co-chair on the public-private partnership for the CSIS Commission to 
Advise the 44th President on Cyber Security.
    Additionally, I served for 8 years as chairman of the National 
Board of Directors of the FBI's InfraGard<SUP>TM</SUP> program and as 
founding president of InfraGard Atlanta, growing the InfraGard program 
from 2,000 to over 33,000 members Nation-wide. Before joining McAfee, I 
was Vice President of Research Integration at Secure Computing. I hold 
a Ph.D. in Computer Science from Georgia Tech, where I pioneered the 
field of information security and security-based high-performance 
computing.
    My testimony will focus on the following key areas:
  <bullet> The evolution of the cyber security threat landscape;
  <bullet> McAfee's Global Threat Intelligence Solution and the role it 
        plays in enabling us to detect and remediate a wide range of 
        cyber security attacks on our Nation's critical 
        infrastructures;
  <bullet> Two major cyber security attacks, Night Dragon and Operation 
        Aurora, and their implications for our homeland security; and
  <bullet> Policy recommendations to improve public/private sector 
        information sharing that is essential to give the Government 
        the capabilities it needs to respond to the modern 
        cybersecurity challenge.
    First I would like to provide a little background on McAfee and 
some of our cybersecurity initiatives.
                    mc afee's role in cyber security
    McAfee, Inc. protects businesses, consumers, and the public sector 
from cyber attacks, viruses, and a wide range of on-line security 
threats. Headquartered in Santa Clara, California, and Plano, Texas, 
McAfee is the world's largest dedicated security technology company and 
is a proven force in combating the world's toughest security 
challenges. McAfee is a wholly owned subsidiary of Intel Corporation.
    McAfee delivers proactive and proven solutions, services, and 
global threat intelligence that help secure systems and networks around 
the world, allowing users to safely connect to the internet and browse 
and shop the web more securely. Fueled by an award-winning research 
team, McAfee creates innovative products that empower home users, 
businesses, the public sector and service providers by enabling them to 
prove compliance with regulations, protect data, prevent disruptions, 
identify vulnerabilities, and continuously monitor and improve their 
security.
    To help organizations take full advantage of their security 
infrastructure, McAfee launched the Security Innovation Alliance, which 
allows organizations to benefit from the most innovative security 
technologies from thousands of developers who can now snap into our 
extensible management platform. Today, more than 100 technology 
partners--large and small businesses all committed to continuous 
innovation in security--have joined the alliance, with more to be 
announced soon.
    Two years ago, McAfee announced an initiative to fight cybercrime, 
a wide-ranging initiative aimed at closing critical gaps in assisting 
victims of cybercrime and preventing new events. The initiative is 
anchored by a multi-point plan that includes calls for action from law 
enforcement, academia, service providers, Government, the security 
industry and society at large to deliver more effective investigations 
and prosecutions of cybercrime.
    Key elements of the plan include:
  <bullet> Education and Awareness.--McAfee works to ensure that 
        officials around the world have the capacity to properly fight 
        cybercrime, while helping users build ``street smarts'' so that 
        they don't become easy victims.
  <bullet> Legal Frameworks and Law Enforcement.--McAfee works to 
        facilitate international collaboration and mutual assistance on 
        cybercrime among governments, industry, and non-governmental 
        organizations (NGOs).
  <bullet> Innovation.--McAfee works with the technology industry to 
        provide technology solutions that stay one step ahead of the 
        threats.
    McAfee is also supportive of the National Strategy for Trusted 
Identities in Cyberspace (NSTIC), working with our partners in 
Government and industry to enable innovation for more efficient 
authentication and other technologies facilitating a safer and more 
pleasant experience for electronic transactions.
    McAfee is committed to bringing the best security products and 
services to the market, partnering with leading IT vendors to ensure 
that customers have the ability to pick and choose the best solutions 
to close their security gaps, and giving consumers and organizations 
additional resources and support to fight cyber-crime ranging from 
organized financial crime to attacks that user the cyber infrastructure 
to gain access to intellectual property or physical infrastructure. 
Likewise, McAfee is committed to taking part in a constructive dialogue 
with policy makers on cyber security initiatives, as we are pleased to 
do in this hearing today.
          the evolution of the cyber security threat landscape
    For purposes of this testimony, we define malware as a set of 
instructions for a computer that causes the computer to behave in the 
will of the malware owner, such as providing unauthorized access to 
information or systems that control physical/kinetic infrastructure. 
Computers execute instructions. Malware puts the enemy's instruction 
next on the list, and then the adversary controls all actions forward, 
sometimes hiding its presence. Malware enters a machine from a variety 
of ports, typically email, web, or connection-level access that is 
unprotected or ill advised to admit these harmful instructions. Malware 
can also be referred to commonly as a ``virus.'' As in biology, when a 
machine has a virus it is compromised and its functions can cause harm.
    Historically, security software relied on antivirus ``signatures'' 
to recognize and block malware. Once a virus was detected, a signature 
was developed by the security software vendor and deployed in the form 
of a DAT file downloaded to the security software on customers' 
computers. That software would then be in a position to recognize and 
block the malware--an approach much like a vaccine that requires 
advance knowledge of the threat. However, this approach is not 
sufficiently fast to fight today's cyber adversary, and that is why 
McAfee is changing the paradigm to proactive defence in real-time: to 
make our networks sufficiently intelligent to prevent malicious 
instructions from reaching the target--instead of requiring that the 
target be vaccinated with a signature.
    Today, malware developers combine web, host, and network 
vulnerabilities with spam, rootkits, spyware, worms, and other means of 
attack. Significantly, malware is often distributed with micro-
variations (polymorphism), or the ability to change quickly, with the 
effect that a signature developed when the malware is first discovered 
is ineffective against the multiple, very slightly different forms of 
the same malware. This is analogous to a disease mutating so that the 
vaccine is no longer effective. Malware may be distributed indirectly 
by networks of computers that have been corrupted by a criminal (a 
``botnet'').
    Criminals, terrorists, and nation states often invest great efforts 
to deploy their software in hundreds of thousands or indeed millions of 
computers owned by innocent third parties, in order then remotely to 
command their botnet to launch an attack on a particular set of 
targets. The malicious software distributed by botnets will often 
actively evolve to become whatever is needed by its controller and is 
not limited by the boundaries of antivirus labels. This means that code 
that appears otherwise harmless in order to be let into the network can 
be told to spread rapidly. This is why we refer to this type of code as 
a worm. It means, for example, that malware originally configured to 
generate spam messages can be instructed to steal banking information. 
Again, cyber actions rely on the execution of instructions, and a 
compromised machine often follows the adversary's instructions to reach 
out to a server in another location for its next set of instructions, 
which can vary widely.
    By leveraging multiple threat vectors and ``one-time usage,'' 
hackers are able to extend the time period in which their malware 
remains undetected and are thus able to steal the money, personal data, 
and other valuable information of users throughout the United States 
and the world. In this way, what might be called classic ``viruses'' 
have been blended in recent years with other types of malware and 
techniques used by malicious hackers intent on stealing personal data. 
Hackers have discovered that direct external attacks are unnecessary 
and risky. It is now easier to engineer malicious software that is 
delivered to a system remotely through various means.
    Modern malware thus can no longer be classified by its perceived 
purpose or propagation method, because those change in an instant. Some 
types of software can be engineered to gain access to and maintain 
control over the victim's machine. Once the malware is on the system, 
it seeks to communicate with its controlling entity--the criminal 
actor. Once communication is established over the internet, any 
compromised machine can be instructed both to pass over any data of 
value to the criminal and to act as an instrument of attack against 
other computers and networks.
                   mc afee global threat intelligence
    McAfee and other sophisticated cyber security providers have 
developed multi-vector, real-time, predictive protection against these 
more sophisticated attacks on information systems. McAfee's solution is 
known as Global Threat Intelligence, or GTI. Cybersecurity solutions 
based on this GTI approach protect the customer's computer by 
calculating the potential risk of a piece of content based on 
experience with the IP address from which it originates, the website, 
or other elements associated with the content in question.
    Thus cybersecurity providers offer solutions enabling the customer 
to stop content that is analyzed as having a risk probability score 
that in the customer's view is ``too risky'' to be loaded into the 
memory of the customer's computer. McAfee GTI tracks the anomalous 
behavior and proactively adjusts an entity's reputation--its website, 
IP address, domain, file, network connection, and so forth--so that 
McAfee products can block the threat and protect customers. Then McAfee 
GTI looks out across its broad network of sensors and connects the dots 
between the website and associated malware, email messages, IP 
addresses, and other associations, adjusting the reputation of each 
related entity so that McAfee's security products--from endpoint to 
network to gateway--can protect users from cyber threats at every 
angle.
    McAfee GTI offers the most comprehensive threat intelligence in the 
market. With visibility across all threat vectors--file, web, message, 
and network--and a view into the latest vulnerabilities across the IT 
industry, McAfee correlates real-world data collected from millions of 
sensors around the globe and delivers real-time, and often predictive, 
protection via its security products.
    Our cyber enemies are smart and fast. They maintain their knowledge 
of networks and techniques by freely sharing information, enjoying a 
lack of legal or intellectual property barriers that often block the 
defenders. The adversary is well-funded, often by governments, and has 
no barrier to swift execution. This is why our cyber infrastructures 
have become their play land. The ability to see a global cyber picture 
and to have situational awareness is what the adversary cannot do. This 
is where we can win--by making the network fabric reject malicious 
instructions in real-time, at the speed of light, before they can hit a 
target. This is how we can be faster than the adversary, and this is 
the paradigm shift from vaccines to a cyber immune system that enhances 
cross-sector cyber resiliency.
    Our Global Threat Intelligence service as well as a number of our 
other products and services helped us first detect and then remediate 
two important global cyber security attacks--Night Dragon and Operation 
Aurora. These attacks are significant because they were managed by 
coordinated and organized teams that succeeded in extracting billions 
of dollars of intellectual property from leading American companies in 
the information technology, defense, and energy sectors--strategic 
industries vital to the country's long-term economic success and 
National security.
                            operation aurora
    On January 14, 2010 McAfee Labs identified a zero-day (previously 
publicly unknown) vulnerability in Microsoft Internet Explorer that was 
used as an entry point for Operation Aurora to exploit Google and at 
least 20 other companies. Microsoft has since issued a security 
bulletin and patch.
    Operation Aurora was a coordinated attack that included a piece of 
computer code that exploits the Microsoft Internet Explorer 
vulnerability to gain access to computer systems. This exploit is then 
extended to download and activate malware within the systems. The 
attack, which was initiated surreptitiously when targeted users 
accessed a malicious web page (likely because they believed it to be 
reputable), ultimately connected those computer systems to a remote 
server. That connection was used to steal company intellectual property 
and, according to Google, additionally gain access to user accounts.
    We also discovered that intruders used a social engineering 
message, known as spear-phishing, to target employees with a high level 
of access in these companies (either software developers, quality 
assurance engineers, or domain administrators). The message would come 
from a previous acquaintance of the targeted user and would ask them to 
click on a web link pointing to a web server in Taiwan. As we uncovered 
and then reported to Microsoft, the web link hosted an obfuscated and 
encoded exploit for a zero-day vulnerability in Internet Explorer.
    If a user had clicked on a link with Internet Explorer version 6, 
their machine would be automatically compromised and malicious code 
would be downloaded and executed stealthily on the computer. The Trojan 
would establish an evasive backdoor command and control channel to the 
same server in Taiwan through which live attackers would jump onto the 
system and proceed to escalate their privileges on the local machine as 
well as other servers within the network. As they moved rapidly through 
the network, they would identify and compromise repositories of 
intellectual property and exfiltrated data of interest out of the 
company. In many cases, this data included source code--the crown 
jewels of these information technology companies--which then could be 
used by attackers to discover new vulnerabilities in software that is 
used by the critical infrastructure industry, Government agencies, and 
many other organizations across the globe.
    McAfee is continuing to work with multiple organizations that were 
impacted by this attack, as well as with various Government agencies, 
to address this major supply chain attack in the U.S. commercial 
sector.
                              night dragon
    McAfee has identified a string of attacks designed to steal 
sensitive data from targeted organizations. Unlike opportunistic 
attacks, the perpetrators appear to be highly organized, premeditative, 
and motivated in their pursuits.
    Night Dragon attacks are similar to Operation Aurora and other 
advanced persistent threats, or APTs, in that they employ a combination 
of social engineering and well-coordinated, targeted cyber attacks 
using remote control software and other malware. McAfee has linked 
these attacks to intrusions starting in November 2009, and there is 
circumstantial evidence suggesting they may have begun as early as 
2007. Currently, new Night Dragon victims are being identified almost 
weekly.
    Night Dragon attacks leverage coordinated, covert, and targeted 
cyber attacks involving social engineering, spear-phishing, 
vulnerability exploits in the Windows operating system, Active 
Directory compromises, and remote administration tools, or RATs. The 
attack sequence is as follows:
  <bullet> Public-facing web servers are compromised via SQL injection; 
        malware and RATs are installed.
  <bullet> The compromised web servers are used to stage attacks on 
        internal targets.
  <bullet> Spear-phishing email attacks on mobile, VPN-connected 
        workers are used to gain additional internal access.
  <bullet> Attackers use password-stealing tools to access other 
        systems--installing RATs and malware as they go.
  <bullet> Systems belonging to executives are targeted for emails and 
        files, which are captured and extracted by the attackers.
    McAfee has evidence of Night Dragon malware infections in the 
Americas, Europe, and Asia. McAfee has also identified tactics, 
techniques, and procedures (TTPs) utilized during these continuing 
attacks that point to individuals in China as the primary source. The 
Night Dragon attackers are currently targeting global oil, energy, and 
petrochemical companies with the apparent intent of stealing sensitive 
information such as operational details, exploration research, and 
financial data related to new oil and gas field bid negotiations. As we 
saw with the WikiLeaks document disclosures brought about by a 
malicious insider, sensitive data theft can be highly damaging beyond 
regulatory penalties and lost revenue. And unlike Stuxnet, the tools 
and techniques behind Night Dragon are not specific to critical 
infrastructure and can be used to launch attacks against any industry.
                         policy recommendations
    Officials have made tremendous progress in the creation of 
information-sharing constructs comprising multiple agencies and the 
private sector. With good information, the collaboration enabled by 
these constructs will help us to achieve what the enemy already has: 
Speed and alacrity of information sharing and acting on it for high 
impact.
    In many cases, private sector companies can solve a cybersecurity 
puzzle by evaluating many disparate clues. Private companies need 
protected ways to share their big-picture research findings with the 
Government without loss of trust or creation of material events for 
stockholders, so that the most significant cybersecurity information is 
expeditiously actionable. This is the human component of what Global 
Threat Intelligence does at machine speed. We need both in order to 
defeat cyber adversaries, whose aim is to harm our way of life.
    Existing public/private partnerships should ensure that senior 
corporate and Government officials are positioned to share vital 
information and best practices. Among other things, this means access 
to sensitive (or classified) information and a secure mechanism for 
sharing it.
    Broad-based situational awareness is vital to securing our global 
cyber systems and ensuring our National security. Policies that enable 
companies and governments to work together, using global threat 
intelligence (e.g., combining cyber, energy, finance, and other data) 
to enhance correlation and predictive capabilities, are critical to 
real-time responsiveness within the network switching/routing fabric. 
The Lieberman-Collins-Carper bill supports such information sharing by 
requiring the Government to share information, including threat 
analysis and warning information, with owners and operators regarding 
risks to their networks. Legislation developed in the House of 
Representatives would benefit from similar language.
                               conclusion
    The cybersecurity challenge faced by our country is a serious 
matter that requires an evolution in the way in which both the public 
and private sectors collaborate. Each sector has its own set of core 
capabilities; only the Government can implement the complex set of 
organizational and policy responses necessary to counter the growing 
cybersecurity threat. Leading information technology companies and 
their customers are uniquely positioned to act as early warning systems 
that can identify and help address cybersecurity attacks as a real-time 
cyber immune system.
    With the right industry-Government collaboration, networks of the 
future can comprise intelligence and create resiliency by instantly 
rejecting harmful code in milliseconds as opposed to the hours it 
traditionally takes to make a signature, just as our bodies reject 
viruses even though we may not know the name of the particular disease. 
Information technology companies focused on cybersecurity in particular 
have the resources and the economic incentives to continue to invent 
and develop the technologies and solutions needed to stay ahead of 
sophisticated cyber attackers. In the best American tradition of 
collaboration, the public and private sectors have made important 
strides to address the cybersecurity challenge and to enhance trusted 
working relationships. As we work together to further evolve our 
collaboration models, we can succeed in protecting our homeland from 
the threat of cyber attacks.
    Thank you for asking me to take part in this hearing on behalf of 
McAfee. I would be happy to answer your questions.

    Mr. Lungren. Thank you very much.
    Mr. Lewis.

   STATEMENT OF JAMES A. LEWIS, DIRECTOR AND SENIOR FELLOW, 
TECHNOLOGY AND PUBLIC POLICY PROGRAM, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Mr. Lewis. Thank you very much, Mr. Chairman, and thanks to 
Ranking Member Clarke and, of course, hello to Congressman 
McCaul, who was invaluable as the cochair in leading the CSIS 
commission. So one of the reasons it has been downloaded so 
many times is due to him.
    This will be a good year for cyber security because of the 
work of this committee and others. With luck, I think in this 
Congress, we will see real progress in making our Nation more 
secure.
    But this outcome is not guaranteed. We have been trying for 
years to secure our networks, and we have not succeeded, right.
    So you have heard the litany of problems, major 
corporations, banks, Government agencies; they have all been 
victims. We have lost sensitive military information, oil 
exploration data, valuable commercial technologies and millions 
of dollars from banks.
    The interesting thing about these crimes is that they are 
risk-free. No one has ever been punished for them, and so, of 
course, when you have a crime and no one gets punished, they 
are just going to do it again, right.
    What we are doing now to secure cyberspace is not working. 
There has been real progress at some agencies, like DHS, but we 
need to rethink our approach. To put this in perspective, think 
about the threats we face. First, a few advanced militaries 
have the ability to use cyber attacks to disrupt critical 
infrastructure and service. They have done the reconnaissance 
on critical infrastructure. They have planned how to do this.
    They will not launch a cyber attack because they are not 
going to start a war for no reason with the United States; they 
are deterred by our military. But if they ever did attack us, 
we are prepared to defend ourselves.
    Terrorists do not yet have the capability to launch cyber 
attacks, but groups like al-Qaeda in the Arabian Peninsula are 
seeking to acquire these capabilities. Perhaps more worrisome, 
Iran and North Korea are developing cyber attack capabilities. 
When these terrorist and rogue states can launch a cyber 
attack, they, too, will find that we are unprepared.
    Cyber espionage and cyber crime are daily occurrences in 
the United States, and they do long-term damage to our economy 
and to our global competitiveness. They also help set the stage 
for cyber attack. Some of our opponents use cyber criminals as 
mercenaries, as proxy forces. Our most advanced opponents in 
cyber crime and cyber espionage can overpower even the most 
technologically sophisticated U.S. company, and we have seen 
many examples of that.
    Agencies have made strenuous efforts, but we are not yet 
prepared to defend ourselves. There are three key issues that I 
call to the committee's attention, how to give Government a 
leading role in cybersecurity, how to ensure cybersecurity at 
critical infrastructure, something we cannot do now, and how to 
create international rules to reduce the risk of cyber crime 
and the risk of cyber war?
    These are all hard problems, but they are not impossible. 
CSIS' Cyber-Security Commission, which Congressman McCaul 
helped lead, has released two reports with recommendations. Our 
fundamental point, and this gets to the question about the 2003 
National strategy, our fundamental point is that the old 
approach doesn't work, and we need a new strategy that uses all 
the tools of American power, military, law enforcement, 
Homeland Security, partnership with the private sector. If we 
can come up with this new combined strategy, we will be able to 
do something effective to protect ourselves, but we are not 
there yet by any stretch of the imagination.
    With this, I thank the committee and look forward to your 
questions.
    [The statement of Mr. Lewis follows:]
                  Prepared Statement of James A. Lewis
                             March 16, 2010
    Chairman Lungren, Ranking Member Clarke, and Members of the 
committee. Let me begin by thanking you for this opportunity to testify 
on this important subject.
    Cybersecurity first came to the attention of the public in the mid-
1990s, some 15 years ago. The first major policy for cybersecurity, 
Presidential Decision Directive 63, appeared in 1998.
    In the intervening years, there has been much discussion and a few 
new ideas. We can get a sense of the state of cybersecurity and whether 
there has been any progress the United States by reviewing major 
cybersecurity events that have occurred since the start of 2010.
  <bullet> January 2010.--Google announced that an attack had 
        penetrated its networks, along with the networks of more than 
        80 other U.S. high-tech companies. The goal of the 
        penetrations, which Google ascribed to China, were to collect 
        technology, gain access to activist Gmail accounts and to 
        Google's password management system.
  <bullet> January 2010.--Intel Corporation also disclosed that it has 
        experienced a harmful cyber attack at the same time.
  <bullet> January 2010.--Global financial services firm Morgan Stanley 
        experienced a ``very sensitive'' break-in to its network by the 
        same hackers who attacked Google, according to leaked e-mails.
  <bullet> March 2010.--NATO and the European Union warned that the 
        number of successful cyber attacks against their networks have 
        increased significantly over the past 12 months.
  <bullet> March 2010.--Australian authorities say there were more than 
        200 attempts to hack into the networks of the legal defense 
        team for executives from Australian energy company Rio Tinto, 
        to gain inside information on the trial defense strategy.
  <bullet> April 2010.--Hackers break into classified systems at the 
        Indian Defence Ministry and Indian embassies around the world, 
        gaining access to Indian defense and armament planning.
  <bullet> May 2010.--A leaked memo from the Canadian Security and 
        Intelligence Service (CSIS) says, ``Compromises of computer and 
        combinations networks of the Government of Canada, Canadian 
        universities, private companies and individual customer 
        networks have increased substantially . . . In addition to 
        being virtually unattributable, these remotely operated attacks 
        offer a productive, secure, and low-risk means to conduct 
        espionage.''
  <bullet> October 2010.--Stuxnet, a complex piece of malware designed 
        to interfere with Siemens Industrial Control Systems discovered 
        in Iran, Indonesia, and elsewhere, results in significant 
        physical damage to the Iranian nuclear program.
  <bullet> October 2010.--The Wall Street Journal reports that hackers 
        using ``Zeus'' malware, available in cybercrime black markets 
        for about $1,200, were able to steal over $12 million from five 
        banks in the United States and United Kingdom.
  <bullet> December 2010.--British Foreign Minister William Hague 
        reported (in February 2011) attacks by a foreign power on the 
        U.K. Foreign Ministry, a defence contractor and ``other British 
        interests.'' The attack succeeded by pretending to come from 
        the White House.
  <bullet> January 2011.--The Canadian government reports a major cyber 
        intrusion involving the Defence Research and Development 
        Canada, a research agency for the Department of National 
        Defence, the Department of Finance, and the Treasury Board, 
        Canada's main economic agencies. The intrusions forced the 
        Finance Department and the Treasury Board, to disconnect from 
        the internet.
  <bullet> March 2011.--Hackers penetrate French government computer 
        networks in search of sensitive information on upcoming G-20 
        meetings.
  <bullet> March 2011.--The Republic of Korea said that foreign hackers 
        penetrated its defense networks in an attempt to steal 
        information on the U.S.-made Global Hawk unmanned aircraft, 
        provided to Korea as it considers whether to buy the UAV.
    Major corporations, financial firms, Government agencies, and 
allies have all been victims, and these are just the events we know 
about. There are of course many more incidents stretching back into the 
1990s, that include the loss of tens of thousands of pages of sensitive 
military information, market and exploration data worth millions from 
oil companies, the loss of valuable commercial technologies, and 
hundreds of millions of dollars from banks and other financial 
institutions. Classified military networks have been penetrated by 
foreign intelligence agencies. Best of all, from the perpetrators' 
perspective, no one has ever been punished for any of these actions.
    This is not a record of success. Whatever we are doing is not 
working. Since 1998, we have repeatedly tried a combination of 
information sharing, market-based approaches, public/private 
partnership and self-regulation in a vain effort to strengthen our 
cyber defenses. However, despite this dispiriting record of opponent 
success, I feel confident in predicting that this year, the old, failed 
formulas will be trotted out again this year. Many of the reports and 
essays we see emerging now will advocate tired ideas in order to block 
change rather than increase cybersecurity. While individual Government 
agencies have made strenuous efforts to improve our cyber defenses, as 
a Nation, despite all the talk, we are still not serious about 
cybersecurity.
    This is due to a reluctance to make the changes cybersecurity 
requires. People still advocate strategies and policies that appeared 
more than a decade ago and which have not worked. We have consistently 
underestimated the risks and damage from weak cybersecurity. Everyone 
is for better security, but there has always been some other objective 
that seemed more important.
    Cybersecurity is another of those situations in American history, 
ranging from Pearl Harbor to 9/11, where we knew there was risk and 
that we were unprepared, but assumed it would never happen because 
America is too powerful or too big to attack.
    Nothing has yet punctured this misplaced sense of invulnerability. 
America is still powerful, and it is easy to say that the sky is not 
falling and there is no need for haste. The effect of this over 
confidence is to make tolerable the slow erosion of our National power 
due to feeble cybersecurity. Some call it the ``death of a thousand 
cuts,'' where each tiny cut goes unnoticed by the victim. There are 
warning signs that even a Nation as rich and as powerful as the United 
States is at risk. The challenges to our financial system and the loss 
of manufacturing and innovative capabilities are subjects for another 
hearing, but weak cybersecurity exacerbates these problems. Business as 
usual means long-term decline as our economic and technological 
leadership is damaged by cyber espionage.
    There are also two sets of risk. One is immediate and real. Two of 
our potential military opponents have the capability to launch damaging 
cyber attacks against America's critical infrastructure. The Aurora 
test at the Idaho National Labs and the Stuxnet worm showed that cyber 
attacks can do physical damage. These opponents have carried out 
network reconnaissance against critical infrastructure to allow them to 
plan their attacks. The issue for this committee is that after 12 years 
of information sharing, public private partnership, and voluntary 
action, critical infrastructure in the United States is not ready for 
an attack.
    While these militaries have the capability to launch a damaging 
cyber attack, they are unlikely to do so short of an armed conflict. 
They are deterred by the threat of an American military response. Only 
if we were to get into a shooting war with them, over Taiwan or 
Estonia, could we expect to see cyber attacks. However, while we can 
deter military attack, our military strength does not deter espionage 
and crime in cyberspace. Deterrence not a solution for cybersecurity's 
most pressing problems.
    Cyber terrorism is still a distant threat, but it is a threat that 
is increasing. Terrorists lack the capability to launch cyber attacks. 
If they had this capability, they would have already used it. Our 
original emphasis on ``cyber terrorism'' was wrong. The day a terrorist 
group gets cyber attack capabilities, they will use them. At that 
moment, if we have not improved our cyber defenses, they will succeed 
in causing disruption and damage. It is concerning to note that a few 
terrorist groups have expressed interest in acquiring cyber attack 
capabilities--the most recent was al-Qaeda in the Arabian Peninsula 
(AQAP). This group is worrisome. They are inventive in using the 
internet for propaganda and organization, and they have said one of 
their goals is to disrupt the American economy--this was the alleged 
motive for their effort using printer cartridges in air shipments. We 
have some number of years--I hope--before AQAP or another group, or an 
irresponsible nation like North Korea or Iran, acquires cyber attack 
capabilities, because we will not be able to deter them from attacking 
and our defenses are inadequate.
    If there is one conclusion that we can draw from the long list of 
cyber incidents, it is that we are not prepared to defend ourselves. So 
we are vulnerable, but the risk of attack is low for the moment. As 
long as our opponents do not attack us, we are safe. This is not an 
ideal strategy for a superpower. Our current approach to cybersecurity 
leaves initiative and control to our opponents. It also is ineffective 
in stopping the slow but steady damage to our economy and to our 
National security that comes from cyber espionage.
    Remedying the situation will take a concerted effort, but we are 
far from consensus on how to proceed. We will hear that public-private 
partnership is essential, because the private sector owns 85% of 
critical infrastructure. The private sector owns 100% of the airlines 
in the United States as well, but no one uses this as an excuse to say 
we do not need an air force. We will hear that the internet must be 
protected because it is a source of innovation. Now, in other fora, it 
is common to hear that the United States is lagging behind in 
innovation, so it is fair to ask just how much the internet has helped. 
Innovation is a complex process and focusing on the internet as its 
source is probably wrong, perhaps a last left-over form the dot-com 
bubble. But the notion that ability to better protect intellectual 
property and proprietary business information will somehow hurt 
innovation is bound to reappear. We will hear that technology moves too 
fast for regulation, but this is true only if you try to write 
prescriptive regulations. It is an avoidable mistake. And there will be 
a call for incentives, as if paying for an inadequate defense will 
somehow make it better.
    No sector has a greater incentive than banks to protect their 
networks. They are a constant target. Some banks, particularly the top 
tier banks, have sophisticated defenses. Despite this, they are hacked. 
This is not surprising considering the thousand of probes they face 
each year, but even with all the incentives in the world and with a 
strong focus on cybersecurity that is matched in few other critical 
sectors, they cannot be secure. If the banks cannot protect themselves, 
why do we think other sectors will be able to do so?
    The business implications for spending on cybersecurity by private 
companies, especially critical infrastructure companies, are 
straightforward. Investing in increased cybersecurity requires them to 
spend on nonproductive assets. They will not get an increased return on 
investment from this spending. There is a notion that if we could only 
demonstrate the scope of the losses, companies would be incentivized to 
recalculate the business case for cybersecurity and spend more. This 
may not make sense for critical infrastructure. The bulk of the losses 
come from the theft of intellectual property from commercial research 
and manufacturing companies. Critical infrastructure companies are 
likely experience less loss of this kind of data. The risk they face is 
the potential for service disruption, but before the disruption occurs, 
the cost may be so low as to be unnoticeable.
    Additionally, it is likely that some industry sectors are more 
important than others for cybersecurity. Opponents may consider the 
defense, high-tech, or energy sectors as higher-value targets for 
economic espionage. Electrical and telephone grids may be high-value 
targets for critical infrastructure attacks, as disrupting them could 
have cascading effects through the economy. The financial sector may be 
particularly attractive as it is both a critical infrastructure--stop 
the flow of money and you trigger immense disruption--and attractive as 
a target for crime. There are indications that the financial sector and 
the electrical grid face increasing risk because of heightened opponent 
interest (whether State or criminal) in these sectors as targets.
    This has implications for a National resiliency strategy. Without 
external incentives, companies will be unwilling to invest in redundant 
infrastructure to provide resilience. On the other hand, providing 
incentives without also being able to enforce compliance means at best, 
we will get a very uneven level of implementation and continued 
vulnerability. Incentives only make sense if increased authority for 
the Department of Homeland Security (DHS) accompanies them. Incentives 
by themselves are a give-away without benefit to security.
    Incentives will not solve the problem of our reliance on a 
disaggregated, point cyber defense, where each network or user is 
responsible for their own defense. This is the worst possible defense 
against a skilled opponent. Every company is on its own, and they can 
be picked off one by one. Providing incentives without being able to 
coordinate our cyber defenses and ensure a common level of performance 
is not an improvement.
    Voluntary action is also not enough. Is there a more sophisticated 
technology company than Google? Google has unparalleled skills and 
resources. The same is true for Intel, Adobe, Microsoft, and the many 
other companies that have allegedly been hacked. Voluntary action by 
even the most sophisticated tech companies is inadequate. The reason 
for this is simple. Pros always beat amateurs. We are asking 
corporations to take on the most powerful military and intelligence 
agencies in the world, agencies that do not observe our laws and that 
do not like us. It is no contest. It is like sending the company 
softball team against the Giants or the Yankees. Voluntary action by 
itself will always be inadequate against dangerous foreign opponents.
    Efforts to secure the Smart Grid are a good example of the problems 
with a voluntary approach. Security standards published by the National 
Institute for Standards and Technology in August 2010 were developed by 
a consensus process that included 475 participants from the private 
sector participants. A consensus process involving 475 people is itself 
problematic. This is why the founders wisely opted for majority rule in 
the Constitution. A report by the General Accountability Office from 
January 2011 found that since these consensus standards are voluntary, 
there is no way to enforce them or even know if companies are following 
them. Perhaps unsurprisingly, the GAO also found that critical smart 
grid elements ``do not have adequate security built in, thus increasing 
their vulnerability to attack.''\1\
---------------------------------------------------------------------------
    \1\ GAO, Electricity Grid Modernization (http://www.gao.gov/
new.items/d11117.pdf).
---------------------------------------------------------------------------
    Voluntary action has not worked, but some argue it deserves another 
chance and that we should pay companies to put better cybersecurity in 
place, using incentives, but that we should also not tell them what to 
do. This is a recipe for disaster. There is no other area of National 
security were we rely on voluntary action reinforced by incentives. A 
policy of voluntary efforts for better cybersecurity reinforced by 
incentives is not a serious effort to protect National security against 
real damage and a growing threat. These proposals are best seen as 
intended to block reform rather than to promote cybersecurity.
    Information sharing is a more difficult problem. No single agency 
or company knows the full range of threats we face in cyberspace. The 
National Security Agency, Cyber Command, and DHS have part of the 
puzzle, the big telecom companies have another part, the antivirus 
companies and big internet service providers another. If we could put 
these parts together, our ability to protect the Nation would be 
significantly improved. Perhaps 20 or 30 companies and two or three 
agencies would need to share information and be partners in a National 
defense. This would be a public-private partnership that could make a 
difference.
    And of course, it is impossible do to this in the United States. 
Our laws and our policies block the one area where we could have 
meaningful public private partnership and information sharing that 
could make a difference. Some of the very organizations that stoutly 
proclaim the need for public-private partnership also object to 
meaningful information sharing, the one area where public-private 
partnership makes sense.
    After 12 years of experience, we can now say with confidence that a 
voluntary approach to cybersecurity based on public-private partnership 
and information sharing is inadequate to defend America. These are 
elements of a comprehensive defense, but by themselves they are not 
enough. They must be reinforced by an active defense that uses our 
military and intelligence assets, by flexible regulation of critical 
infrastructures and internet service providers, by a strong diplomatic 
effort to extend the rule of law into cyberspace, and by expanding law 
enforcement cooperation in every country to which we are connected.
    In December 2008, CSIS issued a report by its Commission on 
Cybersecurity for the 44th Presidency that laid out a number of 
recommendations for a comprehensive National approach to 
cybersecurity.\2\ While the report was well received, the 
implementation of the recommendation has been slow. In February 2011, 
the Commission issued a second, final report \3\ that assessed where 
progress still needs to be made. We identified ten key areas and listed 
the tangible steps that need to be taken. The most important of these 
were the need for coherent Federal leadership, clear authority to 
mandate better cybersecurity in critical infrastructure, and a foreign 
policy that used both military and diplomatic tools to bring the rule 
of law to cyberspace.
---------------------------------------------------------------------------
    \2\ http://csis.org/files/media/csis/pubs/
081208_securingcyberspace_44.pdf.
    \3\ http://csis.org/files/publication/
110128_Lewis_CybersecurityTwoYearsLater_Web.pdf.
---------------------------------------------------------------------------
    These are crucial areas for improvement, but each raises 
significant issues for the upcoming legislative debate. One issue is 
whether DHS or at the White House should lead cybersecurity efforts. In 
this case, there is not simple answer. DHS is best placed, working with 
the Department of Defense and the National Institute of Standards and 
Technology (NIST), to develop standards and regulations. DHS is best 
placed to work with first-party regulators--FERC, FCC, FFIEC, and 
others--to ensure compliance. On the other hand, the White House is 
best placed to develop a National strategy, to coordinate military, 
intelligence, law enforcement, and diplomatic activities, and to 
provide Executive branch oversight and guidance for cybersecurity 
activities and for privacy protection.
    The first CSIS report discussed a new, flexible approach to 
regulation that gave the private sector a greater role in designing the 
rules while leaving enforcement to the Federal Government. Now, it is 
quite true that regulation done badly can be very damaging. There are 
countless example of that kind of prescriptive overregulation and 
finding ways to streamline regulation is an essential task for America. 
It is also true that no regulation leads to disaster. Even the 
strongest proponents of deregulation do not call for the elimination of 
the Federal Aviation Authority. All the airlines mean well and do their 
best, but we do not feel comfortable leaving air safety to voluntary 
action because lives are at stake. We do not feel comfortable saying to 
companies, you make the decision on whether to sell nuclear or missile 
technology to a foreign customer. We regulate them. Public safety and 
National security require it. Regulation is unpleasant, but in some 
cases, the alternative is worse. Cybersecurity is one such case. The 
approach proposed in draft legislation, which is based on the Chemical 
Facilities Anti-Terrorism Standards found in the Homeland Security Act, 
offers a reasonable approach to better cybersecurity.
    Precedents for a new approach can be found in recent changes to the 
implementation of the Federal Information Systems Management Act 
Reporting Guidelines or in the Consensus Audit Guidelines developed by 
a consortium of Federal agencies including NSA and private 
organizations. These guidelines identify technical security controls 
that are effective in blocking high-priority attacks. They show that is 
possible to identify practices that improve cybersecurity and measure 
their effectiveness, since technology does not change too fast. I 
recently spoke to the Deputy Chief Information Officer of an agency 
that had implemented the guidelines--this was an agency that suffered 
major losses to hacking a few years ago--and he said the improvement in 
their defenses has been dramatic. I asked if the Guidelines are not 
getting out of date, as they are 2 years old, and he replied that not 
only are they are still effective, that implementing the first four 
guidelines stops most of the attacks. It is now possible to identify 
effective practices and continuously measure how well they work--if 
they are implemented.
    A comprehensive strategy that coordinates military, intelligence, 
law enforcement, and diplomatic activities is essential for securing a 
global network. Reducing cyber crime will require a strategic, 
National-level approach that uses law enforcement, intelligence, and 
diplomacy. The most sophisticated cyber criminals live overseas, in 
countries that do not cooperate with U.S. law enforcement. The problem 
is complicated by the fact that a few countries tolerate and even 
encourage cyber criminals. They use them as proxies, as irregular 
forces to carry out operations for the Government. The provide 
resources and sometimes training. It will not be an easy task to get 
these countries to stop cybercrime, and there is little that the 
private sector can do.
    Limitations on the use of our military and intelligence 
capabilities continue to weaken cybersecurity in the United States. A 
case from last year shows the situation. We are told that a leading 
American bank had its networks penetrated by Russian hackers. The 
hackers extracted millions of dollars. The bank, of course, said 
nothing publicly. But while the crime was in progress, it was detected 
by an American intelligence agency. As an intelligence agency with no 
domestic authority, there was nothing it could do other than relay the 
information to law enforcement agencies, a cumbersome process under 
today's laws. By the time this was done, the crime was over. Active 
defense would have let the intelligence agency detect the incoming 
attack on the internet backbone, on the borders of America's National 
networks, and stop it. Active defense could be structured to operate 
like NORAD, where the Air Force protects our skies, by focusing on 
foreign threats. It is not perfect, but it works and other nations are 
deploying this kind of defense against foreign attacks.
    Active defense is the future of cybersecurity. It raises two key 
issues, the first being the need for additional privacy safeguards and 
oversight and the second being the division of responsibility between 
DHS and DOD. Stronger cybersecurity probably requires a new approach to 
privacy and a strengthening of existing oversight mechanisms. To give 
two examples, the Privacy and Civil Liberties Oversight Board, PCLOB, 
does not have cybersecurity in its legislative charter, nor is there 
Executive branch guidance (along the lines of Executive Order 12333, 
which governs intelligence activities) for agencies in how to perform 
their cybersecurity missions. Both of these reflect the need to adjust 
our laws and regulations to the new cyber environment.
    DHS and DOD both have important and potentially complementary roles 
to play in cybersecurity. DHS is best placed to work with critical 
infrastructure and to ensure domestic preparedness. Only DOD has the 
capability to respond to foreign opponents. There are still 
coordination issues that need to be worked through, and some of these 
issues will be resolved only when the White House has a stronger role 
in cybersecurity, but the recently signed Memorandum of Understanding 
signed between Secretaries Napolitano and Gates is an important first 
step in building a coordinated defense.
    The problem of international engagement is challenging, in part 
because for years the United States believed that cyberspace would be 
some kind of self-governing utopia. As the security situation worsened, 
as cyberspace became a new domain for conflict, and as the political 
implications of the new technologies became apparent, other nations 
have decided to extend government control into cyberspace. This trend 
is irreversible. The United States must engage with these nations in 
order to influence, if not lead, this restructuring of cyberspace 
governance, in order to ensure that the political values we cherish--
openness, global connectivity, and freedom of speech--continue to guide 
development of the global network. Thinking on how to do this is at a 
very early stage. New kinds of expertise are required and there are 
only a handful of people with relevant experience. The State Department 
has just created a new cyber coordinator position and with the right 
support form Congress, this could allow the United States to regain 
international influence.
    These are complicated issues and the account above is necessarily 
summary. They receive more detailed treatment in the CSIS reports. 
However, in drafting the final report, we found that as the prospect 
for change increases, so will resistance to it. People are wedded to 
old ideas, even if they do not work. New kinds of expertise are 
required for understanding cybersecurity. Above all, many still place 
some other priority above securing our Nation's networks.
    It is this last point that worries me the most. When we look at 
nations that have fallen on hard times, losing their power and their 
international standing, very often it was because of internal problems. 
Often, the leaders of these countries knew what the problems were. They 
even knew what the solutions were, but their beliefs and reliance on 
old approaches kept them from making the needed changes. So far, this 
has been the case with cybersecurity in America. We are in a new world 
and face new problems that old ideas will not solve, but it is hard to 
give them up. Better cybersecurity is possible, but not if we continue 
to use failed approaches.
    This puts a great responsibility on Congress and the White House. 
We have a real opportunity in the next 2 years to improve our cyber 
defense. Doing this will require leaving old ideas behind, even though 
many will still advocate them, and moving to a new, comprehensive 
approach to cybersecurity that treats it as a major component of 
National defense and homeland security. I thank the committee for the 
opportunity to testify and will be happy to take any questions.

    Mr. Lungren. Ms. Kwon.

 STATEMENT OF MISCHEL KWON, PRESIDENT, MISCHEL KWON ASSOCIATES

    Ms. Kwon. Thank you.
    Good morning, Chairman Lungren, Ranking Member Clarke, and 
other distinguished Members of the subcommittee.
    My name is Mischel Kwon, and I am the president of Mischel 
Kwon and Associates, LLC, a consulting firm specializing in 
technical defense security, security operations, and 
information assurance.
    It is interesting to look at the changes and advances and 
struggles of IT over the 30 years of my experience. If we look 
out into the future, if I were to be testifying before this 
committee in 10 years, I predict a very different situation. No 
longer will governments or car manufacturers or hospitals or 
electric power companies be in the business of IT.
    None of these organizations will have large data centers 
and infrastructures, e-mail servers, or application 
programmers. Instead, we will have IT providers, just as we 
have power providers and health care providers.
    The cloud today is the first move to this new paradigm. 
This movement is our opportunity to fix many of the problems 
that rapid individualized IT growth has caused. We have the 
opportunity to build security in, to fix the IT refresh 
problem, to enable innovative technology, and to collapse the 
IT community, allowing better collaboration, communication, and 
sharing.
    In looking to the future, it is important to recognize 
where we have been successful and where we are stuck. We must 
look at where IT is going in the next 10 years and prioritize 
what we are working on so that we are addressing the issues 
head on.
    We have had significant progress over the 10 years in 
heightening the importance of securing our IT systems and 
infrastructures. We now understand the importance of policy, 
process, technology, and detection.
    We clearly understand the need for information sharing. We 
now also realize we are all in the same infrastructure, the 
internet, and that the idea of sharing infrastructure is the 
wave of future.
    Much-needed progress is being made in the modernization of 
FISMA, understanding the need for continuous monitoring and 
cyber scope that will enable the departments and agencies to 
have a real understanding of the health and well-being of the 
systems and networks supporting the Federal missions.
    It is critical that as we move into this era of the cloud 
that we are careful not to create home-grown solutions but rely 
on the private sector and the COTS, commercial off-the-shelf 
products, that can accomplish the requirements needed.
    Difficulties have challenged us in security governance, 
authorities, and information sharing. Many of these issues have 
been complicated because we are trying to solve the policy 
issues and the operational issues at the same time.
    I do believe good efforts by good people with good 
intentions have been made at the Department of Homeland 
Security and across the U.S. Federal Government.
    Today, many of the impediments in Federal Government that 
slow down efforts to improve cybersecurity are caused by a lack 
of clear governance structure, clear defined mission spaces, 
and the authorities and budgets to successfully accomplish 
those missions and understanding where collaboration is needed.
    I do believe DHS has a primary role in cyber. Though I have 
not always thought DHS could handle the important and broad 
mission of cyber because of the maturation level of this young 
agency, I do believe the operational mission of US-CERT belongs 
to DHS, but as an autonomous, operational component, similar to 
FEMA, with direct reporting capabilities to the Secretary.
    I believe the mission of US-CERT must be more clearly 
defined to enable it to be successful. It must be enabled to 
succeed in the important operational mission and firewalled 
away from the struggles of policy and relationship development. 
The appropriate authorities must be given to US-CERT to allow 
it to carry out the assigned mission.
    Effective and actionable information sharing and a public-
private partnership is essential for cyber today and for the 
future. We have made significant progress over the years but 
now seem to be in a holding pattern, struggling with 
procurement and legal issues that have frozen progress.
    As we move to the new model of IT and the cloud, we will 
need to take two steps: One to understand how we can 
technologically share information more efficiently; and two, 
how the private sector can take a leadership role, possibly 
through a non-profit organization, to help free us from the 
holding pattern from both sides.
    We are moving rapidly to the new world in IT, a new world 
in cyber with many opportunities. We must be prepared with a 
strong, well-defined operational US-CERT that has the autonomy, 
authority, budget to be successful in protecting the Federal-
civilian space. We must defend the shared space together with 
the ability to share information through a healthy, public-
private partnership.
    Thank you very much for the opportunity to testify.
    [The statement of Ms. Kwon follows:]
                   Prepared Statement of Mischel Kwon
                             March 16, 2011
    Good morning Chairman Lungren, Ranking Member Clarke, and other 
distinguished Members of the subcommittee. Thank you for the 
opportunity to testify before the Subcommittee for Cybersecurity, 
Infrastructure Protection, and Security Technologies.
    My name is Mischel Kwon and I am the President of Mischel Kwon and 
Associates, LLC, a consulting firm specializing in Technical Defensive 
Security, Security Operations and Information Assurance.
    Previously I served as the Director of the United States Computer 
Emergency Readiness Team (US-CERT) at the Department of Homeland 
Security (DHS), and as the Deputy Chief Information Security Officer 
and Director of the Justice Security Operations Center at the 
Department of Justice. Most recently I was the Vice President of Public 
Sector Security Solutions for RSA, the Security Division of EMC 
Corporation. I received my Bachelor of Science and Master of Science 
from Marymount University and a Master Certificate in Information 
Assurance from George Washington University. I was a Cyber Corps 
Scholar. In the nearly 30 years of my career to date as an IT 
professional I have been a programmer, systems developer, network 
engineer, program manager, and security professional.
    Over the past 10 years the U.S. Federal Government has been 
struggling, learning, and discovering what to do about ``cyber''. We 
have been moving on a continuum that started with the discovery of 
adversaries in our networks, has found us struggling with how to manage 
our systems through the Federal Information Security and Management Act 
(FISMA) and compliance, how to identify threats, attacks, 
vulnerabilities, and how to work together to defend our networks. As we 
move forward in a constantly evolving world of technology, life as we 
know it is changing rapidly. Soon, most companies, even Government 
departments and agencies, will no longer have data centers or continue 
to own or manage their own e-mail servers, applications, or desktops.
    The use of virtualized IT infrastructure is the future. 
Virtualization, as the foundation of cloud computing infrastructure 
will enable the ``Cloud'' to be the provider of most IT services. You 
may say this is jumping ahead, but we must look at the answers to the 
questions you are asking with the near-term future in mind, and the 
near-term future is now--as many departments and agencies are already 
moving applications such as e-mail to the cloud, many are building 
private clouds, and many private sector companies are rapidly moving to 
the cloud. This is not only an innovative solution to a much-needed 
technology refresh in the civil government space, but if done 
correctly, could be the answer to information sharing, infrastructure-
based defensive security, the cyber talent pool shortage and guaranteed 
life-cycle management of our infrastructure resources. No longer will 
companies or departments and agencies with missions different than 
Information Technology need to be in the ``IT'' business. No longer 
will we need to educate the heads of these organizations and have them 
making IT risk decisions outside of the scope of their knowledge base. 
We will deliver the requirements to the vendors; the vendors will then 
supply the appropriate infrastructure and services, with security built 
right into the technologies and the offerings.
    This brings us to a critical crossroads in the continuum of 
cybersecurity. Not only are we at the point where we realize the need 
for governance, leadership, and cooperation between the Government and 
private sector in order to have a chance at combating the adversaries 
in an efficient manner, but we also are now at the part of the 
continuum where the responsibility of protecting our assets processed 
on IT systems--whether it is data or an operational function--will be 
the responsibility of the private sector infrastructure providers. This 
point was driven home during the initial phases of the Comprehensive 
National Cybersecurity Initiative (CNCI) when the Federal Government 
realized just how much of the internet is private sector-owned and -
operated, and that even if we do better at securing Federal systems, we 
can't improve our Nation's cybersecurity posture without improvements 
in the private sector in partnership with industry. As we continue to 
move infrastructure and services to the ``cloud'', effective and 
lasting partnerships with the private sector must be fully embraced and 
leveraged.
    Understanding the Information Technology roadmap that we are all 
moving rapidly on also increases the importance of enhancing the 
governance, authorities, and relationships that the Federal Government 
has between and among the civilian departments and agencies, the 
homeland security and law enforcement communities, the defense and 
intelligence community and of course, the private sector.
    As I move into the portion of my testimony where I will be 
identifying obstacles and problems I have encountered during my Federal 
Government service, there are a few caveats and points I would like to 
make clear. First of all, cyber is a new field. At most, we can say 
this is a 25-30-year-old industry. We must understand this is going to 
take some time to mature. We will and have encountered issues, we will 
learn of new problems . . . but we must work together to overcome these 
challenges, quickly and effectively. Second, the Department of Homeland 
Security (DHS) is a new Department and because of that it struggles 
with the fundamental daily functions of being a Department from 
procurement and budgets to hiring and operations. DHS is going to take 
some time to develop the processes, policies, and procedures needed to 
run smoothly and efficiently. It will not happen overnight and will not 
occur without specific actions and programs to improve the baseline 
operations. In addition, DHS has a very broad set of missions and 
duties. Cybersecurity often takes a back seat to physical threats and 
natural disasters in the daily and weekly grind of the Department. 
Congress should do more to enable the cybersecurity components in the 
Department to operate more effectively and independently without 
getting bogged down in other DHS mission spaces, allowing cyber to 
effectively operate as an independent component; allowing cyber to 
separate itself from the quagmire of internal politics and jostling for 
resources and mindshare. Third, there are a lot of really good people 
who have worked this problem in the past and are working on 
cybersecurity challenges today. As we point out the weaknesses and 
problems, we must be cautious of tying the hands of dedicated security 
professionals who are currently doing battle on a daily basis 
(unfortunately not just with adversaries in cyberspace, but with the 
bureaucracy within DHS). We cannot afford to forget these people. We 
need these qualified individuals in this young and growing field. They 
make sacrifices with their families, careers, and personal sanity to 
serve our country in trying to fix these problems. We should take the 
time to remember their service and take care not to diminish their 
contributions as we examine and address cybersecurity challenges in 
both the public and private sector.
    During my tenure at US-CERT, we were at the very early stages of 
developing critical relationships with Federal civilian departments and 
agencies as well as relationships with the homeland security, law 
enforcement, defense and intelligence communities, and the private 
sector. It was clear there was a lack of governance and lack of 
authorities to carry out the poorly-defined mission US-CERT set out to 
accomplish. To examine this problem it is critical to break down the 
US-CERT mission into: (1) Protecting the Federal civilian departments 
and agencies, and (2) coordinating and collaborating with the private 
sector.
    Governance over IT in the Federal space has been an issue for many 
years and to date has not been solved. FISMA, which was enacted in late 
2002, was a start in attempting to set up roles and responsibilities, 
including defining the roles of Federal CIOs and CISOs enabling 
security structures to be built in Federal Executive branch departments 
and agencies, as well as establishing reporting process for incidents 
to US-CERT. This all being said, there were overarching and important 
components of a success risk management strategy that have been 
missing. As it stands today, the only requirement a Federal department 
or agency has is to report the incident to US-CERT in the dictated time 
frame based upon incident categorization using a 20-year-old taxonomy 
that no longer describes the types of attacks that organizations are 
experiencing. This creates inaccurate metrics, and little to no real 
data on the actual attacks that are occurring in the Federal civil 
space. US-CERT does not have the authority to require the departments 
or agencies to share detailed information, or follow any specific 
instructions. Departments and agencies interpret their reporting 
requirements differently and therefore each reports incidents using 
different definitions and methodologies. When I was the Director of US-
CERT if we needed Federal departments and agencies to follow specific 
instructions, we would have to have the Office of Management and Budget 
(OMB) require them to follow the instructions. Despite even OMB 
guidance, the cooperation from Federal civilian agencies was 
consistently on the low end.
    Because many of the existing IT systems are owned and operated by 
Federal departments and agencies, there is no existing direct authority 
for DHS to require cooperation with US-CERT. This being said, it should 
also be understood that some of the departments and agencies have more 
sophisticated operations than US-CERT. The security operations centers 
at State Department, Department of Justice, the Federal Aviation 
Administration have a much higher technical monitoring and response 
capability than US-CERT. In order for US-CERT to accomplish the mission 
of protecting the Federal civilian agencies and departments day in and 
day out, US-CERT must be empowered and its capabilities must continue 
to be developed. It must have a clearly defined mission, authority, and 
budget. It must have tools. These tools must be determined by what will 
support the mission, not be tied to legacy systems, management, or 
contractors. This must be a collaborative mission between US-CERT and 
the departments and agencies. A ``dictatorship'' is not what is needed. 
Collaboration and cooperation will enable the road to success. Even 
more important is to clearly define US-CERT's role and the authorities 
the organization and Director carry. Developing a ``council'' of 
Federal department and agency Security Operations Center Directors and 
the Director of US-CERT to help guide this mission makes sense in order 
to ensure the mission of US-CERT stays on track, serves its Government 
customers, and has a focused and effective mission strategy.
    Today US-CERT is buried too deep within DHS. To even confuse the 
issue more, US-CERT is a part of the National Cybersecurity and 
Communications Integration Center. Instead of integrating the NCC into 
US-CERT, yet another functional area has been opened, creating and 
compounding the confusion. US-CERT must be given autonomy to allow it 
to function as a successful operational entity--not laden in the 
political quagmire of DHS, NPPD, CS&C, NCSD. In my view, in order to be 
successful, US-CERT should be removed from the National Cybersecurity 
Division (NCSD) and treated as a component organization similar to 
FEMA. It should have its own budget that is not constantly diluted by 
other, projects, programs and internal politics in NPPD, CS&C and NCSD. 
US-CERT should have a clearly defined mission with attainable goals and 
the autonomy to succeed in this operational mission. Yes, operational. 
This is a roll up your sleeves and respond mission. This mission cannot 
be performed anywhere else in the Federal civilian government . . . the 
White House cannot carry out an operational function, the DoD cannot 
perform an operational function of this nature domestically based on 
the Constitution, and no other department or agency has the overarching 
mission that allows for both emergency response and homeland 
protection. DHS makes functional sense; US-CERT must be empowered to 
fulfill its operational mission. As it stands today, US-CERT is 
constantly caught up in political priorities and much time is spent 
thrashing around, attempting to service too many projects and 
stakeholders. A clear governance process in the Federal space, a 
clearly defined mission and the authorities to support that mission, a 
budget to carry out this operational mission, as well as autonomy to 
operationally perform the operational duties are the steps to US-CERT 
having the capability to make a difference in supporting the 
departments and agencies as a part of DHS.
    US-CERT's other mission is to coordinate and collaborate with the 
private sector--specifically with critical infrastructure owners and 
operators--is equally as important. Again, great mission, but rarely 
accomplished. The work is often clouded by poorly defined expectations 
and internal politics. US-CERT has absolutely no authority within 
critical infrastructure that is owned or operated by the private 
sector--nor should it. The Federal Government has no claims or 
authority over privately held companies. Even in some of the current 
draft legislation in both the House and Senate, participation in 
Government-led cyber activities is by invitation only. Today's private-
public partnership efforts are bogged down with the same rhetoric, 
politics, and legal barriers of the past 20 years. I will say that 
presently US-CERT does little of the coordination. This is done 
primarily through NCSD. Most of the communications is done by the 
CSCSWG (Cross Sector Cybersecurity Working Group, a working group of 
the ISACs) and most of the members are not actual security 
professionals running security organizations, but a confusing mix of IT 
and communications companies with individual company-focused agendas 
and little or no focus on the operational agenda. An operational unit 
like US-CERT must be firewalled away from this kind of dysfunction to 
allow it to concentrate on the operation response mission.
    The relationship between US-CERT and the private sector must be a 
focused and well-defined mission. Prioritizing work with the 
infrastructure providers--not individual IT product vendors--such as 
ISPs, web hosting and caching, cloud providers and IT infrastructure 
providers--to enable the focus on the operational response mission. I 
understand the entire private sector IT and communications sector wants 
to participate in future policy creation, but that function must not be 
mixed with the operational mission US-CERT must succeed in.
    So far, I haven't painted a very pretty picture of what is going on 
at DHS in regards to cyber, but I want to re-iterate that I do believe 
DHS is the right place for cyber. I also believe changes need to be 
made in order for DHS to have a successful cyber mission. Giving US-
CERT the autonomy to embrace a well-defined operational response 
mission (both with the departments and agencies as well as with 
critical private sector players), with a budget and capabilities to 
execute on the mission, and authorities to enable them to execute on 
the mission is a very important step to success.
    Creating a successful public-private partnership to help secure 
cyber space is yet another mission that must be addressed. I think we 
need to approach this problem from a different direction. We must not 
look at it as a ``cyber space'' problem. That mission space is far too 
broad. We must look at this problem in digestible pieces. Internet 
infrastructure: Internet Service Providers, Cloud Providers, Web 
Providers and Information Infrastructure Providers. Separate this from 
the ``cyber war'' issue, separate this from the policy and legislative 
issues. Move these layers away from the operational mission of US-CERT. 
Take on the protect the infrastructure problem first. Work on the 
information sharing problem with an operational lens. I truly believe a 
technical solution must come in order to break the stalemate we find 
ourselves in with regards to cooperation and information sharing. The 
stalemate is centered on procurement, legal, privacy and proprietary 
information issues. We must determine a technical function for 
anonymously exchanging information. In addition, we must start 
articulating the problem with the same vernacular. We must spend time 
redefining the taxonomy and vernacular we use to work the cyber 
problem. We must do this in order to establish meaningful metrics, 
solutions, and focused solutions to the problem.
    The ancient category one through eight taxonomy, where 99% of all 
incidents are categorized as category three ``malware''--is useless in 
the world of complex attacks and sophisticated adversaries. I do 
believe this will become easier as we move on our continuum to the 
cloud. I believe as it becomes a more defined industry and who actually 
runs the ``IT infrastructures'' (i.e. clouds) becomes more defined, 
information sharing will become better as a function of how many 
entities must actually participate in the defense of IT as a whole. It 
must be understood that a public-private relationship is a two-way 
street. Often the Government is left holding the bag of failure when it 
comes to this relationship. The burden here is not and should not be 
solely on the Government. We all have critical information that, if 
shared, would help the community as a whole. In the near future, the 
Government will be squarely in the customer role as we move on the IT 
continuum to the Cloud. We must look at how the Government and private 
sector can shape a healthy relationship. I am a firm believer that the 
private sector needs a private non-profit entity that would facilitate 
the relationships of the many privately held IT companies. This non-
profit entity would facilitate the information sharing both on the 
private side as well as a focused conduit for information sharing with 
the Government. I do not see this as an inherent Government-only role. 
I clearly understand there is a National defense role for the 
Government in times of war, but we need to clearly define what that 
means in terms of cyber, and yes that is clearly a DoD role--not a 
civil Government role.
    This being said, I do see technology developments that will remove 
the legal and privacy issues around information sharing. We must 
technologically come to a place where we can exchange information on a 
technical level about threats, attacks, and mitigations without 
disclosing information about the entity or entities involved. We must 
focus as a community--not as a Government--on moving this solution 
track along. We must be mindful of the circular rhetoric trap we get 
caught in when we hear the words--public-private partnership--and 
realize the actual work that needs to happen to accomplish the goal--
defending our IT assets and missions. The work that needs to be done is 
to create technical processes, overcome procurement and legal issues. 
This must be done as a community, lead by the private sector. The 
Government's participation should be as a member of the community.
    In conclusion, I do believe DHS has a primary role in cyber. Though 
I have not always thought DHS could handle the important mission 
because of its maturation level, I do believe the operational mission 
of US-CERT belongs in DHS--but as an autonomous operational component 
with direct reporting capabilities to the Secretary. I believe the 
mission of US-CERT must be more clearly defined to enable it to be 
successful. The appropriate authorities must be given to US-CERT to 
allow it to function. Public-private partnerships need to be rescued 
from the circling drain of rhetoric and lead by the private sector with 
Government participation.
    We are moving rapidly to a new world--we must clear our plates of 
the static yada yada of stale circular discussions, identify the 
operational function and technical solutions. Empower US-CERT to 
succeed. Empower the private sector to lead. Empower the Government to 
participate.
    Thank you for this opportunity to testify. I would be happy to 
answer any questions you may have at this time.

    Mr. Lungren. I thank you all for your testimony.
    I thank you all for being cognizant of our time limits, and 
I appreciate that.
    Dr. Schneck, how do we solve this problem of stronger 
protections for sharing information from the private sector to 
the Government? The reason I say that is, you have members of 
the public who are naturally suspicious or skeptical of the 
Government working with the private sector and not protecting 
the individual rights of consumers and so forth.
    If I am a credit card holder and all of a sudden, I find 
that my credit card has been cancelled through no action of my 
own, which happened one time when I tried to present it at a 
restaurant, and then 2 days later, after we called one of the 
major credit--that night when we tried to call them--well, 
first of all, my wife went on the internet to find out what our 
account was, and our account was gone. Then they told us, well, 
they would send us a card in a couple of days. Now, obviously 
there had been some sort of a loss of security within their 
operation, but they didn't tell me what it was all about.
    I suppose, so long as I didn't suffer anything beyond 
that--however, if I had been traveling in the middle of the 
country and only had one credit card, I would have been in real 
trouble. But they obviously didn't want to share with me 
whatever that was; they believe that they took care of it 
internally.
    But members of the public might be a little skeptical if 
there is this broad protection that no matter what the company 
involved with that information did, as long as they shared it 
with the Government, they were protected from any liability, on 
the one hand.
    On the other hand, we want companies to come forward with 
information about how there has been an intrusion. We want that 
shared.
    Where do we strike that balance? How do we strike that 
balance from your point of view?
    Ms. Schneck. So, thank you, Chairman Lungren, I will start 
out by saying I am not a lawyer. I surround myself with a lot 
and actually find it fun.
    Mr. Lungren. Well, we have an abundance of lawyers here, so 
we need some help.
    Ms. Schneck. So, first, on the note of your lost account, 
it likely is somewhere in Romania, and we can help with that 
later.
    The issue is difficult at best from what we see. You said 
the word that I would choose, and that is balance. So, first 
and foremost, we are not talking about sharing any kind of PII 
or private information.
    This type of data looks at volumes of traffic, malicious 
code, malicious code that we can say, at a human level and at a 
machine level for a lot of math, looks the same for a variety 
of parameters. One might be an encryption algorithm that is not 
commonly used, but, look, it is used here and it was used here 
on the other side of the planet within the same 2 hours from 
machines that have the same pattern of sending traffic.
    That is the kind of data that our analysts and we call our 
colleagues within the sector and across the critical 
infrastructure sectors, and we reach out to the US-CERT. We 
reach out to the FBI National Cyber Investigative Joint Task 
Force with this kind of data of, and then it builds into a much 
bigger picture.
    The analogy I would use is from my days working as an 
intern in a weather lab. If you see a lot of cold air above a 
lot of hot air with wind direction in the opposite waves at 
certain levels from the altitudes and then an air pressure that 
is fairly low over a large region, any one of those things 
could mean just a little storm. But if you put those together, 
and you have a tornado, high probability.
    What we want to share is not the air temperature in every 
county; what we want to share is the people that need to leave 
their homes, and we need to be able to do that more quickly. So 
there is a big picture that we draw.
    The problem is when you share out that big picture, such as 
XYZ is happening in this sector, are we endangering the 
companies in those sectors that we have already protected, both 
electronically as well as informing the humans in those 
companies, do we risk them having material shareholder issues? 
This is such a new area for policy. That is the problem.
    Mr. Lungren. Well, I would love to work with you and any 
lawyers that you might run into on that, because I do think 
that we have to have a greater accessibility of information in 
both directions, and sometimes liability issues will interfere.
    Let me ask you this. You used a great analogy, you said 
vaccination doesn't work any more. Golly, I have McAfee on my 
computer, and I thought I had vaccinated myself against 
intrusions. Now you are telling me that my attempt at 
vaccinating myself, my computer system, isn't enough?
    Ms. Schneck. First of all, any security provider that says 
you are 100 percent safe, I would get rid of them.
    Mr. Lungren. Well, McAfee has never told me that.
    Ms. Schneck. All right. So, second, you are vaccinated 
against everything that we in the community know about.
    The problem is the bad guy creates this code that changes 
itself, just like the flu mutates, so we worry about the new 
vaccine, in case your body can't deal with the mutation of the 
disease and you get sick anyway.
    What you are protected by with McAfee is the view of the 
whole world now, so not just what we know about but what we are 
seeing happening right now. Believe it or not, you are able to 
be protected against something that might have been developed 
on the other side of the planet that comes in with a risk score 
so high it may not have a name, but you are going to block it.
    That is the new paradigm we need, and it is not just our 
data. We need the ability to combine our data with data from 
other sectors, across the energy sector. What is the energy 
sector seeing in cyber?
    As a vision for the future, to Mischel's point, it will 
look a lot different and a lot better in the future and we can 
leverage the power of the cloud that was mentioned by being 
able to put this kind of data together, infuse it into the 
fabric, and make things more intelligent.
    Mr. Lungren. Thank you.
    My time has expired.
    The gentlelady from New York is recognized for 5 minutes.
    Ms. Clarke. Thank you very much, Mr. Chairman.
    Ms. Kwon, cyber intrusions affect the private sector even 
more than Government networks. Some of these private networks 
involve critical infrastructures necessary for our society and 
our economy to function.
    What can DHS do to foster better cybersecurity practices in 
the private sector? Does DHS need regulatory or enforcement 
authority for critical infrastructure sectors, and should the 
private sector be doing more on its own? If so, why isn't it 
happening?
    Ms. Kwon. Well, this has been always the very difficult 
question because our critical infrastructure is not owned or 
operated by the Government. Therefore, the Government does not 
have any authority over the private sector.
    What is needed here is better collaboration and better 
communication.
    Whether regulation is needed or not, I am not a regulator. 
I am not in that kind of business. I am a technical geek by 
nature. So I will leave that decision to the lawmakers and the 
regulators.
    But enabling us to more clearly communicate amongst the 
Government and the private sector and share that critical 
threat information is actually--is very important. But even 
more than that, DHS helping the security teams that work in 
those critical infrastructure environments to communicate with 
their executives and their board members to enable the 
financing that needs to be put behind securing critical 
infrastructure is critical and important and to helping them 
accomplish their mission.
    Mr. Lewis. Can I just jump in on that one for a second? We 
did a poll with McAfee recently, and it found that two-thirds 
of the electrical companies in the United States had found 
Stuxnet on their system, two-thirds. Of those two-thirds, only 
40 percent had taken steps to remove it.
    Does that make you feel good? Not me.
    I think if we don't give DHS more authority, we will not 
succeed at this, and I think CFATS might be a useful model to 
think about.
    Ms. Clarke. Thank you.
    Dr. Schneck, your recent report on Chinese-sponsored 
hacking into our energy sector computers was very concerning. 
Is the industry now fully aware of this issue, and if so, have 
you seen evidence that they have acted to protect themselves? 
If not, why not, and where is the disconnect?
    Ms. Schneck. So, on the question of, is the industry fully 
aware, from reports like these that we have done with CSIS, we 
consistently get surprise answers back. So, for example, 
security spending last year went down with the recession, even 
though awareness of the threat went up. So awareness and acting 
may not always be related.
    In addition, when you talk about being aware, although many 
are aware there is a threat, I think that both public and 
private can do a better job of explaining what that threat 
really means. For example, you can have, you can have the 
malicious code on your system, and it wouldn't be a threat, and 
there are two cases why this is true.
    One is, if you are not running any systems that that code 
can actually access or use to your harm, you don't need to 
worry about that particular threat, so we need to do some risk 
analysis, back to the comment earlier about looking to the CFOs 
and the risk people in each company; this is all a question of 
the risk.
    But the second thing is there is technology today that can 
sit very quietly on a system and just decide these X processes 
may run, that is it. Anything outside of those processes simply 
should not run. So we are working with our colleagues and our 
partners on how you embed this kind of technology into the big 
component levels of industrial control systems, because we 
can't always assume everyone is aware. This rose so quickly, we 
can't make everyone aware, and we certainly can't predict the 
next threat as quickly as the bad guy can send it.
    You are leveraging the power of light. This is happening in 
bits and bytes at the speed of light. So what we can do is say, 
only those authorized can act.
    Ms. Clarke. Thank you.
    Mr. Lewis, in your writings, you have talked a lot about 
public-private partnerships for the cybersecurity mission. Can 
you explain to us what roles you feel each side needs to play? 
What, for example, are the inherently Government functions, the 
public side, and what components are best left for or even must 
be left for the private sector?
    Mr. Lewis. Thanks. That is a great question. The obvious 
place to start for me is that development of technology has to 
be left to the private sector, and they are just the masters at 
it. We have to let them do it.
    A place where public-private partnership makes sense is on 
information sharing, and it is easy to get sort-of distracted 
by the numbers in information sharing, but basically, there is 
a small set of companies that have, including McAfee and 
Symantec and others, the big telco operators, the big ISPs like 
Comcast or Cox, put them together with DHS and with NSA, and we 
will have a pretty complete picture of what is going on, on the 
internet.
    Now there are legal impediments to doing that, right, and 
that is a harm to the ability to secure our Nation's networks. 
But that kind of focused information sharing with a small group 
of companies is a perfect place for a public-private 
partnership.
    On the other hand, there are some threats that only the 
government can deal with. If we are talking about the Russian 
military or the German military or al-Qaeda or the Iranian and 
North Korean military, that is a government response, and there 
is no company--the story I like to show is Google, greatest 
technology company in the world, some would say, didn't take 
the Chinese very long to get through their defenses. There are 
some things only government can do.
    Mr. Lungren. The gentleman from the second-largest State in 
the union, Mr. McCaul, is recognized.
    Mr. McCaul. California is close behind, I might add.
    Jim, it is great to see you again.
    Dr. Schneck, thank you for your service on the commission 
as well.
    I assure the Chairman that I was not personally responsible 
for the 40,000 downloads of that report, but I will, I just 
want to commend your leadership, which was far greater than 
mine, in really herding cats on some of the top experts in the 
Nation, putting that report together. Perhaps we should call 
you the bots herder in cyber terms, I don't know.
    You know, 15,000 Federal intrusions take place per day, so 
you are going to have 40,000 downloads over a period of a year 
or so, but 15,000 intrusions per day on the Federal Government. 
As was pointed out, the three levels we always talk about is 
the criminal aspect, the espionage and the warfare piece.
    God knows how many are taking place in the private sector. 
I am sure it is far greater than that. When you look at the 
amount of data that has been stolen from just the Federal 
Government alone, it rivals the Library of Congress, so it is a 
very serious issue.
    Jim, I just want to throw out just a very generic question. 
Since the time of the report, I think the threat level has 
increased. Do you feel that we have made any progress, and do 
you feel that in any way we are safer?
    Mr. Lewis. Thank you, and I do want to say that I believe 
Congressman McCaul is right in that there were lots of clicking 
noises late at night from both of our offices, but that wasn't 
the cause of the downloads. So are we making progress? The 
answer, I think, is, ``Depends.''
    When you look at the Department of Defense, some tremendous 
efforts with the creation of Cyber Command. When you look at 
the Department of Homeland Security, significant improvement. I 
think you heard Phil describe that. Other departments, State, 
Commerce, have made some efforts.
    So, overall as a Nation, OMB with its efforts to revise 
FISMA and to find a better way to secure Federal systems, those 
are all signs of progress, but it is not enough. We were behind 
when we started, as you know, and we have not caught up.
    So do I feel like we were more secure? We were on the path 
to being more secure, and I think the work that this committee 
and others in Congress can do might get us there by 2012, but 
we are not there yet.
    Mr. McCaul. With respect to--I am sorry, Ms. Kwon.
    Ms. Kwon. Yes. I just want to add something to that in that 
we do spend a lot of time talking about the success of DHS, but 
I also want to say that there has been a lot of great success 
among the departments and agencies. They have, over the past 
several years, stood up several security operation centers and 
have improved the security amongst some of the larger 
departments and agencies, and I think that needs to be 
recognized.
    I think a lot of that comes from the actual awareness that 
has been brought to bear through the CSIS Commission and other 
efforts in getting the word out that cyber needs to be a 
priority.
    But I do think, in looking towards the future and things 
that we need to improve is improving that communication within 
the Government on the Federal, civil, civilian side of the 
house, getting DHS to work more closely, not only with private 
sector but with the civil agencies, CIOs and CISOs and work 
that improvement across the Federal space together.
    Mr. McCaul. One thing I noticed both you, Ms. Kwon, and Jim 
mentioned was that DHS needs more authorities and that you, I 
think you mentioned appropriate authorities must be given to 
US-CERT. Can you be more specific?
    Ms. Kwon. Well US-CERT does not--the authorities US-CERT 
has today are centered around what they have with FISMA and the 
reporting that the departments and agencies must do with them.
    The problem with that is reporting is simply reporting, 
working together is not working together.
    So being able to work from a position of authority during 
an incident with the departments and agencies, to request 
information from them, to have certain actions performed, it is 
very important for them to have that authority over the space 
they are trying to protect, and they don't have that authority 
today.
    But in giving them the authority, they also have to have 
the relationship with those departments and agencies. I think 
that is where we are falling short; we are talking a lot about 
authorities and more of a dictatorship and what we really need 
to have is a collaborative partnership with those departments 
and agencies so that they can take the actions needed in the 
time of an event.
    Mr. McCaul. I couldn't agree with you more on that.
    You said something interesting that caught my attention 
that I hadn't heard before, and that is that the nonprofit 
could play a role in protecting the private sector.
    Ms. Kwon. Well, I often find that private sector also has a 
problem sharing with themselves. So sharing information about a 
cyber attack is very difficult. I mean, it goes to reputation. 
It has financial implications. It can ruin and crush companies, 
as we have seen in the near recent past.
    So it is important to be able to share. I think if we take 
the Government out of the picture and allow private sector to 
create a nonprofit together and start that sharing with the 
Government as being a member but not the leader, I think we 
might be able to find some success.
    I also think that there are different levels of information 
that we are talking about here, whether we are talking about 
broad-threat information with attribution or whether we are 
talking about technical TTPs, ways in which the malware works, 
the actual code itself, how to detect it.
    Being able to put together an organization that can share 
those very granular, technical bits of information I think is 
critical and important in moving forward and a way in which we 
can do it circumventing some of the problems of law.
    Mr. McCaul. I wanted to ask a question about Einstein-3, 
but I see my time has expired.
    Mr. Lungren. We might come back to you.
    Mr. McCaul. Or somebody else. I would love a grade on 
Einstein-3. Maybe I will ask it in a written question.
    Mr. Lungren. The gentleman from Louisiana, Mr. Richmond, is 
recognized for 5 minutes.
    Mr. Richmond. Thank you, Mr. Chairman.
    I guess this question is to Mr. Lewis. You were here when I 
was asking the question about the health, electronic health 
records and a baseline or a set of standards that we should 
have, and I am looking at part of your testimony where we talk 
about the smart grids and the voluntary approach.
    I guess I am interested in your opinion on both with 
electronic health records and the small grid and how vulnerable 
we are, where we should be going and where we are today in 
light of where we should be.
    Mr. Lewis. Certainly. Thank you.
    You know, a lot of times you will hear people say that we 
don't know what standards to put in place and there are too 
many standards or there are lots of standards, and that was 
probably true a few years ago.
    But we are now at the point where between our ability to 
collect data, our ability to identify best practices, we can 
now start to do things. We can now start to think of standards 
or mandatory best practices that would improve cybersecurity, 
either in health or in smart grids, in the electrical sector.
    So I think we are on the cusp of being able to make that 
leap. You can look at places like the Department of State that 
have put into place a set of standards that have been very 
effective.
    In 2003, State lost 3 to 4 terabytes of information to an 
unknown foreign opponent who probably lived in China. Three or 
4 terabytes is about the equivalent of a third of the Library 
of Congress. Today that couldn't happen because they have 
identified best practices and things you can do.
    So I think we can say now, do this and we will be safer, 
right.
    When it comes to actually putting those in place, HIPAA, 
very old, very prescriptive regulations have immense drawbacks, 
and we need to find a more flexible approach.
    Smart grids, well, it will take a while before it's secure, 
that might be the nicest thing to say. It is not secure now.
    People are trying hard, but as I think I mentioned in my 
written testimony, the process that the National Institute of 
Standards and Technology used was a consensus process of 475 
members. One way to put that in perspective is that is about as 
many people as there are in the Congress. Suppose you had to 
get every single person in the Congress to agree to a rule. It 
would be a challenging exercise, and I think that is what is in 
front of us.
    We can come up with standards. It is possible to say what 
works, but we don't have the processes in place to do that yet.
    Mr. Richmond. Well, which is very long and especially when 
you talk about the smart grid, and now I think that my utility 
is starting to experiment with smart meters on homes. Is that 
just as vulnerable?
    Mr. Lewis. No, fortunately, because it means that an 
individual home or perhaps a block of homes would be more 
vulnerable, right, because the smart grid itself can be hacked. 
But it doesn't mean you will be able to hack the actual power-
generating facility. It doesn't increase the vulnerability 
there.
    So are you as an individual more vulnerable? Yes. But as a 
Nation, is our critical infrastructure more vulnerable? Not as 
much.
    Mr. Richmond. It appears that in, I think it is just a 
given that we can accept is true, that this changes every 
minute, every second of every day, the risk assessment. I know, 
as a lawyer, the law changes a little less frequently, but we 
are required to do continuing education on changes in the law.
    Is there an industry practice where the chief technology 
officer or whoever is responsible for threat assessments, do we 
have an industry standard or something where they stay up-to-
date with the new threats, new technology, and as it comes 
abroad? I am sure McAfee probably has it; they do it on their 
own. But what I am thinking about, just smaller businesses, to 
make sure that they are aware of the seriousness of the 
threats.
    Mr. Lewis. I think we all want to talk on this one.
    Ms. Schneck. So, thank you. I can speak for McAfee, and I 
can speak for the colleagues with whom we work. I will leverage 
a little bit of my experience.
    A few years ago I ran, for about 8 years, the private-side 
sector of the FBI's InfraGard program. We grew that from 2,000 
members to 33,000 members, bringing subject-matter experts 
across the critical infrastructure sectors into relationships 
with their Federal, State, and, most importantly, local 
community law enforcement officers and Government officials to 
share information about cyber and about all the sectors as they 
are all connected.
    One of the things we learned very quickly is our small to 
medium business base, about 60 percent of our GDP, was probably 
the biggest beneficiary of these relationships because without 
that, they don't have the access and the resources that we are 
privileged to have in larger companies to educate our 
executives, to give our executives the time to go out and learn 
what is really outside of your four walls.
    I would recommend that, not just our organization but 
others, small to medium businesses, to your point, need to 
educate their executives on the crossover between the legal, 
the policy, and the technical because it really--they work 
together so much now. The point was made, a beautiful point 
earlier, about how we are now focusing on the chief financial 
officers and the risk officers.
    When we need to tell a company not to sell something but to 
understand that there is a big risk, we go to the CEO or the 
CFO, so you will see law and policy, I believe, greater value 
placed on that and more effused used in our businesses' future.
    Mr. Richmond. Thank you, Mr. Chairman. I yield back.
    Mr. Lungren. The gentleman from Missouri, Mr. Long, is 
recognized for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman. Mr. Lewis, I don't 
understand if I understood you right, were you talking about 
CFATS program when you said we should emulate that? CFATS, can 
you elaborate on that?
    Mr. Lewis. Sure, I think it was in Phil Reitinger's 
testimony as well. This is a program for the Department of 
Homeland Security that lets the Department set standards in 
cooperation with the operators and owners of chemical 
facilities for anti-terrorism purposes to make the chemical 
facilities more secure.
    It is a little bit of a regulatory authority. It is a 
little bit of a partnership. CFATS is not a bad model, and 
there are things that need to be fixed in it, I think, and 
there are probably some issues on liability. But it is a way to 
say to the companies, here is our goal, you need to make your 
network secure and here are some hints, here are some 
suggestions on how you can do that. But you can do whatever you 
think is best to secure your networks. We have the ability to 
come in and look and say is it actually working.
    So CFATS, not a perfect model, but it is a little more 
flexible than a heavy-handed regulatory approach, and it does 
seem to have had some success.
    Mr. Long. I, as a precautionary note, we had the folks from 
CFATS in a couple of weeks ago, and I asked them, after 4 years 
of their program and hundreds of millions of dollars, if they 
could name their top three accomplishments, things they had 
done. They said, well, Mr. Long, we would say, No. 1, we have 
identified the problem. So I didn't listen too hard to 2 and 3. 
So before we go dovetailing in and trying to emulate CFATS, I 
just want to make sure I understood which program you were 
talking about.
    Dr. Schneck, I think that you kind of answered my question 
that I was going to ask you and on Mr. Richmond, however, I 
just wanted to for the record state that there is a small 
business in my district, a title company, that had $400,000 
electronically removed, and we think, over the weekend, this is 
within the last 12 months, $400,000 removed from their bank 
account, and we believe, the authorities are telling us, that 
it ended up in Pakistan.
    When we had Secretary Napolitano in, I was asking her about 
if the Secret Service is the one that is in charge of that. She 
didn't seem to think they were. The Secret Service had told us 
all please listen all along that they are. So I guess, is there 
any way small businesses like that can protect themselves? So 
you did kind of cover part of it in Mr. Richmond's testimony.
    Ms. Schneck. Absolutely. I think it is a good point to note 
also, and Ms. Kwon made this point earlier, there are many 
agencies that work together in this cyber endeavor. The FBI or 
the Secret Service, there are ways that they are 
interconnected. I think sometimes when we name one agency over 
another, we don't give enough credit to that point.
    The Secret Service, not only part of DHS and their efforts, 
but they are an integral part of the National Cyber 
Investigative Joint Task Force, which I analogize a little bit 
to Noah's ark. There are one or two of each in that task force, 
so when we have a cyber investigation, we call them directly 
because I know that that data that we can share will get all 
across the agencies more quickly than if I make 20 phone calls.
    So the Secret Service or the FBI, one may be working it at 
one point; the other organizations, like the US-CERT, the NCIC, 
everybody is engaged at that point.
    There are things that small to medium businesses can do. My 
best advice from personal experience driving news programs at 
the local level as well, build those relationships before you 
need them. You can meet your State Homeland Security officers. 
You can meet your local police. You can meet--every FBI, every 
State has an FBI field office, some have more than one. Go in 
and meet, I would recommend, the cyber people, meet the Secret 
Service people that work there. They are all friendly, and they 
really do want that outreach.
    DHS actually has a Protective Service Advisor Program, the 
CSAs. These are Federal employees that are positioned in each 
of our States. Some States, the bigger ones, have more than 
others. Their job, part of their job is to know the community, 
know the people there and know the mission of that State, and 
those are also great people and know they can tie you directly 
back to DHS.
    The resources are there. I don't think we as a country have 
done enough to tell the smallest communities and the small to 
medium businesses that they are available.
    Mr. Long. Okay, thank you.
    Ms. Kwon, for you, the large U.S. banks have tremendous 
security setups, and they still get hit, and if the largest 
U.S. banks can't defend themselves, how are regulations that we 
are going to impose, or what can we do to help the small 
businesses?
    Ms. Kwon. Well, this actually goes back to the question 
with Mr. Richmond and is a very difficult question because 
often implementing defensive security is expensive and often it 
is not affordable for a small business or even a medium-sized 
business, or in large corporations where large budget cuts have 
been seen over the past year, this is often a problem.
    I do see the future of moving IT out of the individual 
organizations and into a hosted environment, into a cloud 
environment, is a good defensive mechanism for a lot of small 
companies. You are seeing a lot of that happening today, 
particularly in health care, as we are going to electronic 
health care records.
    You are seeing a lot of doctors moving to IT services 
instead of hosting it in their own offices. That way the 
security costs can be spread over many doctors' offices as 
opposed to being burdened with one. So I definitely see moving 
to new ways of implementing IT as a good solution for 
particularly small businesses.
    Mr. Long. Okay, thank you.
    I yield back.
    Mr. Lungren. I thank the gentleman for yielding back.
    I thank the witnesses for your valuable testimony, both 
this panel and the previous panel. You have both help us very 
much as we are on this journey to ask the right questions and 
to come up with some of the right answers and to see what the 
proper role of the Federal Government is in this and where 
regulation is appropriate, where cooperation is appropriate.
    I have also wondered where the insurance industry is 
appropriate in this, since they seem to have a record for risk 
management in the world, and how you join all those things 
together? Those are some of the things that we will be pursuing 
with this subcommittee.
    Some Members of the committee may have additional questions 
for our witnesses, and I would ask you, if you would, to 
respond to those in writing. The hearing record will remain 
open for 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 11:55 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

  Questions From Chairman Daniel E. Lungren of California for Philip 
                               Reitinger
    Question 1. The various drafts of comprehensive cyber legislation 
that have been circulating recently have attempted to re-organize the 
Department. In fact, the former Director of US-CERT states today in her 
written testimony that US-CERT should report directly to the Secretary.
    Is this necessary?
    What are the positives and negatives, as the Department sees them, 
to re-organization?
    Answer. As detailed in the Quadrennial Homeland Security Review 
(QHSR), cybersecurity is a recognized and vital mission responsibility 
of the Department of Homeland Security (DHS). The United States 
Computer Emergency Readiness Team (US-CERT) is the operational 
component of the integrated capabilities within the Department to 
satisfy its cybersecurity responsibilities. US-CERT has an enhanced 
ability to keep DHS informed about important cybersecurity events since 
2009. US-CERT provides watch, warning, and response functions through 
the National Cybersecurity and Communications Integration Center to the 
Government and to our international and private sector partners. The 
US-CERT provides daily input to the Secretary of Homeland Security. The 
current reporting arrangement has proven successful through CyberStorm 
III as well as all cyber events that have occurred over the past year.
    Moreover, the QHSR was followed by the Bottom-Up Review (BUR), 
which included a plan for DHS to:

``Increase the focus and integration of DHS's operational cybersecurity 
and infrastructure resilience activities. DHS has substantial 
operational cybersecurity responsibilities, which are inextricably 
intertwined with its responsibilities to manage all hazards risk to 
critical infrastructure. DHS typically manages its operational 
responsibilities through operating components. However, the majority of 
DHS's operational activities relating to cybersecurity and 
infrastructure protection and resilience are currently administered by 
NPPD, which is designated as a DHS headquarters element. DHS will focus 
NPPD's activities on operations and more closely align cyber and 
critical infrastructure protection and resilience efforts, in 
cooperation with the private sector, to secure cyber networks and make 
critical infrastructure resilient.''

    Thus, DHS is moving to increasingly integrate physical and 
cybersecurity operations across critical infrastructure. Isolating US-
CERT from that integration could degrade the Department's ability to 
respond to complex incidents.
    Question 2. You mentioned in your statement that DHS signed an MOU 
with DoD that ``aligns and enhances America's capabilities to protect 
against threats to our critical civilian and military computer systems 
and networks.'' How does this MOU benefit the private sector, if at 
all?
    Answer. The Department of Defense (DOD) and the Department of 
Homeland Security (DHS) already work closely together, and this 
agreement formalizes a process to increase the ability of each agency 
to work in its mission space. In particular, DHS leverages DOD's 
significant technical capabilities through its National Security Agency 
(NSA). To support DHS activities in protecting Government civilian 
networks and critical infrastructure, DOD has collocated a Cryptologic 
Services Group and a Cyber Support Element at DHS's National 
Cybersecurity and Communications Integration Center (NCCIC), the hub 
for responding to domestic cyber incidents.
    Through enhanced joint planning and better visibility into each 
others' operational processes, the Memorandum of Agreement (MOA) will 
increase each agency's effectiveness and build on the capabilities of 
each. This in turn will enhance the response capabilities of both 
agencies while dealing with incidents that may affect the private 
sector.
    The MOA does not alter existing DOD and DHS authorities, command 
relationships, or other oversight relationships. The MOA will not 
extend DOD's cyber involvement with the private sector beyond its 
current role. DOD already operates within DHS's National Infrastructure 
Protection Plan (NIPP) framework as the Sector Specific Agency for the 
Defense Industrial Base. Within the critical infrastructure and key 
resources community, DOD works directly with defense industrial base 
partners, DHS and Sector Specific Agencies (SSA), and other critical 
infrastructure partners in developing plans to assist in reducing risk 
and better securing critical infrastructure information systems.
    Moreover, the MOA provides a framework that enables DHS to fuse DOD 
and NSA information, through the NCCIC, with that of the private 
sector. This provides all parties with a more comprehensive situational 
awareness of cyber activity impacting the Nation, and permits all 
parties to respond more effectively to those threats.
    Question 3. How has the OMB memo providing DHS with operational 
review of Federal CIO's compliance with FISMA going to affect the 
cybersecurity program within NPPD?
    Will taking on such wide responsibilities alter the priorities 
within the cybersecurity mission? How will the cyber mission be 
affected?
    Answer. Office of Management and Budget (OMB) Memorandum M-10-28 
``outlines and clarifies the respective responsibilities and activities 
of OMB, the Cybersecurity Coordinator, and the Department of Homeland 
Security (DHS), in particular with respect to the Federal Government's 
implementation of the Federal Information Security Management Act of 
2002 (FISMA).'' It assigns DHS immediate primary responsibility for the 
operational aspects of Federal agency cybersecurity with respect to 
FISMA, including, but not limited to:
    1. Overseeing the Government-wide and agency-specific 
        implementation of and reporting on cybersecurity policies and 
        guidance;
    2. Overseeing and assisting Government-wide and agency-specific 
        efforts to provide adequate, risk-based and cost-effective 
        cybersecurity;
    3. Overseeing the agencies' compliance with FISMA and developing 
        analyses for OMB to assist in the development of the FISMA 
        annual report;
    4. Overseeing the agencies' cybersecurity operations and incident 
        response and providing appropriate assistance; and,
    5. Annually reviewing the agencies' cybersecurity programs.
    The memorandum enables new, proactive protection activities, which 
complement the Department's pre-existing, reactive incident response 
activities in the area of Federal Executive branch agency 
cybersecurity. While the United States Computer Emergency Readiness 
Team (US-CERT) is already focused on detecting malicious activity and 
providing incident response support, the new activities permit DHS to 
better understand the Federal Executive branch's cybersecurity posture 
from both an agency-specific perspective and on an enterprise-wide 
basis. Examples of specific activities include: FISMA reporting to OMB 
based on agency periodic reporting through the CyberScope platform; 
recurring Cybersecurity Compliance Validation (CCV) program engagements 
with agencies; and establishment of Government or private sector Shared 
Service Centers (SSCs) and Blanket Purchase Agreements (BPAs) that 
deliver cost-effective security solutions to Federal agencies and 
further permit those agencies to allocate limited resources to more 
mission-critical activities.
    As it continues to implement the memorandum, DHS will conduct 
annual agency Chief Information Officer (CIO)/Chief Information 
Security Officer (CISO) interviews to maintain awareness of agency-
specific successes and challenges. Interview input enables DHS to 
better assess Government-wide and agency-specific needs and gaps, which 
ultimately leads to establishing new, targeted capabilities or 
processes. DHS recently also began conducting CyberStat reviews with 
Agency CIOs and CISOs in coordination with the National Security Staff 
and OMB to assist agencies in defining action plans to improve FISMA-
related cybersecurity capabilities.
    Undertaken by the Federal Network Security (FNS) branch within DHS' 
National Cyber Security Division, the activities pursuant to the 
memorandum enable DHS and its agency partners to enhance their security 
posture before incidents occur. They also provide US-CERT with a 
clearer picture of an agency's networks, systems, and policies when 
investigating an incident and providing support.
    Question 4. With regard to the private sector the Department is 
still more of a coordinator rather than a directive authority, is that 
an effective role?
    Is the private sector being best served by DHS?
    What additional authorities does the Department feel are necessary 
to better serve and protect the private sector, and especially critical 
infrastructure?
    Answer. The Department of Homeland Security (DHS) has a clear 
authority to conduct analysis, develop mitigation plans, and provide 
warnings with regards to cybersecurity. DHS serves the private sector 
in these capacities on a daily basis. However, nearly all of our 
private sector programs are built on voluntary participation. These 
programs have provided valuable, timely, and actionable vulnerability 
information, risk assessments, and mitigation strategies to our private 
sector partners.
    For instance, both the Cyber Security Evaluations Program and the 
Control Systems Security Program (CSSP) conducted more than 50 on-site 
voluntary assessments in fiscal year 2010. Within CSSP, the Industrial 
Control Systems Cyber Emergency Response Team (ICS-CERT) provides on-
site support to owners and operators of critical infrastructure for 
protection against and response to cyber threats, including incident 
response, forensic analysis, and site assessments. ICS-CERT also 
provides tools and training to increase stakeholder awareness of 
evolving threats to industrial control systems. The United States 
Computer Emergency Readiness Team (US-CERT) also provides similar 
vulnerability, assessment, and mitigation information for private 
sector business networks, upon request. Similarly, a large number of 
private sector participants take part in the Cyber Exercise Program, 
including the recent Cyber Storm III. These exercises are designed to 
increase the preparedness of individual participants, and across the 
public-private response community as a whole.
    Question 5. What is the goal 10-15 years down the road for dot-gov 
protection?
    Answer. Dot-gov protection is a complex, multi-enterprise issue. 
The challenge for dot-gov protection increases as the complexity of the 
Information Technology (IT) environment and the data and services 
consumed become more distributed. The technologies used to manage 
information and to create services that defend information must evolve 
with the larger environment.
    Dot-gov protection must transition from network and signature-based 
security to security that also incorporates information and user-
centric security. Government must adopt IT innovations that better 
serve Federal dot-gov users and the users who interface with Government 
systems. To effect this transition, Government must make fundamental 
changes in the following areas:
Security Operations
    Coordinated Risk Management.--Policy and standards must build on 
knowledge and experience drawn from various sources, including 
intelligence, law enforcement, industry, Government departments and 
agencies (D/As), and others. The Federal Government will continue to 
play a significant role in the development of policy, standards, and 
countermeasures.
    Information Sharing.--Information sharing that ensures the rights, 
privacy, and protection of individuals and their information is 
critical--particularly with the continued expansion of cloud computing, 
solutions as a service, and social networking.
    Distributed Execution.--Distributed execution requires increased 
partnership with D/As and industry. D/As must continuously monitor 
their networks and hosts in order to provide insight into the health 
and status of Federal systems. Government relies on industry to: (1) 
Build product capabilities that secure customers, (2) develop system 
capabilities to provide increased capability to self-heal, and (3) 
provide prevention-oriented solutions to seek out, detect, and protect 
the user from malicious actors.
Technology Attributes
    Identity Awareness.--Full protection of dot-gov requires 
development of ``identity awareness,'' which is a capability that 
provides every component in the ``service chain'' with the ability to 
validate identity, ensure its authenticity, and provide access based on 
the role of that identity.
    Agility.--Advances in mobile computing, cloud-based systems, and 
telework are posing new security challenges to the traditional concept 
of a static security perimeter protecting private Government systems 
and information. Government must be able to adapt as Government 
information is stored and accessed wherever an agency mission requires 
it. The security challenge associated with this agility is deciding 
which new risks are, or are not, acceptable when operating in a 
dynamic, mobile, and cloud-based computing environment, which may be 
only partially under the agency's control.
    Diversity.--In the past, Government agencies operated relatively 
homogenous computing environments; Intel-based workstations running 
Microsoft operating systems were the norm. Now, we see a proliferation 
of device types (netbooks, smart-phones, and tablets) joining 
traditional workstations and laptops. The industry development cycle is 
now measured in months. We can't predict the next great device or 
program, however, we know the trend runs towards smaller, more capable, 
and cheaper devices. Furthermore, capabilities begin to blur as new 
generations of devices emerge. For example, we now judge phones on 
their ability to run applications and computers on their ability to 
make calls. The security challenges associated with this diversity of 
devices ultimately impacts our ability to secure these devices without 
degrading their capabilities.
    Convergence.--As device diversity grows, we begin to see a 
convergence in network space and functionality. Accessing dot-gov no 
longer requires a user to sit in front of a computer. They may access 
our networks from any type of network, including traditional Ethernet, 
telephone systems, cellular lines, or wireless networks. Gone are the 
days when we could devise protections based on relatively stable, 
predicable network paths. The security challenge associated with this 
convergence ultimately concerns our ability to secure these pathways 
without disrupting connectivity.
    In order to address these changes, Government must partner with the 
private sector and academia to develop new security ideas. These new 
ideas must be based on an information- and user-centric view that 
enhances new capabilities, rather than impeding them. These 
considerations are among those addressed in Enabling Distributed 
Security in Cyberspace: Building a Healthy and Resilient Cyber 
Ecosystem with Automated Collective Action. This paper, recently 
published by DHS, presents a five-level maturity model for ecosystem 
focus and convergence that is associated with increasing agility and 
provides an approach for achieving and employing these various levels. 
Ecosystem maturity is further explored through a discussion of healthy 
attributes.
    Source: http://blog.dhs.gov/2011/03/enabling-distributed-security-
in.html.
    Question 6. Are private sector entities responsive to the efforts 
the Government makes with them to warn of threats and mitigate the 
consequences of attacks?
    Answer. Due to the variety of Department of Homeland Security (DHS) 
programs and activities engaged in collaboratively improving 
cybersecurity, and the diverse nature of the private sector, private 
sector responsiveness varies considerably. Several examples of private 
sector responsiveness are outlined below.
    United States Computer Emergency Readiness Team (US-CERT).--Formed 
in 2003, US-CERT is the operational arm of DHS' National Cyber Security 
Division. US-CERT's mission is to lead and direct efforts to improve 
the Nation's cybersecurity posture, coordinate cyber information 
sharing, and proactively manage cyber risks to the Nation while 
protecting the Constitutional rights of Americans.
    If a private-sector entity requests assistance from the Government, 
DHS may provide on-site or remote assistance to perform analysis and 
recommend mitigation actions through US-CERT. This assistance, which is 
based on a signed request for technical assistance, is designed to 
assist private sector entities in detecting the scope of the malicious 
activity and determining mitigation actions to protect the system from 
current and future attacks or breaches. In addition, US-CERT provides 
standardized warning and mitigation information products to its private 
sector partners and constituents through its secure portal and through 
its public facing website.
    The private sector's response varies depending on the entity and 
circumstances. However, we have seen growing private sector interest in 
receiving DHS on-site or remote analytical support. Some issues that 
may inhibit private sector responsiveness include concerns about: (1) 
Exposure of proprietary data; (2) prosecution or regulatory action; and 
(3) negative publicity.
    Cyber Security Evaluations Program.--Since 2009, the National Cyber 
Security Division's (NCSD) Cyber Security Evaluations Program has 
conducted on-site assessments through its Cyber Resilience Review. In 
2010, NCSD deployed its first Cyber Security Advisor (CSA), located in 
the mid-Atlantic region, to promote cyber preparedness, risk 
mitigation, and incident response. In this short period of time, it has 
become apparent that many critical infrastructure owners and operators 
have a general awareness of cybersecurity issues, but only those 
partnering with fusion centers, the Federal Bureau of Investigation's 
(FBI) Infragard program, local communities-of-interest, or those that 
subscribed to the United States Computer Emergency Readiness Team (US-
CERT) informational products, routinely receive Government-provided 
threat warnings. To date, only a limited set of owners and operators 
have been directly engaged in assessments or other targeted 
cybersecurity activities.
    Private sector entities, however, respond well when the Government 
solicits their participation in specific initiatives and they readily 
work with the Government to identify appropriate subject matter experts 
within their organizations. They also work with DHS personnel and other 
Government representatives to develop threat mitigations. For example, 
recent Cyber Unified Coordination Group Integrated Management Team 
operations, under the National Cyber Incident Response Plan (NCIRP), 
used joint private-public partnerships to raise alerts, and to focus 
subject matter expertise and create tractable risk mitigations.
    Cyber Exercise Program.--Private sector partners repeatedly mention 
that Cyber Storm and other DHS-sponsored exercises help improve their 
individual and collective cybersecurity and incident response 
capabilities. The number of private sector organizations that played in 
Cyber Storm III represented a 75 percent increase over Cyber Storm II 
(from 40 to 70 participants). Private sector organizations also 
actively participated in initiatives resulting from Cyber Storm III, 
including development of the Cyber Storm III summary and observations 
report, making edits to the NCIRP, and continuing active membership in 
the Unified Coordination Group, an interagency and inter-organizational 
coordination body that incorporates public and private sector 
officials. Private sector organizations from three critical 
infrastructure sectors already have engaged with NCSD to conduct 
follow-on exercise activities that examine operational changes made as 
a result of Cyber Storm III.
    Control Systems Security Program.--The private sector has shown 
growing interest in the services of the DHS Control Systems Security 
Program (CSSP), which works with public and private sector partners to 
improve cybersecurity of critical infrastructure industrial control 
systems. Since the advent of their activities, CSSP and the Industrial 
Control Systems Cyber Emergency Response Team (ICS-CERT) have grown in 
scope and received increasingly more requests for on-site incident 
response, assessments, control systems training, and other offerings. 
The statistical trend from year-to-year indicates that the community as 
a whole is showing an increased interest in the Government program. 
Their interest also serves as an indicator of the effectiveness of the 
program's outreach and awareness efforts.
    More specifically, ICS-CERT works on a voluntary basis with 
critical infrastructure owner-operators to respond to and analyze 
control systems related incidents, vulnerabilities, and threats. The 
team can perform a comprehensive range of services and activities, 
including providing sophisticated analysis of malware and deploying 
full fly-away teams. ICS-CERT incident response teams (also known as 
fly-away teams), which are routinely requested by the private sector, 
deploy to critical infrastructure facilities bringing advanced and 
unique malware evaluation capabilities and leveraging our control 
systems expertise and fused intelligence analysis. The team then works 
with the company to develop and implement a mitigation plan to 
eliminate the malicious activity and limit the risk of future 
incidents. The team appropriately addresses sensitive information using 
Protected Critical Infrastructure Information (PCII) protections and 
works to mitigate any privacy and civil liberties issues. ICS-CERT is 
then able to carefully aggregate and anonymize data about the incident 
and disseminate early warning alerts and advisories to critical 
infrastructure owners and operators on a sector-by-sector basis. 
Actionable alerts to our stakeholder communities include threat 
information, validated vulnerabilities, and related patches and 
mitigation strategies.
    Once the ICS-CERT actively engages with a specific private sector 
entity via the voluntary incident response process, oftentimes the 
company will continue to implement the mitigation solutions that are 
offered, and, if needed, request additional support from DHS in the 
area of control systems security. Quite often these engagements evolve 
into trusted long-term information-sharing relationships that benefit 
both the Government and the private sector.
    In addition to sending fly-away teams, DHS is also able to 
proactively work with companies to conduct cybersecurity assessments 
using the Cyber Security Evaluation Tool (CSET). These no-cost 
assessments enable users to assess their network and ICS security 
practices against recognized industry and Government standards, 
guidelines, and practices. The assessment tool can be used 
independently by the asset owner, or upon request, CSSP teams can 
assist with a full assessment on-site. The completed CSET assessment 
provides a prioritized list of recommendations for increasing the 
cybersecurity posture of an organization's ICS or enterprise network 
and identifies what is needed to achieve the desired level of security 
within the specific standard(s) selected. The CSET has increased in 
popularity among our partners over the years; in 2010, for example, the 
CSSP conducted 50 on-site assessments spanning 12 critical 
infrastructure sectors (including the Electric subsector) and is on 
target to complete 75 in fiscal year 2011. The tool is now publicly 
available for download on the CSSP website, and countless copies of the 
CSET have already been handed out at conferences and other events.
    CSSP also works closely with the Department of Energy Idaho 
National Laboratory (INL) to provide cybersecurity training to private 
sector employees. The training consists of a weeklong class held at 
INL, instructing in cyber protection and intrusion mitigation 
techniques. Response to the classes has been highly positive--thus far, 
DHS and Idaho National Labs have trained over 16,000 control system 
officials, from chief executive officers to technical operators.
    DHS has worked closely with the private sector as it expands its 
diverse set of resources available to the private sector, including 
threat and vulnerability situational awareness, risk assessment, and 
mitigation, and remote and on-site assistance. The trusted 
relationships DHS has with the private sector--through engagements, 
working groups, co-location on the NCCIC operations floor, and 
outreach--have allowed DHS to incorporate private sector input at every 
step as we build our capabilities. Private sector engagement is a 
cornerstone of the Department's cybersecurity mission and we look 
forward to working with Congress to continue to improve private sector 
outreach efforts.
    Question 7. How does the cloud, or computing as a service, change 
the cybersecurity mission?
    Is the Department prepared for the Government's effort to move more 
and more computing resources to ``the cloud''?
    Answer. The cyber threat environment changes continuously as 
malicious actors adjust their tactics and adopt new technologies. 
Similarly, the evolution of network architectures necessitates a 
cybersecurity posture that is adaptable and focused on risk mitigation. 
Regardless of changes in network architecture, the Department of 
Homeland Security (DHS) will continue to execute its critical mission 
to create a safe and secure cyberspace.
    Cloud computing, computing as a service, time-sharing, and utility 
computing raise many of the same security issues that emerged when 
shared computer services were created in the 1960's. Yet, the 
cybersecurity mission remains the same. The many advantages of cloud 
computing also create many security challenges. We can never eliminate 
all the risks inherent to cloud computing. Instead, we must accept that 
differing levels of acceptable risk will exist for different users. 
Even if private, community, and public cloud computing business models 
use the same security techniques and tools, different business models 
create different security risk environments.
    DHS encourages cloud computing providers to propose innovative 
security solutions that effectively protect Federal systems, 
information, communications, and ultimately, the agency's mission.
    DHS has avoided requiring providers to follow particular designs or 
architecture for cloud computing. For example, due to a constantly 
evolving threat environment, the Federal Risk and Authorization 
Management Program (FedRAMP) was established to provide a standard 
approach to assessing and authorizing cloud computing services and 
products. The National Cyber Security Division is actively 
participating in the FedRAMP development. FedRAMP allows joint 
authorizations and continuous security monitoring services for 
Government and commercial cloud computing systems intended for multi-
agency use.
    These considerations are among those addressed in Enabling 
Distributed Security in Cyberspace: Building a Healthy and Resilient 
Cyber Ecosystem with Automated Collective Action. This paper, recently 
published by DHS, presents a five-level maturity model for ecosystem 
focus and convergence that is associated with increasing agility and 
provides an approach for achieving and employing these various levels. 
Ecosystem maturity is further explored through a discussion of healthy 
attributes.
    Source: http://blog.dhs.gov/2011/03/enabling-distributed-security-
in.html.
Questions From Chairman Daniel E. Lungren of California for Gregory C. 
                               Wilshusen
    Question 1a. In your testimony you comment how the Government is 
lacking a National cybersecurity strategy. I have three related 
questions for that issue:
    How is the lack of a National cybersecurity strategy hindering the 
Government-wide cybersecurity mission?
    Question 1b. How, in your opinion, is it hindering DHS's 
cybersecurity mission?
    Question 1c. How is it affecting the private sector?
    Answer. The lack of an updated National cybersecurity strategy can 
hinder the effective implementation of the Government-wide 
cybersecurity mission. Our work has demonstrated the importance of 
comprehensive strategies that specify overarching goals, subordinate 
objectives, supporting activities, roles, and responsibilities, and 
outcome-oriented performance metrics, as well as time frames to help 
ensure accountability and align agency activities with National 
priorities. National strategies help shape the policies, programs, 
priorities, resource allocations, and standards that can enable Federal 
agencies and other stakeholders to implement the strategies and achieve 
the intended results. Without such an updated comprehensive National 
strategy for cybersecurity, increased risk exists that our Nation will 
not be able to obtain the desired posture against sophisticated 
threats.
    Our work has shown that Federal initiatives and efforts to improve 
information security have consistently fallen short of the mark. The 
following are illustrative examples:
  <bullet> In October 2010, we reported that only 2 of the 24 
        recommendations in the President's May 2009 cyber policy review 
        had been fully implemented. Officials from key agencies 
        involved in these efforts attributed the partial implementation 
        status of the remaining 22 recommendations in part to the fact 
        that agencies had not been assigned roles and responsibilities 
        with regard to recommendation implementation.\1\ One of these 
        recommendations was to develop an updated National cyber 
        strategy; however, administration officials were unable to 
        provide a draft strategy or milestones for when the updated 
        strategy is to be finalized and issued. We concluded that 
        Federal agencies appeared to be making progress toward 
        implementing the recommendations, but lacked milestones, plans, 
        and measures that are essential to ensuring successful 
        recommendation implementation, including the development of an 
        updated strategy. We recommended that the National 
        Cybersecurity Coordinator (whose role was established as a 
        result of the policy review) designate roles and 
        responsibilities for each recommendation and develop milestones 
        and plans, including measures to show agencies' progress and 
        performance.
---------------------------------------------------------------------------
    \1\ GAO, Cyberspace Policy: Executive Branch Is Making Progress 
Implementing 2009 Policy Review Recommendations, but Sustained 
Leadership Is Needed, GAO-11-24 (Washington, DC: Oct. 6, 2010).
---------------------------------------------------------------------------
  <bullet> Our examination of Federal efforts to address the global 
        aspects of cyberspace determined that the U.S. Government had 
        not documented a clear vision of how the international efforts 
        of Federal entities, taken together, support overarching 
        National goals and that the Federal Government had not forged a 
        coherent and comprehensive strategy for cyberspace security and 
        governance policy.\2\ As a result, the United States is 
        hindered in promoting our National interests in the realm of 
        cyberspace. We recommended that, among other things, the 
        National Cybersecurity Coordinator develop with other relevant 
        entities a comprehensive U.S. global cyberspace strategy. The 
        coordinator and his staff concurred with our recommendations.
---------------------------------------------------------------------------
    \2\ GAO, Cyberspace: United States Faces Challenges in Addressing 
Global Cybersecurity and Governance, GAO-10-606 (Washington, DC: July 
2, 2010).
---------------------------------------------------------------------------
  <bullet> Our review of Federal cybersecurity research and development 
        efforts found that among the most critical challenges was the 
        lack of a prioritized National cybersecurity research and 
        development agenda, which increased the risk that research and 
        development efforts will not reflect National priorities, key 
        decisions will be postponed, and Federal agencies will lack 
        overall direction for their efforts.\3\ We recommended several 
        actions, including developing such a National cybersecurity 
        research and development agenda. The White House Office of 
        Science and Technology Policy agreed with our recommendation 
        and provided details on planned actions.
---------------------------------------------------------------------------
    \3\ GAO, Cybersecurity: Key Challenges Need to Be Addressed to 
Improve Research and Development, GAO-10-466 (Washington, DC: June 3, 
2010).
---------------------------------------------------------------------------
    The lack of an updated strategy can also affect the Department of 
Homeland Security's (DHS) and the private sector's cybersecurity 
efforts. While the existing strategy encourages action by private-
sector owners and operators of cyber critical infrastructure, we 
testified in March 2009 that a panel of experts agreed that there were 
not adequate economic and other incentives (i.e., a value proposition) 
for greater investment and partnering in cybersecurity.\4\ The 
panelists also stated that the Federal Government should provide valued 
services (such as offering useful threat or analysis and warning 
information) or incentives (such as grants or tax reductions) to 
encourage action by and effective partnerships with the private sector.
---------------------------------------------------------------------------
    \4\ GAO, National Cybersecurity Strategy: Key Improvements Are 
Needed to Strengthen the Nation's Posture, GAO-09-432T (Washington, DC: 
Mar. 10, 2009).
---------------------------------------------------------------------------
    In addition, we reported in July 2010 that public sector 
stakeholders from DHS and other entities stated that improvements could 
be made to the public-private partnership, including improving private 
sector sharing of sensitive information.\5\ We also reported that the 
expectations of private sector stakeholders were not being met by their 
Federal partners in areas related to sharing information about cyber-
based threats to critical infrastructure. We concluded that the public-
private partnership remained a key part of our Nation's efforts but 
without improvements in meeting public and private sector expectations, 
the partnership would remain less than optimal. As a result, increased 
risk existed that owners of critical infrastructure would not have the 
appropriate information and mechanisms to thwart sophisticated cyber 
attacks that could have catastrophic effects on our Nation's cyber-
reliant critical infrastructure. We recommended that the National 
Cybersecurity Coordinator and DHS work with their Federal and private 
sector partners to enhance information-sharing efforts, including 
leveraging a central focal point for sharing information among the 
private sector, civilian government, law enforcement, the military, and 
the intelligence community. DHS officials stated that they have made 
progress in addressing these recommendations; we will be determining 
the extent of that progress as part of our follow-up efforts.
---------------------------------------------------------------------------
    \5\ GAO, Critical Infrastructure Protection: Key Private and Public 
Cyber Expectations Need to Be Consistently Addressed, GAO-10-628 
(Washington, DC: July 15, 2010).
---------------------------------------------------------------------------
    Updating the National cybersecurity strategy can increase the 
likelihood of improving the cybersecurity posture of our Nation. 
Additionally, an updated strategy could help ensure accountability and 
align agency activities with the United States' long-term economic and 
National security interests, including globally promoting our National 
interests in the realm of cyberspace and ensuring that the Nation does 
not fall behind in cybersecurity and will be able to adequately protect 
its digital infrastructure. As the administration updates the current 
strategy, it needs to focus on clearly articulating goals and 
objectives, assigning roles and responsibilities, developing 
milestones, deploying sufficient resources, defining performance 
metrics, monitoring progress, and validating effectiveness of completed 
actions.
    Our responses to these questions are based on previous work that 
was performed in accordance with generally accepted Government auditing 
standards. Those standards require that we plan and perform the audit 
to obtain sufficient, appropriate evidence to provide a reasonable 
basis for our findings and conclusions based on our audit objectives. 
We believe that the evidence obtained provides a reasonable basis for 
our findings and conclusions based on our audit objectives. Should you 
or your office have any questions on the matters discussed in this 
letter, please contact me.
  Questions From Chairman Daniel E. Lungren of California for Phyllis 
                                Schneck
    Question 1a. In your Although it's oft repeated, McAfee shared with 
us that when they discovered the Night Dragon attacks, those Federal 
agencies who were not contacted first, even maybe hours later, 
expressed their disapproval.
    How do you coordinate sharing the information with the Federal 
Government?
    Answer. We are committed to sharing threat information to help the 
U.S. Government gain a deeper insight into the threat landscape and 
respond to specific attacks. Toward this goal, we work closely with our 
customers to ensure that we adhere to our NDA's as required by the law. 
Once we are sure that we have met all of our obligations to our 
customers, we contact representatives in the various agencies with 
authority over cyber security. We do our best to contact all of the 
actors at the same time--whether in defense, civilian, or crime 
prevention institutions.
    Question 1b. Does there need to be a single source of contact?
    Answer. We believe that the information-sharing process is 
improving. A few years ago, we would experience, on a regular basis, a 
high degree of complexity and difficulty getting to all of the right 
decision makers in a timely way. We often found that agencies that had 
been briefed were unwilling to share information with their colleagues 
in other agencies. It generally took us 2 weeks to brief all of the 
officials in the agencies. More recently, we have found that the 
process is improving. During the recent Night Dragon event, we did one 
briefing, for instance, which included defense, NSA, and FBI officials. 
This was an example of an improved process.
    We understand how complex the information-sharing challenge is in 
the U.S. Government. Many rules regulate the way in which information 
sharing is done, and there are limitations on the types of information 
various agencies can share with each other. These limitations derive 
from law and agency regulations that seek to balance National security, 
domestic security, and privacy rights. Nevertheless, we would urge that 
some type of enhanced procedure be put in place to facilitate the 
ability of companies to share information in a manner that enhances 
their ability to share information in a rapid and efficient manner with 
the Government. Remediating cyber attacks is a complex, time-consuming 
process and the more rapidly the private and the public sectors can 
respond, the sooner our teams can ensure that vital information and 
systems are protected from additional attacks. Bringing down the 
response time from weeks to a few days would do much to enhance the 
security posture of our country.
    Question 2. In a briefing to staff, McAfee brought up the technique 
of ``white listing'' where a computer is essentially limited in what 
applications it could run, which could potentially limit malware from 
infecting a computer.
    Could you give us a little more information about the technique and 
how you see it being used most effectively?
    Answer. White listing technology ensures that only good executable 
code can run on protected systems. The technology is used to protect 
servers, endpoints, embedded devices, and mobile devices. It is used in 
many ATM's, point-of-sale terminals, and Supervisory Control and Data 
Acquisition (SCADA) systems. White listing technology narrows the scope 
of many embedded systems to ensure that an attacker can't install 
malicious code.
    White listing is one of the exciting technologies of the future 
because it can enable organizations to be much more proactive in 
protecting their systems--it gives them much more control because only 
good communications can be received. This contrasts in a considerable 
way with the older model of security, the anti-virus model, which is 
inherently defensive. This model is based on blocking malicious code 
and letting everything else into customer sites. This model has been 
breaking down for some time given the geometric growth in malware over 
the last few years. McAfee detected as much new malware in 2010 as we 
detected since the founding of our company 19 years ago. White listing 
is an important part of the cyber security solution moving forward.
 Questions From Chairman Daniel E. Lungren of California for James A. 
                                 Lewis
    Question 1a. In some regulated industries, companies do only the 
minimum needed to stay compliant with the regulations. In the world of 
security, the minimum effort does not necessarily make one more secure.
    How does one prevent the ``race to the bottom'' in a regulatory 
regime?
    Question 1b. How do we change that culture of security to one not 
of mere compliance, but security?
    Answer. Doing the minimum would be an improvement from where we are 
now. That said, there are several measures that can to prevent a ``race 
to the bottom.''
    The first is to increase transparency and reporting on the number 
of probes, breaches, or service disruptions of computer networks. By 
reporting on the number of security failures, we would be able to 
assess the effectiveness of regulations. The larger goal is to move 
companies to automatic monitoring of networks and to adopt something 
like the ``IT Dashboard'' OMB is putting in place for Federal networks. 
The Security Content Automation Protocol (SCAP) NIST is developing is 
an example of emerging approaches that could automatic and accelerate 
cybersecurity efforts.
    The second would be to allow for some kind of ``spot checks'' of 
computer systems, random checks to see if computer networks were 
adequately secured. This is a standard law enforcement and regulatory 
technique, and could involve DHS or some outside auditor inspecting the 
adequacy of a company's cybersecurity efforts. The knowledge that a 
random check could be carried out would in and of itself encourage 
better compliance.
    A related goal would be to avoid defining compliance as a paper-
driven process, where companies filed regular reports on performance. 
These are inadequate for several reasons, but the most important is 
frequency. Long annual written reports on compliance only benefit 
report writers. A better approach would be to require companies to 
immediately inform the appropriate agency when their networks have been 
successfully penetrated. This changes the metric for compliance. We 
want people to report failures and report the actions they have taken 
in response immediately. In this, a regulatory approach would be part 
of a larger effort to develop a broad understanding of the level and 
kind of malicious activities in cyberspace.
  Questions From Chairman Daniel E. Lungren of California for Mischel 
                                  Kwon
    Question 1. In your written statement you advocate separating US-
CERT, the operational arm, from the more policy- and coordination-
driven NCSD. I'm interested in having you elaborate a bit more on that: 
How does separating elements of the cybersecurity mission benefit the 
Department and/or the private sector especially the critical 
infrastructure?
    Answer. US-CERT is an operational unit with a very important 
mission to support the Federal departments and agencies.
    (1) This mission is buried deep within DHS, which makes decision-
making slow because of all the chains of command it must go through 
(NCSD, CS&C, NPPD). The operational mission is one that must be enabled 
to focus and act quickly.
    (2) US-CERT is often distracted and taken off this mission by the 
policy and coordination arm of NCSD.
    Cyber is a fast-moving space where nimbleness is important for 
success. It often takes US-CERT days, even weeks, to get approval for 
actions because of the need to go through NCSD, CS&S, NPPD, and then to 
get to the Secretaries' attention. As issues go through this chain they 
are often distracted by politics and other priorities and delayed 
further, or veered off from the operationally correct decision. US-CERT 
is often volunteered for programs and projects by the policy and 
coordination arm, thereby taking it off its core mission and into 
projects that are not planned for, budgeted for, or in the scope of 
their expertise.
    It is important for this operational mission to be clear. There 
must be firm process for changing this mission. It cannot be constantly 
changing and moving at the whim of politics driven by a policy team 
seeking its own success at the price of US-CERT's.
    Today, US-CERT's clear mission--as stated in FISMA--is to support 
the Federal departments and agencies. If you were to ask the major 
departments and agencies how often US-CERT assists them, you will be 
surprised to find out that it is very little. US-CERT's focus is very 
fragmented and confused. It has been tasked by NCSD, CS&S, and NPPD to 
participate in a plethora of other projects that take US-CERT's 
understaffed, under budgeted, and technology-limited National security 
operations unit far away from its legislated mission space.
    Question 2a. While you were with US-CERT, how often did you provide 
technical assistance to private sector entities?
    Answer. Once. This is not US-CERT's mission, nor do they have the 
expertise, staff, or budget to assist the private sector on a regular 
basis.
    Question 2b. Does the Department have an established process for 
private entities to request assistance?
    Answer. No.
    Question 2c. If so, how can it be improved? If not, what should it 
look like?
    Answer. If US-CERT is to take on the mission of assisting private 
sector entities it would have to have an increase in budget, staffing, 
and tools. Currently, it is not their mission to assist private sector 
entities.
    Question 3a. In your testimony, you stated that virtualization 
through ``cloud'' technologies is the future for information technology 
infrastructures.
    What are the security risks of moving systems and applications to 
the ``cloud''?
    Answer. The security risks are similar to those of any IT 
infrastructure. The key here is that moving to the ``cloud'' is an 
opportunity to bake security in, build it more securely, and revitalize 
IT infrastructure and share in the cost of better security mechanisms.
    Question 3b. Will we be more secure or less secure from cyber 
attacks?
    Answer. It depends. If the opportunity to improve security is 
taken, it could be more secure, if not . . . no.
    Question 3c. If the Federal Government and private companies are 
moving to the ``cloud,'' what precautionary measures should be taken to 
maintain the integrity of these information systems?
    Answer. First and foremost, we should be looking at new security 
technologies. Technologies where we can cleanse the known malware from 
the infrastructure layer. We need to move to technologies that allow us 
to understand what is good and what is bad. We need to move away from 
signature-based tools where we have to be infected first in order to 
detect the attack. We must move to a more defensive posture where the 
attacks can be detected and stopped on the infrastructure layer, before 
they reach the users.
    Question 4a. In your testimony you discussed the stalemate of 
cooperation and information sharing with the private sector as a result 
of procurement, privacy, and proprietary information issues.
    Answer. First it must be understood that most networks have already 
been compromised. It is actually the rare few who identify the 
intrusions. With this in mind, we must not take a position of 
punishment for those who identify the problems, but we must assist. We 
cannot allow cyber attacks to defeat our private or public sector 
entities.
    Question 4b. What actions need to be taken to aggregate shared 
information about known cyber vulnerabilities from the private sector?
    Answer. I'm not sure cyber vulnerabilities are the problem. We know 
about millions of vulnerabilities. We need to understand more about the 
attacks. As a community--whether we are private or public--we need to 
know more about the details of the attack that would enable detection. 
Not the ``who'', not the ``what'' was taken, but the TTPs, The Tactics, 
Techniques, and Procedures the attackers use. I believe, for both 
private and public, we need an autonomous entity (I referred to this in 
my testimony as a non-profit organization) that can take anonymous TTP 
information and make it available for others to use.
    Question 4c. What other measures should be taken to encourage 
private sector's willingness to share information?
    Answer. There are a few places where this can be improved for both 
private and public sectors.
    (1) Take the attacks and the responses out of the public and press. 
        You must take the reputational damage issue off the table.
    (2) Lower the liability concerns.
    (3) Have an anonymous way to share.

                                 <all>

</pre></body></html>
